<html>
<title> - REDUCING NONMARITAL BIRTHS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
                       REDUCING NONMARITAL BIRTHS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 29, 1999

                               __________

                             Serial 106-35

                               __________

         Printed for the use of the Committee on Ways and Means

                    U.S. GOVERNMENT PRINTING OFFICE
65-696 CC                   WASHINGTON : 2000

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402



                      COMMITTEE ON WAYS AND MEANS

                      BILL ARCHER, Texas, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
BILL THOMAS, California              FORTNEY PETE STARK, California
E. CLAY SHAW, Jr., Florida           ROBERT T. MATSUI, California
NANCY L. JOHNSON, Connecticut        WILLIAM J. COYNE, Pennsylvania
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. McNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHILIP S. ENGLISH, Pennsylvania      KAREN L. THURMAN, Florida
WES WATKINS, Oklahoma                LLOYD DOGGETT, Texas
J.D. HAYWORTH, Arizona
JERRY WELLER, Illinois
KENNY HULSHOF, Missouri
SCOTT McINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida
                     A.L. Singleton, Chief of Staff

                  Janice Mays, Minority Chief Counsel
                                 ------                                

                    Subcommittee on Human Resources

                NANCY L. JOHNSON, Connecticut, Chairman
PHILIP S. ENGLISH, Pennsylvania      BENJAMIN L. CARDIN, Maryland
WES WATKINS, Oklahoma                FORTNEY PETE STARK, California
RON LEWIS, Kentucky                  ROBERT T. MATSUI, California
MARK FOLEY, Florida                  WILLIAM J. COYNE, Pennsylvania
SCOTT McINNIS, Colorado              WILLIAM J. JEFFERSON, Louisiana
JIM McCRERY, Louisiana
DAVE CAMP, Michigan

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.



                            C O N T E N T S

                              ----------                              

                                                                   Page

Advisory of June 22, 1999 announcing the hearing.................     2

                               WITNESSES

U.S. Department of Health and Human Services, Stephanie Ventura, 
  Senior Researcher, National Center for Health Statistics, 
  Centers for Disease Control and Prevention.....................    14
                                 ------                                
Alan Guttmacher Institute, Cory L. Richards......................    80
American Public Human Services Association, John Sciamanna.......   108
Mathematica Policy Research, Inc., University of Pennsylvania, 
  Rebecca A. Maynard.............................................    92
National Campaign to Prevent Teen Pregnancy, Brenda Rhodes Miller    96
Nelson A. Rockefeller Institute of Government, Richard P. Nathan.    37
New Jersey Department of Human Services, Edward Tetelman.........   104
Preserving Family Well-Being Foundation, Pat Funderburk Ware.....    78
Rector, Robert, Heritage Foundation..............................    45
Sawhill, Isabel V., Brookings Institution, and National Campaign 
  to Prevent Teen Pregnancy......................................    68
Westat, Nicholas Zill............................................    25



                       REDUCING NONMARITAL BIRTHS

                              ----------                              


                         TUESDAY, JUNE 29, 1999

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:05 a.m., in 
room B-318, Rayburn Office Building, Hon. Nancy L. Johnson 
(Chairman of the Subcommittee), presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE

June 22, 1999

No. HR-8

                       Johnson Announces Hearing

                     on Reducing Nonmarital Births

    Congresswoman Nancy L. Johnson (R-CT), Chairman, Subcommittee on 
Human Resources of the Committee on Ways and Means, today announced 
that the Subcommittee will hold a hearing on reducing nonmarital 
births. The hearing will take place on Tuesday, June 29, 1999, in room 
B-318 of the Rayburn House Office Building, beginning at 10:a.m.
      
    Oral testimony at this hearing will be from invited witnesses only. 
Witnesses will include officials from Congressional agencies, program 
administrators, researchers, and advocates. However, any individual or 
organization not scheduled for an oral appearance may submit a written 
statement for consideration by the Committee and for inclusion in the 
printed record of the hearing.
      

BACKGROUND:

      
    For several generations, both the number and percentage of American 
children born outside marriage has been increasing. Simultaneously, 
social science evidence has been accumulating to demonstrate that 
nonmarital births are bad for the children involved, their parents, and 
society. Among other findings, children born outside marriage are more 
likely to be poor, perform poorly in school, drop out of school, have 
criminal records, and have nonmarital births themselves. Similarly, 
mothers giving birth outside marriage are more likely to be poor, go on 
welfare, become dependent on welfare, and be unemployed. However, 
historical trends also suggest that the Nation is making some progress 
in its fight to stanch the increase in babies born outside marriage.
      
    The 1996 welfare reform law (P.L. 104-193) contained numerous 
provisions designed to reduce nonmarital births. These included funds 
for abstinence education programs, strong paternity establishment 
requirements, a requirement that teen mothers live at home or with a 
responsible adult, a requirement that teen mothers stay in school, and 
a cash bonus for States that decrease their nonmarital birth rate while 
decreasing their abortion rate.
      
    In announcing the hearing, Chairman Johnson stated: ``Along with 
the related problem of declining marriage rates among low-income 
Americans, the increase in nonmarital births is the nation's leading 
social problem. We have found that the nation's shocking level of 
births outside marriage is correlated with almost all our other social 
ills. Now, for the first time in several generations, we seem to 
actually be making progress in reducing the rate of teen births outside 
marriage and at least stopping the increase in the ratio of all 
American births that occur outside marriage. We are holding this 
hearing to find out whether any of the policies we enacted in 1996 are 
having an impact on the level of nonmarital births and to search for 
additional steps we can take to encourage young people to defer 
childbearing until marriage.''
      

FOCUS OF THE HEARING:

      
    The hearing will focus on four issues. First, historical trends in 
both the illegitimacy ratio and the rate of nonmarital births will be 
reviewed. Second, the numerous policies included in the 1996 welfare 
reform law to reduce nonmarital births will be summarized and their 
impact on historical trends in nonmarital births assessed. Further, the 
hearing will assess the actions being taken by State and local agencies 
to implement the Federal policies on nonmarital births as well as 
additional policies developed at the State and local level. Third, the 
hearing will review whether other societal trends, such as the 
increased fear of sexually transmitted diseases and the increased use 
of long-term contraceptives, have had an impact on nonmarital birth 
rates. Fourth, the hearing will examine new policies that should be 
considered to ensure that the Nation continues to make progress in 
reducing the number of children born outside marriage.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Any person or organization wishing to submit a written statement 
for the printed record of the hearing should submit six (6) single-
spaced copies of their statement, along with an IBM compatible 3.5-inch 
diskette in WordPerfect 5.1 format, with their name, address, and 
hearing date noted on a label, by the close of business, Tuesday, July 
13, 1997, to A.L. Singleton, Chief of Staff, Committee on Ways and 
Means, U.S. House of Representatives, 1102 Longworth House Office 
Building, Washington, D.C. 20515. If those filing written statements 
wish to have their statements distributed to the press and interested 
public at the hearing, they may deliver 200 additional copies for this 
purpose to the Subcommittee on Human Resources office, room B-317 
Rayburn House Office Building, by the close of business the day before 
the hearing.
      

FORMATTING REQUIREMENTS:

      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. All statements and any accompanying exhibits for printing must 
be submitted on an IBM compatible 3.5-inch diskette in WordPerfect 5.1 
format, typed in single space and may not exceed a total of 10 pages 
including attachments. Witnesses are advised that the Committee will 
rely on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. A witness appearing at a public hearing, or submitting a 
statement for the record of a public hearing, or submitting written 
comments in response to a published request for comments by the 
Committee, must include on his statement or submission a list of all 
clients, persons, or organizations on whose behalf the witness appears.
      
    4. A supplemental sheet must accompany each statement listing the 
name, address, telephone and fax numbers where the witness or the 
designated representative may be reached. This supplemental sheet will 
not be included in the printed record.
      
    The above restrictions and limitations apply only to material being 
submitted for printing. Statements and exhibits or supplementary 
material submitted solely for distribution to the Members, the press, 
and the public during the course of a public hearing may be submitted 
in other forms.

      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at `HTTP://WWW.HOUSE.GOV/WAYS__MEANS/'.
      

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      

                                <F-dash>


    Chairman Johnson of Connecticut [presiding]. Good morning, 
everyone.
    Today, we move forward in the series of hearings we have 
planned to methodically and comprehensively fulfill our 
obligation to oversee the implementation and performance of the 
welfare reform legislation of 1996.
    This is a hearing I have been looking forward to because I 
was not one of those who believed that funding abstinence 
programs could have much effect on nonmarital birthrates. I 
believed then and am more convinced than ever now that welfare 
reform will have an effect on the number of children born out 
of wedlock, and I think this is important because of the 
enormous economic and emotional support children need in 
today's world. But this hearing will give us the first good 
information on the effect of the provisions in the 1996 Welfare 
Reform bill and the opportunity we may have to discourage 
nonmarital births.
    There is overwhelming data that nonmarital births is one of 
the Nation's two or three greatest social problems. School 
failure, school dropout, welfare use, poor jobs, crime and 
delinquency and a host of other problems do unfortunately 
correlate with being born to unmarried mothers, that is, 
without the full support economically and emotionally of two 
adults.
    There also seems to be considerable agreement that if we 
could substantially reduce the number of nonmarital births, we 
would improve the lives of millions of adults and children and 
reduce the severity of some of the social problems just listed.
    As we will see in the presentations by Dr. Ventura and 
several of the witnesses, for the first time since the early 
1960s, today we actually have good news about trends in 
nonmarital births. The teen birthrate has been declining since 
the early 1990s, and the overall ratio of nonmarital births has 
been more or less stable for 3 years.
    These are welcome and hopeful developments, but do these 
trends signal a true change in nonmarital births or simply a 
pause in their relentless increase? The purpose of today's 
hearing is to review these questions and discuss provisions we 
put in the 1996 Welfare Reform bill, designed to reduce 
nonmarital births.
    I am pleased that the Congressional Research Service has 
published two concise and exceptionally useful papers on 
nonmarital births. One of these summarizes the provisions of 
the 1996 Welfare Reform law designed to reduce these births, 
and the other is a brief overview of some of the major issues. 
We have placed copies of both papers in the Members' folders 
and copies are available on the table.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5696.001
    
    [GRAPHIC] [TIFF OMITTED] T5696.002
    
    [GRAPHIC] [TIFF OMITTED] T5696.003
    
    [GRAPHIC] [TIFF OMITTED] T5696.004
    
    [GRAPHIC] [TIFF OMITTED] T5696.005
    
    [GRAPHIC] [TIFF OMITTED] T5696.006
    
    [GRAPHIC] [TIFF OMITTED] T5696.007
    
    [GRAPHIC] [TIFF OMITTED] T5696.008
    
    Chairman Johnson of Connecticut. It is my intent to try to 
determine the effectiveness of the 1996 provisions and gain 
better insight into how this subcommittee can better support 
families and discourage nonmarital births.
    What effect did the changes in the law have? What role--the 
very public debate on this issue during the welfare reform 
debate, what role did that public debate play? That was the 
first public discussion of the discouraging data associated 
with these kids's futures, as well as with the future of their 
moms and dads. I am anxious to hear what our distinguished 
witnesses have to say about these vital issues and especially 
about whether additional policy changes could help.
    [The opening statement follows:]

Statement of Chairman Nancy L. Johnson, a Representative in Congress 
from the State of Connecticut

    Today we move forward in the series of hearings we have 
planned to methodically and comprehensively fulfill our 
obligation to oversee the implementation and performance of the 
welfare reform this Congress passed in 1996. This is a hearing 
I have been looking forward to because I was not one of those 
who believed that funding abstinence programs could have much 
effect on nonmarital birthrates. I believed then and am more 
convinced than ever now that welfare reform will reduce the 
number of children born out of wedlock and I think that is 
important because of the enormous economic and emotional 
support children need in today's world. This hearing will give 
us the first good information on this important matter for kids 
and families.
    There is now overwhelming data that nonmarital births is 
one of our nation's two or three greatest social problems. 
School failure, school dropout, welfare use, poor jobs, crime 
and delinquency, and a host of other problems do, 
unfortunately, correlate with being born to unmarried mothers, 
that is without the full support--both economic and emotional--
of two adults. There also seems to be considerable agreement 
that if we could substantially reduce the number of nonmarital 
births, we would improve the lives of millions of adults and 
children and reduce the social problems just listed.
    As we will see in the presentations by Dr. Ventura and 
several other witnesses, for the first time since the early 
1960s, today we actually have good news about trends in 
nonmarital births. The teen birthrate has been declining since 
the early 1990s and the overall ratio of nonmarital births has 
been more or less stable for 3 years. These are welcome and 
hopeful developments. But do these trends signal a true change 
in nomarital births or simply a pause in their relentless 
increase?
    The purpose of today's hearing is to review these questions 
and to discuss provisions we put in the 1996 Welfare Reform 
bill designed to reduce nonmarital births. I am very pleased to 
announce that the Congressional Research Service has published 
two concise and exceptionally useful papers on nonmarital 
births. One of these summarizes the provisions of the 1996 
welfare reform law designed to reduce these births; the other 
is a brief overview of some of the major issues. We have placed 
copies of both papers in the members folders and copies are 
available on the table.
    It is my intent to try to determine the effectiveness of 
the 1996 provisions and gain better insight into how this 
Subcommittee can better support families and discourage 
nonmarital births. What role did the changes in the law play? 
What role did the very public debate on this issue during the 
welfare reform debate play? That was the first public 
discussion of the discouraging data associated with these kids' 
futures, as well as that of their moms and dads.
    I'm anxious to hear what our distinguished witnesses have 
to say about these vital issues--and especially about whether 
additional policies could be helpful.

                                <F-dash>


    And I would like to yield to my colleague, Mr. Cardin.
    Mr. Cardin. Well, thank you, Madam Chair, and let me thank 
you for holding these hearings. I, too, look forward to 
listening to the experts on the panels that we have today.
    Birth to teenage mothers has been declining for nearly a 
decade, and that is certainly good news. I, for one, have 
always felt that we should make a higher national priority the 
problems of teenage moms. The question before this panel is 
what government policies or societal changes promote this 
reduction and what we can do to maintain the progress that we 
have already made in this area.
    I am one of the Members who voted the 1996 Welfare Reform 
law, and I hope that the measures that emphasize parental 
responsibility would have a positive impact on reducing the 
number of teenage pregnancies, parental responsibility for both 
the mother and the father. However, since the reductions in 
teenage birthrates has now been going on for about 10 years, we 
may need to look a little further for explanation as to why we 
have been making some progress in this area.
    This recent progress should not deter us from working to 
further reduce the number of children having children, 
especially since our Nation's teenage pregnancy rate is still 
much higher than nearly every other industrial nation of the 
world. However, there may be some disagreement about how to 
pursue this goal. For example, Governor George W. Bush last 
week, reportedly suggested that teaching abstinence and safe 
sex at the same time sends, ``a contradictory message.''
    I worry this position could mean less information and 
advice on contraception for young women. It is one thing to say 
that abstinence should be our first message to young people, 
but saying that it should be our only message could take us 
backwards, not forwards, in our effort to reduce teenage 
pregnancies. Furthermore, I don't know how one can oppose a 
woman's right of choice and at the same time also oppose 
providing her access to information that might prevent a 
pregnancy.
    In general, I believe our efforts to highlight the merits 
of waiting to have sex does not require us to deprive teenagers 
of information about contraception. After all, there is no 
evidence to suggest that teaching teenagers about safe sex 
increases their sexual activity.
    Madam Chair, as we begin these hearings today on this 
subject, I look forward to our experts helping us as we try to 
develop the right policies for our Nation to reduce teenage 
pregnancy.
    Thank you very much.
    Chairman Johnson of Connecticut. I thank you for your 
opening comments.
    Now, we will hear from the first panel, Stephanie Ventura 
of the National Center for Health Statistics, Centers for 
Disease Control and Prevention, and Nicholas Zill, the vice 
president and director of Child and Family Study Area, Westat, 
Inc., from Rockville. Come join us.
    Ms. Ventura, if you will begin. We are very pleased to have 
your testimony from the Centers for Disease Control.

  STATEMENT OF STEPHANIE VENTURA, SENIOR RESEARCHER, NATIONAL 
 CENTER FOR HEALTH STATISTICS, CENTERS FOR DISEASE CONTROL AND 
    PREVENTION, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Ms. Ventura. Madam Chair and Members of the Subcommittee, I 
am Stephanie Ventura, a Senior Researcher at the National 
Center for Health Statistics, an agency within the Centers for 
Disease Control and Prevention. Thank you for inviting me here 
today to speak with you about trends in births to unmarried 
women. The data I will draw on are from the National Vital 
Statistics System, one of more than a dozen data systems that 
the CDC/NCHS operates to allow us to profile the health of 
Americans.
    By working with State health departments, we obtain data 
recorded on birth certificates, which include an item on 
marital status, allowing us to monitor trends in nonmarital 
births. At NCHS, I have worked with the data on nonmarital 
births for over 30 years.
    I will be presenting both broad trends and some 
illustrative details on nonmarital births. Additional 
information is included in my formal testimony. Much of this 
detail is important to grasping what has proven to be a complex 
social and health issue. As you sort through all of the 
specifics, however, I want to make sure that I convey these 
four important points.
    No. 1, nonmarital births skyrocketed from 1940 to 1990, but 
the trends have stabilized in the 1990s, with a decline in the 
nonmarital birthrate since 1994.
    No. 2, teens are not the only women having nonmarital 
births. In fact, two-thirds of nonmarital births are to women 
20 and older.
    No. 3, teen birthrates have declined considerably since 
1991 with declines in all States and in all racial and ethnic 
groups.
    And No. 4, nonmarital birthrates and teen birthrates have 
fallen for all population groups, but most sharply for black 
women.
    Let's look first at the long-term historical trends in 
nonmarital births, using these three key measures as shown in 
the first chart. These are, No. 1, the birthrate for unmarried 
women; No. 2, the number of births to unmarried women; and No. 
3, the percent of all births that are to unmarried women.
    No matter how you look at the statistics, nonmarital 
childbearing rose dramatically during the half century from 
1940 to 1990. The birthrate for unmarried women, which 
describes the proportion of unmarried women who give birth, 
increased more than sixfold overall, with increases in all age 
groups over this period as shown in the second chart. The 
rising number of nonmarital births was due in large part to the 
increased birthrates for unmarried women and the steep 
increases in the number of unmarried women in the childbearing 
ages.
    The percent of all births that are to unmarried women rose 
sevenfold. Because of increases in birthrates for unmarried 
women and in the number of unmarried women, as I just 
described, and the 40 percent drop in birthrates for married 
women from the 1960s to the late 1980s. The percent of births 
to unmarried women increased substantially in all age groups as 
shown in this next chart.
    In contrast to previous decades, during the 1990s, 
nonmarital childbearing has stopped rising and even declined in 
some age and race groups. The birthrate has declined since 
1994. The total number of nonmarital births has stabilized in 
the last several years, and since 1994, the proportion of 
births to unmarried women has been unchanged at 32 percent.
    Birthrates for unmarried black women have historically been 
higher than for unmarried white women, but the disparity has 
narrowed in recent years. In the 1990s, the rate for non-
Hispanic white women has declined 5 percent, while the rate for 
black women fell 19 percent. The rate for unmarried Hispanic 
women, which is now the highest of any group, has declined 10 
percent.
    Let's look now at teen births. Although teen birth and 
nonmarital birth patterns are often considered interchangeable, 
these rates are not the same. The birthrate for teens aged 15 
to 19 dropped by 16 percent between 1991 and 1997, and it has 
continued to 
decline through June 1998. Of particular note, the birthrate 
for second births to teens who have had a first birth has 
dropped by 21 percent since 1991, as shown in this next chart.
    Despite the declines in teen birthrates, most births that 
occur to teenagers are to unmarried teenagers. Birthrates for 
unmarried teens have declined steadily since 1994, halting 
steep increases which began in the mid-1970s. Rates fell for 
all unmarried teenagers, but again, with the largest decline 
for black teens.
    What are some of the facts behind these recent declines? 
Data from three HHS-operated or -sponsored surveys show that 
the proportion of teenagers who are sexually experienced has 
stabilized and even declined in the 1990s. In addition, 
teenagers are now more likely to use contraceptives at first 
intercourse, especially condoms. About 12 percent of all 
teenagers using contraception and 25 percent of black teenagers 
are using long-lasting hormonal methods, including injectable 
and implant contraceptives. These changes in contraceptive use 
are also found for older women.
    In summary, I hope that my testimony has reinforced the 
four major points I made when I began.
    Thank you for the opportunity to present this data. I would 
be pleased to answer any questions you may have.
    Chairman Johnson of Connecticut. Thank you very much, Ms. 
Ventura.
    [The prepared statement follows:]

Statement of Stephanie Ventura, National Center for Health Statistics, 
Centers for Disease Control, U.S. Department of Health and Human 
Services

    Madam Chairman and Members of the Subcommittee, I am 
Stephanie Ventura, a senior researcher at the National Center 
for Health Statistics (NCHS), an agency within the Centers for 
Disease Control and Prevention (CDC). Thank you for inviting me 
to speak with you today about the trends and variations in 
births to unmarried women. The data I will draw on are from the 
National Vital Statistics System, one of more than a dozen data 
systems that the CDC/NCHS maintains that allow us to profile 
the health and health care experiences of Americans. At NCHS, I 
have worked with the data on nonmarital births for over thirty 
years.
    CDC/NCHS is the Nation's principal health statistics 
agency. In addition to the vital statistics system, we obtain 
our information through ongoing and special studies, including 
surveys where we interview a representative sample of Americans 
about their health, surveys where we conduct direct physical 
examinations, and surveys using hospital data and data from 
other providers of care. These data systems provide information 
on a broad range of health and health-related topics, ranging 
from birth to death and covering such topics as teen pregnancy, 
blood lead levels in children, incidence of overweight, 
cholesterol levels, immunizations, health insurance and access 
to care, the use of surgical procedures, and life expectancy. 
Data from CDC/NCHS are among the most fundamental measures 
supporting health policy decisions, public health practice, and 
research.
    Today I will be talking with you about statistics from our 
National Vital Statistics System. By working with State health 
departments, we obtain data recorded on birth certificates. 
These certificates, initially filed as part of the vital 
registration process mandated in each state, are a rich 
resource for health and demographic research. It is through 
these documents that we obtain data on teen births, prenatal 
care, low birthweight, smoking during pregnancy, and other 
important measures. Birth certificates include an item on 
marital status, and this item allows us to monitor trends in 
nonmarital births.

                                Overview

    I will be presenting both broad trends and some 
illustrative details on nonmarital births. Much of this detail 
is important to grasping what has proven to be a complex social 
and health issue. As you sort through all of the specifics, 
however, I want to make sure that I convey these four important 
points.
    <bullet> Nonmarital births skyrocketed from 1940 to 1990 
but the trends have stabilized in the 1990's, with a decline in 
the nonmarital birth rate since 1994.
    <bullet> Teens are not the only women having nonmarital 
births; in fact two-thirds of nonmarital births are to women 20 
and older.
    <bullet> Teen birth rates have declined considerably since 
1991, with declines in all states and in all racial and ethnic 
groups.
    <bullet> Nonmarital birth rates and teen birth rates have 
fallen for all population groups, but most sharply for black 
women.

                  Long Term Historical Trends, 1940-90

    Let's look first at the long-term historical trends in 
nonmarital births, using three key measures. These are (1) the 
birth rate for unmarried women, (2) the number of births to 
unmarried women, and (3) the percent of all births that are to 
unmarried women. No matter how you look at the statistics, 
nonmarital childbearing rose dramatically during the half 
century from 1940 to 1990, with somewhat larger increases in 
the 1980's than in previous decades (table 1, figure 1).
    The birth rate for unmarried women, which describes the 
proportion of unmarried women who give birth, increased more 
than six-fold overall. Birth rates increased for women in all 
age groups over this period (table 2, figure 2).
    The two key trends contributing to the rising numbers of 
nonmarital births through 1990 were the increased birth rates 
for unmarried women and the steep increases in the number of 
unmarried women in the childbearing ages. The number of 
unmarried women increased substantially as more and more women 
from the large baby-boom generation postponed marriage, a trend 
that shows no sign of abating with the current generation. In 
other words, the combination of more unmarried women who were 
also more likely to have a baby produced substantial increases 
in the number of nonmarital births.
    The percent of all births that are to unmarried women rose 
steeply because of three concurrent trends: The increases in 
birth rates for unmarried women of all ages; the increases in 
the number and proportion of women who are unmarried, explained 
above; and the considerable drop in birth rates for married 
women (dropping 40 percent from 1960 to the late 1980's) (table 
3, figure 3). Thus, the percent of all births that were to 
unmarried women rose because births to unmarried women 
increased while births to married women declined.

Data That Illustrate These Long-Term Trends

    <bullet> The birth rate increased from 7 births per 1,000 
unmarried women aged 15-44 in 1940 to 44 per 1,000 in 1990 
(tables 1 and 2, figure 1).
    <bullet> Trends in rates have been cyclical for most age 
groups, except the rates for teenagers. Teen rates rose, almost 
without interruption, from 1940 to 1990. Rates for women in 
their twenties and thirties rose steeply in the 1980's, by at 
least 50 percent (table 2, figure 2).
    <bullet> Major changes in marriage patterns produced rapid 
growth in the number of unmarried women in all age groups. Two-
thirds of women in their early twenties and about 40 percent of 
women in their late twenties are currently unmarried.
    <bullet> The number of nonmarital births rose 13-fold 
between 1940 and 1990, from 89,500 in 1940 to 1.2 million in 
1990 (table 1 and figure 1).
    <bullet> The percent of all births that occurred to 
unmarried women rose seven-fold, from 4 percent in 1940 to 28 
percent in 1990 (table 1 and figure 1). Increases were 
substantial in all age groups (table 4 and figure 4).
    <bullet> Increases in birth rates for unmarried women aged 
20 and older have contributed to striking shifts in the age 
distribution of nonmarital births. By 1990, only one-third were 
to teenagers compared with half in 1975.

                             Current Trends

    In contrast to previous decades, during the 1990's 
nonmarital childbearing has stopped rising and even declined in 
some age and race groups. The total number of nonmarital births 
rose just 8 percent between 1990 and 1997, and has stabilized 
in the last several years. Most of this increase was due to the 
continued increase in the number of unmarried women. Birth 
rates for unmarried women, the other factor, have stabilized 
and in some cases declined in the mid 1990's (tables 1 and 2, 
figure 2). More importantly, the proportion of births to 
unmarried women has increased relatively little in the 1990's. 
Since 1994, it has been essentially unchanged at 32 percent, 
reflecting stability in birth rates for unmarried women and 
modest increases in the number of unmarried women, coupled with 
declines in birth rates for married women.
    I will now review some of the current patterns in 
nonmarital childbearing.

Variations by Race and Hispanic Origin

    Nonmarital birth rates differ considerably by race and 
Hispanic origin. Reliable rates can be computed for white, 
black and Hispanic women; population data by marital status and 
race have not been available to allow us to compute similar 
rates for other race and ethnicity groups except in census 
years. Rates for unmarried black women have historically been 
higher than for white women, but the disparity has narrowed 
because birth rates for unmarried white women have increased 
more steadily than for unmarried black women (table 2).
    The rate for unmarried white women more than doubled from 
18 per 1,000 in 1980 to 38 in 1994, and has since declined 
slightly to 37. In contrast, the rate for unmarried black women 
increased from 81 in 1980 to 91 in 1989 (about 12 percent), and 
has declined steadily since to 73 per 1,000 in 1997 (down about 
19 percent) (table 2).
    Rates for unmarried Hispanic women are available only since 
1990. The rate was highest in 1994, at 101 per 1,000, and has 
dropped 10 percent since. The birth rate for unmarried Hispanic 
women is the highest of any race/ethnicity group; this is 
consistent with the overall fertility patterns for Hispanic 
women.
    Rates for unmarried women by age within race and Hispanic 
origin groups show essentially the same trends as the overall 
rates by race and ethnicity. Rates have fallen steeply for 
unmarried black women under age 35 (table 2).
    Birth rates for married black women have declined even more 
than rates for unmarried black women and the rates are now much 
closer to each other (table 3). As a result, the proportion of 
births to unmarried black women remains high, 69 percent in 
1997. Birth rates for married as well as unmarried non-Hispanic 
white and Hispanic women have generally stabilized or declined. 
As a consequence, the proportions of births to unmarried non-
Hispanic white and Hispanic women have changed much less since 
the early 1990's compared with previous years. In 1997, 22 
percent of births to non-Hispanic white women and 41 percent of 
births to Hispanic women were nonmarital.

Teen Birth Rate Trends

    Let's look now at teen births. Although teen birth and 
nonmarital birth patterns are often considered interchangeable, 
these rates are not the same. Teen birth rates have declined 
considerably since 1991. The birth rate for teens aged 15-19 
dropped 16 percent between 1991 and 1997, and it has continued 
to decline through June 1998, according to preliminary data. 
The rate for younger teenagers, 15-17 years, fell 17 percent 
while the rate for older teens 18-19 dropped 11 percent. Of 
particular note, the birth rate for second births to teens who 
have had a first birth has dropped substantially--by 21 
percent--since 1991 (figure 5).
    Despite the declines, however, most births that occur to 
teenagers are to unmarried teens. Birth rates for unmarried 
teens have declined steadily since 1994. The rate for unmarried 
teens aged 15-17 fell by 12 percent from 1994 to 1997, while 
the rate for older unmarried teens aged 18-19 fell 7 percent. 
To put these recent declines in perspective, I should note that 
from 1980 to 1994, the rate for unmarried teens aged 15-17 rose 
55 percent, while the rate for teens 18-19 years rose 80 
percent. Birth rates have dropped for unmarried non-Hispanic 
white, black, and Hispanic teenagers, but they dropped the most 
for black teenagers (table 2).

                  Behavioral Changes and their Impact

    Data from CDC/NCHS' National Survey of Family Growth, CDC's 
Youth Risk Behavior Survey, and the NIH-sponsored National 
Survey of Adolescent Males can help explain some of the recent 
declines in teen births and in nonmarital births. These three 
separate surveys have all shown that the proportion of female 
and male teenagers who are sexually experienced has stabilized 
and even declined in the 1990's, reversing the steady increases 
that occurred over the previous two decades. In addition, 
teenagers are more likely to use contraceptives at first 
intercourse, especially condoms. About 12 percent of all 
teenagers using contraception and one quarter of black 
teenagers are using long-lasting hormonal methods including 
injectable and implant contraceptives. These changes in 
contraceptive use are probably important factors in the decline 
in birth rates for second births to teenagers who are already 
mothers (figure 5). The increases in contraceptive use reported 
for teenagers are also found for older women. Also a factor for 
black women in their late twenties and older is the continued 
high rates of voluntary female sterilization.

                                Summary

    I hope that my testimony has reinforced the four major 
points I made when I began. First, nonmarital births rose 
dramatically from 1940 to 1990, but have since stabilized with 
a decline since 1994. Second, teens do not account for all 
nonmarital births; two thirds are to women aged 20 and older. 
Third, teen birth rates declined considerably since 1991, 
nationally and across all states, but most teen mothers are not 
married. Fourth, nonmarital births and teen births have fallen 
for all population groups, but most steeply for black women.
    Thank you for the opportunity to present these data. I 
would be pleased to answer any questions you may have.
[GRAPHIC] [TIFF OMITTED] T5696.009

[GRAPHIC] [TIFF OMITTED] T5696.010

[GRAPHIC] [TIFF OMITTED] T5696.011

[GRAPHIC] [TIFF OMITTED] T5696.012

[GRAPHIC] [TIFF OMITTED] T5696.013

[GRAPHIC] [TIFF OMITTED] T5696.014

                                <F-dash>


    Chairman Johnson of Connecticut. Mr. Zill--Dr. Zill.

STATEMENT OF NICHOLAS ZILL, PH.D., VICE PRESIDENT AND DIRECTOR, 
     CHILD AND FAMILY STUDIES, WESTAT, ROCKVILLE, MARYLAND

    Dr. Zill. Good morning. My name is Nicholas Zill. I am the 
drector of the Child and Family Study area at Westat, a survey 
research firm in the Washington area. Over the last 24 years, I 
have been conducting national surveys of the health and 
learning of our Nation's children and working to develop 
statistical indicators of family and child well-being.
    Three years ago, I had the privilege of testifying before 
this committee on unmarried parenthood as a risk factor for 
children. Today, I come before you to report that significant 
progress has been made in the last few years in slowing or 
reversing the explosive growth in unmarried childbearing that 
had been proceeding unchecked since the mid-1960s. In the 
Nation as a whole and in all major racial and ethnic groups, 
the proportions of children born to unmarried parents in 1997 
were no different or only marginally higher than the comparable 
proportions that I previously reported for 1993.
    There have also been significant changes in the life 
circumstances of children who are growing up with unmarried 
mothers. More of these children have mothers who are employed 
and working full-time, rather than being welfare dependent. 
More have fathers who are paying at least some child support. 
As a result, the average income of these families has 
increased, and the proportion living in poverty has declined.
    Despite these real and meaningful gains, the picture is far 
from rosy. Although rates of unmarried childbirth have stopped 
increasing, they are still at levels that are three times 
higher than they were in 1970. This year, nearly one in three 
children born in the United States will be born outside of 
marriage. Much more change is needed before the proportion 
returns to the relatively low levels that it had been at for 
most of this Nation's history.
    There is a great deal of variation in the unmarried birth 
ratio across racial and ethnic groups, as you can see in figure 
1 in my written testimony. Those groups that have been least 
successful economically in our society exhibit much higher 
unmarried birth ratios than groups that have been relatively 
successful. Among African Americans, for example, more than 2 
out of 3 births are to unmarried parents; among Mexican 
Americans, 4 in 10. Among Japanese Americans, by contrast, 1 in 
10 births is to an unmarried mother. Efforts to increase 
educational and economic opportunity for all minority groups 
are being thwarted by continued high rates of unmarried 
childbearing.
    Much more change is needed, as well, before unmarried 
parents could be deemed to be living up to their financial 
responsibilities to their offspring. I want to give you some of 
the numbers that illustrate some of the recent favorable 
trends, however, in the circumstances of children living with 
never-married mothers.
    In 1993, less than half of the children living with never-
married mothers, 49 percent, had mothers who were in the labor 
force. By 1998, that proportion had grown to 69 percent, which 
is a 41 percent increase. The fraction of these children with 
mothers who worked full-time grew from 28 percent in 1993 to 42 
percent in 1998. That is a 50 percent rise.
    The proportion receiving some support from the fathers of 
their children increased from 15 percent in 1989 to 21 percent 
in 1995, an improvement of more than a third. The median family 
income of children with never-married mothers grew from $9,292 
in 1992 to $12,064 in 1997, an increase of 30 percent. The 
proportion living in families with incomes below the official 
poverty line improved from 66 percent in 1992 to 58 percent in 
1997, which is a 12 percent decline.
    Despite these improvements, the economic circumstances of 
children living with never-married mothers remain dismal. This 
is so even in comparison to the situation of children living 
with divorced mothers, but especially in contrast to the far 
more favorable circumstances of children living with two 
parents. In my written testimony, I have made some detailed 
contrasts, which you can see in Table 1.
    Just to give you a few illustrations, 42 percent of 
children of never-married mothers worked full-time in 1998, 
whereas the same was true of 63 percent of children of divorced 
mothers. Fifty-one percent of divorced fathers contributed to 
the child support of their children versus 21 percent of never-
married fathers. The poverty rates, respectively, were 58 
percent for children with never-married mothers, 36 percent for 
those with divorced mothers and only 9 percent for those in 
two-parent families.
    The elaborate child support enforcement mechanisms that 
have been put into place in recent years are working fairly 
well for middle-class divorced parents who have conventional 
occupations. They are working much less well for unmarried 
parents, many of whom do not have a regular job or work only in 
the underground economy. Better ways must be devised to get 
unmarried parents who live apart from their children to work 
and contribute regularly to the support of the children they 
have fathered. By making sure that the action of fathering a 
child has real consequences for the young men involved, that 
they cannot simply walk away from their responsibilities with 
impunity--and 79 percent of fathers are doing that right now, 
are not providing any child support for their children--we will 
not only be improving the lot of the children involved, we will 
also be helping to reduce the frequency of unmarried conception 
and childbirth in the future.
    In conclusion, I would urge this committee to track and be 
concerned not only about the rate and ratio of unmarried 
births, but also about indicators of the life circumstances of 
children born and being raised outside of marriage, indicators 
such as those I have presented in this testimony.
    I request that my written statement and the accompanying 
figures be placed in the record. Thank you.
    [The prepared statement follows:]

Statement of Nicholas Zill, Ph.D., Vice President and Director, Child 
and Family Studies, Westat, Rockville, Maryland

    Good morning. My name is Nicholas Zill. I am the Director 
of Child and Family Studies at Westat, a survey research firm 
in the Washington area. For the last 24 years, I have been 
conducting large-scale studies of the health and learning of 
our nation's children and working to develop statistical 
indicators of family and child well-being.
    Three years ago, I had the privilege of testifying before 
this committee on unmarried parenthood as a risk factor for 
children. I presented evidence showing that children born 
outside of marriage have a substantially greater risk of being 
raised in poverty than children born to married parents. They 
also have more chance of suffering illnesses and injuries, 
experiencing difficulties in school, becoming victims of crime, 
and growing up to engage in delinquent behavior or become teen 
parents themselves.
    It is not just the simple fact of birth outside of marriage 
that produces these increased risks, but a cluster of negative 
circumstances that usually accompanies unmarried parenthood in 
the United States. Related risk factors include parental 
immaturity and low parent education levels.
    Today I come before you to report that significant progress 
has been made in the last few years in slowing or reversing the 
explosive growth in unmarried childbearing that had been 
proceeding unchecked since the mid-1960s. For the nation as a 
whole, and in all major racial and ethnic groups, the 
proportions of children born to unmarried parents in 1997 were 
no different or only marginally higher than the comparable 
proportions that I previously reported for 1993.
    There have also been significant changes in the life 
circumstances of children who are growing up with unmarried 
mothers. More of these children have mothers who are employed 
and working full time rather than being welfare dependent. More 
have fathers who are paying at least some child support. As a 
result, the average income of these families has increased and 
the proportion living in poverty has declined.
    Despite these real and meaningful gains, the picture is far 
from rosy. Although rates of unmarried childbirth have stopped 
increasing, they are still at levels that are three or more 
times higher than they were in 1970. This year, nearly one in 
three children born in the United States will be born outside 
of marriage. Much more change is needed before the proportion 
returns to the relatively low levels it had been at for most of 
this nation's history.
    There is a great deal of variation in the unmarried birth 
ratio across racial and ethnic groups, with those groups that 
have been least successful economically in our society 
exhibiting much higher unmarried birth ratios than ethnic 
groups that have been more successful. Among African-Americans, 
for example, more than two out of three births are to unmarried 
parents. Among Mexican-Americans, four in ten. Among Japanese-
Americans, by contrast, one in ten births is to an unmarried 
mother. (See Figure 1 for further examples.) Efforts to 
increase educational and economic opportunity for all minority 
groups are being thwarted by continued high rates of unmarried 
childbearing.
    Much more change is needed as well before most unmarried 
parents could be deemed to be living up to their financial 
responsibilities to their offspring and before the economic 
circumstances of children living with unmarried mothers could 
be described as even adequate. I would argue that changes such 
as increased child support from unmarried fathers and increased 
employment by unmarried fathers and mothers would not only 
improve the lives of their children, they would also have a 
beneficial feedback effect in reducing the numbers of children 
born outside of marriage in the future.
    Here are some numbers that illustrate recent favorable 
changes that have occurred in the life circumstances of 
children born and being raised outside of marriage:
    <bullet> In 1993, less than half of children living with 
never-married mothers--49 percent--had mothers who were in the 
labor force. By 1998, that proportion had grown to 69 percent, 
a 41-percent increase.
    <bullet> The fraction of these children with mothers who 
worked full time grew from 28 percent in 1993 to 42 percent in 
1998, a 50-percent rise.
    <bullet> Although the unemployment rate among these mothers 
has remained very high, it has eased slightly, going from 21 
percent in 1993 to 17 percent in 1998.
    <bullet> The proportion of never-married mothers with 
dependent children who received some child support payments 
from the fathers of these children during the year increased 
from 15 percent in 1992 to 21 percent in 1995, an improvement 
of more than one third.
    <bullet> The median family income of children with never-
married mothers grew from $9,292 per year in 1992 to $12,064 in 
1997, an increase of 30 percent (not adjusted for inflation).
    <bullet> The proportion living in families with incomes 
below the official poverty line improved from 66 percent in 
1992 to 58 percent in 1997, a 12-percent decline.
    Despite the improvements just enumerated, the economic 
circumstances of children living with never married mothers 
remain dismal. This is so even in comparison to the situation 
of children living with divorced mothers, but especially in 
contrast to the far more favorable circumstances of children 
living with two parents. Here are some of the relevant 
comparisons:
    <bullet> Whereas 69 percent of children living with never 
married mothers had mothers who were in the labor force in 
1998, the same was true of 81 percent of children living with 
divorced mothers. Among children living with two parents, 88 
percent had at least one parent in the labor force, and 60 
percent had both parents employed.
    <bullet> Whereas 42 percent of children of never-married 
mothers had mothers who worked full time, the same was true of 
63 percent of children with divorced mothers.
    <bullet> While 17 percent of children with never-married 
mothers had mothers who were looking for work but unable to 
find it in 1998, the same was true of less than 7 percent of 
children of divorced mothers, and only 3.4 percent of children 
in two-parent families.
    <bullet> The proportion of divorced mothers living with 
dependent children who received child support from the fathers 
of those children in 1995 was considerably higher than the 
comparable proportion for never married mothers: 51 percent 
versus 21 percent. The average amount of annual child support 
received by those who received any support was also 
considerably higher among divorced than among never-married 
mothers: $3,990 (or about $333 per month) versus $2,271 (or 
about $189 per month).
    <bullet> Whereas the median family income for children with 
never-married mothers was $12,064 in 1997, it was $21,316 for 
children with divorced mothers, and $52,553 for children in 
two-parent families.
    <bullet> The respective poverty rates for children in 1997 
were 58 percent for those with never-married mothers, 36 
percent for those with divorced mothers, and 9 percent for 
those in two-parent families.
    The way to reduce welfare dependency and combat childhood 
poverty is not to hold unrealistic expectations about increased 
educational attainment among unmarried mothers and fathers. 
Every parent cannot be a college graduate, nor should we expect 
that everyone needs to be in order to make ends meet. The way 
to accomplish both goals is to insure that all men and women 
who bring children into the world work steadily and make 
regular and meaningful contributions to the financial support 
of their children. This should be the case whether the parents 
are married or unmarried.
    The elaborate child support enforcement mechanisms that 
have been put into place in recent years are working fairly 
well for middle-class divorced parents who have conventional 
occupations. They are working much less well for unmarried 
parents, many of whom do not have a regular job or work only in 
the underground economy. Better ways must be devised to get 
unmarried parents who live apart from their children to work 
and contribute regularly to the support of the children they 
have fathered. By making sure that the action of fathering a 
child has real consequences for the young men involved--that 
they cannot simply walk away from their responsibilities with 
impunity--we will not only be improving the lot of the children 
involved. We will also be helping to reduce the frequency of 
unmarried conception and childbirth in the future.
    In conclusion, I would urge this committee to track and be 
concerned not only about the rate and ratio of unmarried births 
in the U.S., but also about indicators of the life 
circumstances of children born and being raised outside of 
marriage, indicators such as those presented in this testimony.
[GRAPHIC] [TIFF OMITTED] T5696.015

[GRAPHIC] [TIFF OMITTED] T5696.016

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you. We will place 
your entire statements in the record for both witnesses.
    To what extent is this decline in nonmarital births related 
to demographics, a decline in the number of women of 
childbearing age?
    Ms. Ventura. That is an issue. The childbearing age 
population is getting older, and older women are less likely to 
have nonmarital births; but even so, the rates have declined 
for women in all age groups. So that is the other part of it. 
The long-term increases were for all age groups, and the recent 
declines have been drawn from most age groups.
    Chairman Johnson of Connecticut. How much do we know about 
how much this decline is related to abstinence and how much is 
related to contraceptive use?
    Ms. Ventura. The data from the National Survey of Family 
Growth and the CDC Youth Risk Behavior Survey and also the 
National Survey of Adolescent Males have all shown that there 
has been a decline in sexual activity among teenagers in the 
1990s, and among those who are sexually active, an increase in 
contraceptive use at first intercourse. For the really high-
risk teenagers, those who have already had a baby, there has 
been an increase in the proportion of who are using the long-
lasting hormonal methods.
    We have not been able to sort out exactly how much of the 
decline is accounted for by abstinence and how much is 
accounted for by changes in contraceptive use. I think they are 
both important, but we haven't been able to apportion them 
precisely.
    Chairman Johnson of Connecticut. Would you have any comment 
on that, Dr. Zill, particularly on this issue of the specific 
role of abstinence programs and the change as it resulted and 
the sort of commonness of that discussion? I mean, years ago 
there was no talk of abstinence at all, during the 1970s and 
1980s, and now there is; and there are programs out there that 
are planting this idea more broadly where teenagers can hear 
it. What evidence do we have that this is being heard and 
thought about by kids?
    Dr. Zill. Well, I would point to a couple of things.
    First, as far as demographics are concerned, the changing 
ethnic and racial composition of our population would actually 
lead you to expect more nonmarital births. So I think the 
leveling-off is particularly impressive, given that. I think 
you also have to think, though, in terms of the future 
prospects and the calculations--the unconscious calculations--
that go on in young people's minds. I think many minority 
teenagers have seen the very bad example of their parents who 
became crack addicts, who had teen births, who wound up in 
poverty and welfare dependence, often in institutions.
    And I think some of what is going on in terms of refraining 
from sexual activity, as well as using contraceptives, is that 
the prospects for young women, particularly with our Nation's 
effort to increase educational and economic opportunities, are 
better. So more of them are saying, I don't want to get into 
the losing pattern that I saw my mother and my aunts develop. I 
think we have to focus on that rather than simply lecturing to 
children about sexual behavior.
    There is still a great deal of sexual activity in our 
society, and the mass media encourage it all the time. There is 
always the message out there that sex has no consequences, it 
is just fun, don't worry about it. It is still very cool for a 
lot of young men to father children without living up to the 
consequences; I think we have to change some of that. But I 
think we also have to think in terms of the real life prospects 
of the young people involved and make sure that they have 
better opportunities than becoming a welfare mother or becoming 
a teen mother, and I think that has to be part of it, rather 
than just thinking of these techniques of contraception or 
thinking of abstinence apart from that larger socioeconomic 
picture.
    Chairman Johnson of Connecticut. I think there is 
increasing, at least anecdotal, evidence that the kids, that 
the mothers who are leaving welfare are impressed and tend to 
be more interested in school and begin to see their 
opportunities as different. I can remember going to 
kindergartners and asking kids what they wanted to do when they 
grew up and having them actually answer, I am going to be on 
welfare. So I think--I don't know to what extent sort of that 
opening of opportunities is influencing the birthrate and to 
what extent the more public conversation about abstinence is 
influencing it, the greater availability of better 
contraceptive options is influencing it.
    But I do think the talk about abstinence, and I do see my--
the Governor of Texas' comments in quite a different light than 
my colleague or than Mr. Cohen of the Washington Post. I think 
it is healthy that he is visiting abstinence programs. I think 
it is important that the conversation get better balanced about 
the benefits of abstinence, particularly in an era of 
extraordinarily dangerous sexually transmitted diseases.
    And so I think we need to rebalance the message, and the 
abstinence programs are a part of doing that, with the delay in 
marriage rates. As to whether we can or want to influence 
adults beyond discouraging them from having children without 
the support of the whole family is a different question, but I 
do think the abstinence programs are important.
    So I appreciate your testimony today.
    Mr. Cardin.
    Mr. Cardin. Thank you, Madam Chair.
    Is there any evidence that sexual activity among teenagers 
has declined?
    Ms. Ventura. Yes.
    Mr. Cardin. Give me some specifics. What type of 
information do we have? How do we know that?
    Ms. Ventura. We have information from the National Survey 
of Family Growth, which is a survey of women in the 
childbearing ages. We have information from the Youth Risk 
Behavior Survey that CDC operates, and also from the----
    Mr. Cardin. And how is that information presented?
    Ms. Ventura. Well, they have published the findings through 
1997.
    Mr. Cardin. And what age groups--is it all age groups?
    Ms. Ventura. The National Survey of Family Growth is for 
all age groups. The other two surveys are just for teenagers or 
the school-age population. The published results have shown 
that for teenagers there has been a decline in sexual activity.
    Mr. Cardin. And do we know the percentage decline?
    Ms. Ventura. It is modest.
    Mr. Cardin. Is it equal to the decline in pregnancies?
    Ms. Ventura. No.
    Mr. Cardin. So we have had a larger decline in pregnancies 
than we have had in sexual activity decline, but we have seen a 
decline?
    Ms. Ventura. Right.
    Mr. Cardin. So, therefore, in following up Mrs. Johnson's 
question, abstinence to a certain degree has--whatever policies 
we have used, there has been a decline in sexual activity, but 
also contraceptives would at least be responsible for some of 
the decline in pregnancies in the last 6 or 8 years----
    Ms. Ventura. Yes.
    Mr. Cardin [continuing]. The combination of the two has 
been successful, at least in reducing the growth rate, and in 
some cases, actually declining the amount of teenage 
pregnancies.
    Ms. Ventura. Yes.
    Mr. Cardin. Dr. Zill, you mentioned a very interesting 
point that I hadn't thought about. I thought about it in 
reverse, and that is, if the child is born to a teenage mother, 
is that child more likely to be a teenage mom?
    Dr. Zill. There is some evidence of that.
    Mr. Cardin. The answer is--I thought it would be yes.
    Dr. Zill. It is.
    Mr. Cardin. But then you are saying that you see your 
parent, as an example, as very unsuccessful economically or 
ending up in prison or ending up with serious abuse problems. 
You don't want that to happen to yourself, therefore, don't go 
down the same path; or you don't want to see it happen to your 
child, so don't become pregnant.
    Dr. Zill. Well, it is like the children of alcoholics, some 
of them become alcoholics while others become teetotalers. 
There is something of a bimodal distribution.
    Mr. Cardin. But your first--we know that if you live in 
poverty, you are more likely to become a teenage parent. We 
know the problem. I guess we don't know why--it seems--why do 
we have teenage pregnancies? What are the reasons? I mean, you 
are giving us some of the statistical information.
    Dr. Zill. A lot of the women who become teenage mothers are 
academic failures. They don't have many prospects in front of 
them. They don't see a bright future in their schools or in 
their occupations. The examples in their neighborhood, as Mrs. 
Johnson said, most of them are welfare mothers, and many of 
them are fathers who don't support their kids. So in their 
calculations, in many instances, welfare motherhood seemed like 
a pretty good opportunity to at least have some sense of an 
adult role and respect from others.
    Mr. Cardin. I have heard that explanation given before, 
some degree of accomplishment, have a child.
    Dr. Zill. Right.
    Mr. Cardin. That is still prevalent today from what you 
are----
    Dr. Zill. Well, I think you can see that even in the inner 
city, that the students who are doing well or who have sports 
scholarships in front of them are much less likely to become 
pregnant. Also, those involved in meaningful activities, like 
the school band, we found in some research we did, were less 
likely to have teen pregnancies. The important thing is some 
sort of positive involvement, some sort of path that goes away 
from motherhood as the principal accomplishment.
    Mr. Cardin. Have there been any studies done as to the 
impact that sex education programs have had in our schools on 
teenage pregnancies? Has there been any effort made to try to 
equate the exposure of children to quality sex education 
curriculum in schools and what impact that has had on teenage 
pregnancy?
    Dr. Zill. There has been some. The evidence I know about is 
not very encouraging. I think the stronger evidence is that if 
there is value-based instruction for children and if the family 
supports it or if important peers support it, then there is 
likely to be an effect. But value-neutral sex education is not 
effective.
    Mr. Cardin. And what do you base that on?
    Dr. Zill. The evidence that is out there.
    Mr. Cardin. Well, I think it would be very useful if you 
can make that available to our committee. I would welcome the 
opportunity of looking at and exploring the methodology used on 
these evaluations.
    I think we all want to achieve the results of less teenage 
pregnancies, and we want to deal with the issues that you have 
brought forward. It is difficult to deal with this in the 
abstract, and there are a lot of competing philosophies around 
this place, and if we are ever going to be able to get any 
degree of consensus on government policy in this area, then we 
are going to have some degree of confidence that we are going 
to enact something that really will deal with the underlying 
problem.
    My own thought is that good programs in schools dealing 
with young people who may not have the best role model at home, 
or the best example at home, could be a very helpful part of 
the overall equation here to reduce the teenage pregnancy rate; 
but how that is structured and who has the most effective 
program and whether we are sharing that information and whether 
we have a national commitment to that is something I am not 
certain about.
    So I would appreciate it if you would make available to us 
the specifics of the studies that you are referring to and, if 
possible, the methodology that was used in those surveys.
    Thank you, Madam Chair.
    Chairman Johnson of Connecticut. I would like to just 
follow up on two questions.
    Dr. Zill, you mentioned that 51 percent of divorced 
mothers--Dr. Zill, sorry--that 51 percent of divorced parents 
received child support payments and even after all the effort 
we have made, only 21 percent of nonmarried fathers contribute.
    Now, we are thinking about a fatherhood initiative. Who are 
we going to reach and what about that great majority of the 
fathers of the unmarried mothers' babies that we are not even 
reaching through child support enforcement and paternity 
determination requirements? I mean, that seems to me astounding 
that given paternity determination requirements to be eligible 
for the welfare system, we are still not--is it that we are not 
collecting from more than 20 percent? We have reached some of 
the others, but they have no money? And are 80 percent really 
beyond our communications network?
    Dr. Zill. Well, I think some of these changes are just 
being instituted now. So it is going to take a while for them 
to really work themselves out. It is not an easy problem 
because, as you said, many of the young men don't have the kind 
of jobs where you can garnish their wages easily. Some of them 
may be in prison, some of them may be working in the 
underground economy. But we really have to make more of an 
effort.
    I feel that a lot of the child support mechanisms have gone 
to the easy place, the way a drunk looks for the keys where the 
light is. We are doing a great job with these middle-class 
fathers where we can garnish their wages. In fact, we are 
probably being overenthusiastic with them. But with the tougher 
cases, we are not doing a good job.
    I think there is a lot of interesting research going on now 
with unmarried fathers and I think we can learn a lot from 
that. Rebecca Maynard, who is going to testify later, could 
probably provide some concrete suggestions in terms of programs 
that can be effective. But currently 79 percent of the 
unmarried fathers have no consequences of fatherhood. And so 
much of welfare reform has focused on the mothers; we really 
need to put the responsibility on the fathers as well.
    For example, right now, a lot of people are saying, well, 
we need to give welfare mothers enough education to support 
their children--college educations. Well, everybody is not 
going to become a college graduate. But even at relatively low-
paying jobs, if both the mother and the father cooperate, it is 
possible to get out of poverty; and we have to have more of 
both parents helping support their children, even if they are 
unmarried.
    Chairman Johnson of Connecticut. Well, we did make--the 
Ways and Means Committee made dramatic changes in the support 
for higher education, and frankly, anybody working now can go 
get a community college degree, absolutely for free, through 
tax cuts. So to do that, you have to have a way to share at 
daycare and things like that, and that means cooperation 
between both parents. But we are going to be doing a fatherhood 
initiative, and any thoughts you have on how we reach out, we 
would be interested.
    And one last question, what do we know about abortion? How 
consistent and of what quality is the abortion data from 
States, and has there been any increase in abortion since 
welfare reform?
    Ms. Ventura. Actually, the National Center for Health 
Statistics doesn't collect abortion data, but I can tell you 
briefly what I know about it.
    The States vary in completeness in the reporting of 
abortion. Although it is reported in all States, the coverage 
varies dramatically. The States provide information on 
abortions to the CDC in Atlanta, that is, tabulated data. It is 
not like the National Vital Statistics System where each 
individual record is reported, so there is not the same 
oversight. It is not the same kind of relationship between the 
Federal and the State governments to provide this data.
    From what we see, the abortion rates and the ratios and 
percentages are all declining. They have been declining for a 
number of years actually, even longer than the teen pregnancy 
rates have been going down.
    Chairman Johnson of Connecticut. Well, thank you very much 
for your testimony. We appreciate it and thank you for being 
with us.
    Let's see, the next panel is Dr. Richard Nathan, director 
of the Rockefeller Institute of Government in Albany; Robert 
Rector, a senior policy analyst for the Heritage Foundation; 
Isabel Sawhill, senior fellow, Economic Studies, Brookings 
Institution; Pat Funderburk Ware, president and chief executive 
officer of PFW Consultants; and Cory Richards, vice president 
for Public Policy, Alan Guttmacher Institute.
    Welcome.
    Richard Nathan, would you begin, please.

STATEMENT OF RICHARD P. NATHAN, DIRECTOR, NELSON A. ROCKEFELLER 
           INSTITUTE OF GOVERNMENT, ALBANY, NEW YORK

    Mr. Nathan. Thank you very much, Madam Chair. The emphasis 
of our research is on implementation, what is happening in 
State and local governments and in social program bureaucracies 
as welfare reforms are implemented; and I will just highlight 
the double-spaced part of my testimony.
    The first report of our 20-State implementation study 
showed that the governors and State legislatures have adopted 
welfare reforms that strongly signal the importance of the work 
objective.
    We do not, however, find similar widespread policy or 
administrative support for the act's anti-reproduction goals. 
Legislative proposals and often tentative administrative policy 
initiatives to change sexual behavior have been advanced in 
some States, but often they are dropped, watered down or 
deemphasized at the front line by the workers, which is 
critical in this area because this issue elicits controversial 
attitudes that probably can't generate statewide support in any 
State.
    The essential challenge involves disagreements about, as 
you have discussed, the methods for preventing teen pregnancy 
and out-of-wedlock births. The basic divide is between 
abstinence and a distribution of contraceptives.
    In the next section of my testimony, on page 2, I talk 
about defining ``deviance up,'' to take a line and reverse it 
from Senator Moynihan. This is a time when social policy is 
changing values in the education area, in the welfare area and 
in the housing area--all across the board. The Personal 
Responsibility Act is aptly named.
    In the work area, the national consensus has been loud and 
clear for a long time, but in the other major area, where the 
signaling of the 1996 Act is even stronger, the picture is less 
clear.
    The next section of my testimony lists four lessons from 
our management research in the States, first of all, about how 
devolution is increasing dramatically. I have been in this 
field a long time. I am really impressed by this.
    The second point is that the real story of devolution is 
second order and tertiary devolution down to local levels.
    The third point is that in the super-sensitive area of 
pregnancy prevention, this push to the local level is 
particularly powerful. It is like a hot potato: Pass it along 
for somebody else to deal with it according to the values that 
prevail in local communities.
    And the fourth point from our research is that the main 
bureaucracies involved (the work and welfare bureaucracies) 
don't connect easily or often with health bureaucracies and 
family planning clinics, and that is a big challenge.
    The next part of my testimony deals with this problem as an 
opportunity to make linkages. We are doing work at the 
Rockefeller Institute with the General Accounting Office on 
what we call, as I say on page 5 of my testimony, 
``connectivity.'' The key to welfare reform is building systems 
that connect social programs, food stamps, Medicaid and many 
social services. It is not just a matter of knowing what we do. 
It is also a matter of doing what we do. Information technology 
now provides the power to make these connections at the front 
lines.
    Some States are working hard on this. Teen pregnancy 
prevention and prevention of out-of-wedlock births, however, is 
usually not on this screen, as I say in the testimony, either 
figuratively or literally.
    Skipping along in the testimony, the highlight and central 
point of our research is that signaling matters, that while 
administrative procedures may not be changing materially and in 
deep and substantial ways because of uncertainty about this 
policy area, the signaling about work and time limits on 
welfare, although I can't prove it, I believe has contributed 
materially to the declines that we just heard about in teen 
births and in out-of-wedlock births. Other factors, for 
example, fear of AIDS and technology (new technology for birth 
control), obviously also contribute, and it is impossible to 
know what is causing what.
    The last line of my testimony brings out what I think is 
the essential dilemma of this hearing. Last week we saw the new 
Austin Powers movie, ``The Spy Who Shagged Me.'' I looked up 
``shag'' in my dictionary. It is what baseball players do in 
the outfield when they are practicing. Lots of people were 
there the afternoon we went to the movie with children--10, 11, 
12 years old. The popular culture incessantly signals a set of 
permissive values about sexual behavior, while at the same time 
the political culture gives a decidedly different and very 
strong signal about abstinence and family integrity; and that 
is why, as we say, the administrative challenge in this area is 
such a big and very complicated one.
    I thank you very much for the chance to present testimony. 
I ask that the whole statement be put in the record.
    Chairman Johnson of Connecticut. Thank you. All the 
statements will be put in the record in their entirety, and I 
would just like to comment, Mr. Nathan, I did very much enjoy 
your report on your 20-State study and found it very, very 
helpful, and have given it to my State people responsible for 
improving the functioning of our State program as that lack of 
connectivity is still a problem.
    [The prepared statement follows:]

Statement of Richard P. Nathan, Director, Nelson A. Rockefeller 
Institute of Government, Albany, New York

    Preventing Teen and Out-of-Wedlock Births Through Welfare Reform

    The Personal Responsibility and Work Opportunity 
Reconciliation Act of 1996 (PWORA) was intended to discourage 
welfare recipiency, promote work and marriage, and reduce out-
of-wedlock births and teen pregnancies. The first report on the 
20-state implementation study of the Act conducted by the 
Rockefeller Institute of Government shows that governors and 
state legislators have adopted welfare reforms that strongly 
signal the importance of the first of these two objectives--
work. Work-oriented welfare reforms often have been undertaken 
enthusiastically by bipartisan political coalitions.\1\
---------------------------------------------------------------------------
    \1\ Nathan, Richard P., and Thomas L. Gais. Implementing the 
Personal Responsibility Act of 1996: A First Look (Albany, NY: The 
Nelson A. Rockefeller Institute of Government, 1999). Copies available 
from the Rockefeller Institute call Michele Charbonneau (518-443-5258).
---------------------------------------------------------------------------
    We did not however find similar widespread policy or 
administrative support for the Act's anti-reproduction goals. 
Legislative proposals and often tentative administrative policy 
initiatives to change sexual behavior have been advanced in 
some states, but often they were dropped, watered down, or de-
emphasized before state welfare reform legislation was passed 
or broad executive orders promulgated. This issue elicits 
controversial attitudes and proposals that probably could not 
generate broad support in any state. In Mississippi, for 
example, the state's original welfare reform bill in 1992 
included provisions calling for Norplant implants for AFDC 
recipients with four or more children and a thousand dollar 
``reward'' to women who married and left the rolls, but these 
components were dropped from the bill before it was enacted 
into law (Mississippi Field Research Report, 1998).
    The essential challenge in this policy area involves 
disagreements about the methods for preventing teen pregnancy 
and out-of-wedlock births. The basic divide is between 
abstinence and the distribution of contraceptives. In Utah, 
front-line workers are not allowed to discuss birth-control 
options with welfare clients. In Washington State, field 
reports indicate that front-line workers do not feel it is 
appropriate to discuss such personal issues with clients, even 
though state policy is permissive in this respect. One New York 
City official told our field researcher, ``Ninety percent of 
our workers are themselves single parents and identify on that 
point with their clients'' (New York State Field Research 
Report, 1998).
    In the world of welfare, this subject tends to be off 
limits. The political problem is the obvious one: While there 
may be a consensus on the wisdom and desirability of preventing 
pregnancies among teens and out-of-wedlock births among the 
TANF-eligible population, there is not a consensus on how to do 
it. Despite this and although I can't prove it, I believe the 
signaling changes of welfare reform are having an impact in 
reducing teen and out-of-wedlock births. This is more a result 
of policy than administrative changes, but the latter are 
occurring. There is increasing awareness of opportunities, 
especially at the local level, for linking job and family 
policies as part of the broad national effort to ``end welfare 
as we know it.''

                          Defining Deviance Up

    In the U.S., there is a view--a wrong headed one--that 
governments cannot influence social values and change cultural 
attitudes. In fact and completely to the contrary, governments 
do their most important work when they seek to influence social 
values. The current period is a perfect example of a time when 
governments--national, state, and local--turning around a 
phrase Senator Moynihan likes to use--are hard at work trying 
to define deviance up. The national movement to promote 
competition in education by raising school standards through 
student testing and the introduction of charter schools and 
vouchers has a major analog in the welfare area in the 
powerfully stated twin goals of the 1996 national welfare 
reform act to promote work and discourage teen pregnancy and 
out-of-wedlock births. Similar policies that reflect the goals 
of the 1996 welfare reform act are embodied in the Federal 
Housing Act of 1998.
    The Personal Responsibility Act is aptly named. The Act has 
generated efforts to inculcate personal-responsibility values 
in government that I believe over the long haul will be viewed 
as part of a cultural shift in America rivaling the equal and 
opposite cultural shift to personal-permissiveness values in 
the mid-1960s.
    Government can do things that have broad citizen support. 
For welfare policy in America, signals have changed. This is 
certainly the case of the work-first goal of the 1996 law, 
which has broad and deep citizen support. In this area, the 
national consensus has been loud and clear for a long time. But 
in the other major area where the signaling of the 1996 
Personal Responsibility Act is even stronger than in the work 
area, the picture is less clear.

                Lessons from the Implementation Research

    The Rockefeller Institute 20-state study of the 
implementation of the 1996 Personal Responsibility Act provides 
important lessons that apply to the goal of reducing teen 
pregnancy and out-of-wedlock births:
    <bullet> First, we found a definite, strong move to 
devolution for domestic policy, one that applies broadly to 
welfare, employment programs, and social services related to 
employment.
    <bullet> Second, we found extensive second-order and 
tertiary devolution-- that is, the assignment of increased 
responsibilities for devising strategies and setting up systems 
to combat family dependency to local governments, local offices 
of state agencies, and private groups (often nonprofit 
organizations).
    <bullet> Third, in the super-sensitive area of pregnancy 
prevention, this push to localize and decentralize is 
especially powerful. A November 1998 report from the GAO 
reached a similar conclusion.\2\ This political hot potato is 
regularly tossed to local leaders and groups to handle as they 
so choose because the values and attitudes involved are so 
diverse in the country. In liberal communities, providing 
contraceptives and even abortions is accepted. In others, they 
are a source of great friction.
---------------------------------------------------------------------------
    \2\ The GAO report stated: ``States generally gave localities the 
flexibility to choose the type and mix of programs they wanted to put 
in place.'' See: ``Teen Pregnancy: State and Federal Efforts to 
Implement Prevention Programs and Measure Their Effectiveness.'' 
(Washington, D.C.: U.S. General Accounting Office, GAO/HEHS-99-4) 
November 1998, p. 3.
---------------------------------------------------------------------------
    <bullet> Fourth, the institutions and agencies responsible 
for preventing teen pregnancy and out-of-wedlock births do not 
connect well or easily with welfare and employment 
bureaucracies, even in communities where liberal attitudes 
prevail on pregnancy prevention. Welfare and employment 
bureaucracies are increasingly linked all over the country, 
though their relations are often tense. However, an important 
and pervasive finding from our 20-state field data is that 
neither of these two major types of agencies--welfare or 
employment agencies--have close ties with health agencies or 
local public health clinics, particularly family planning 
clinics.
    I believe this problem--the problem of the lack of 
connections between welfare and employment and health agencies 
and operations--provides an opportunity. The opportunity is for 
leaders and groups committed to teen pregnancy prevention and 
the prevention of out-of-wedlock births, regardless of the 
approach they favor, to forge linkages to welfare and 
employment policies and bureaucracies. Of course, saying that 
forging stronger linkages are the key as next steps is a lot 
easier than taking such steps. However, in light of the fact 
that a major purpose of the 1996 welfare reform act is to 
prevent teen pregnancy and out-of-wedlock births, the clear and 
present need is to do this to make such connections. Government 
agencies, foundations, and private nonprofit organizations that 
care about this policy objective would benefit by building 
relationships at the ground level between health agencies and 
welfare-job systems.

                        ``Connectivity'' the Key

    The new all-purpose, five-syllable word in our research on 
welfare implementation is connectivity. Controversies have 
arisen about connections among social programs as welfare 
becomes ever more focused on jobs. The biggest controversies 
have been about the effects of reductions in welfare rolls on 
participation in the Food Stamp and Medicaid programs. This 
connectivity idea, however, is even broader. It involves, not 
only income-support for families, but also child care, health, 
transportation, and a range of employment and family and 
children's services to enhance family self-sufficiency. Looking 
across the board, the lack of connectivity in the case of 
pregnancy prevention is the most striking among all the areas 
that could be keys to helping poor families become and remain 
stable, healthy, and independent.
    For the past two years the Rockefeller Institute of 
Government and the U.S. General Accounting Office have 
conducted a ``Working Seminar on Social Program Information 
Systems,'' a permanent group that meets quarterly on the 
mechanics of social program connectivity. The overarching 
purpose of the working seminar is service integration. For 
decades, people have talked about holistic strategies to 
overcome the bureaucratic separation of social program 
fiefdoms. Information technology now provides the power to make 
these connections at the front lines. Some states are working 
hard on this. Teen pregnancy prevention, however, usually is 
not on this screen--either figuratively or literally.

                          Change has Occurred

    Despite this finding that the pregnancy-prevention 
objectives of the Personal Responsibility Act have so far had 
relatively little effect on the behavior of welfare and job 
bureaucracies, there are grounds for expecting personal 
behavior in this area to change as a result of the Act, and 
indeed I believe it is already changing. TANF-aided family 
heads (most of them female, and many of them unmarried) face a 
new reality of time-limited cash assistance and more serious 
requirements for work and participation in work-search and 
related activities. They have to participate in work-related 
activities for fixed amounts of time under negotiated 
``Personal Responsibility Agreements'' that states require be 
signed before a TANF cash-assistance case can be opened. If 
there is a noncustodial parent, usually a male, there is now a 
new social dynamic: ``If he isn't required to do anything, why 
should I be; why shouldn't he be responsible too?'' State 
officials predict that this kind of attitude change and the 
resentment evoked by time-limited cash assistance is already 
affecting child-bearing behavior, and that this signaling 
effect will increase.
    The most prominent finding from our 20-state research on 
the implementation of welfare reforms is precisely in this 
area--that signaling matters. Teen births in the U.S. are the 
highest in the industrialized world (twice as high as Great 
Britain which ranked second). Actually, teen births are 
declining now--and at an increasing rate.\3\ Overall, teen 
births declined from 62.1 per 1,000 teens aged 15-19 in 1991 to 
52.3 in 1997, the latest year for which we have data.\4\ In my 
opinion, though I cannot prove it, stronger signaling in 
welfare policy has contributed materially to this decline. 
Other factors, too--fear of AIDS and new technology (notably 
Depo-Provera)--have also contributed. But determining causality 
in this super-sensitive policy area is impossible.

    \3\ National Campaign to Prevent Teen Pregnancy. Whatever Happened 
to Childhood? The Problem of Teen Pregnancy in the United States. 
(Washington, D.C., 1997)
    \4\ ``Preventing Teenage Pregnancy,'' HHS Fact Sheet (Washington, 
D.C.: U.S. Department of Health and Human Services, April 29, 1999)
---------------------------------------------------------------------------
    Note: Additional information on findings from the 
Rockefeller Institute's Implementation Study of the Personal 
Responsibility Act of 1996 is presented in the sections that 
follow. I request that the full statement, including this 
material, be printed in the hearing record.

                            State Responses

    A November 1998, GAO report stated:

          Teenage pregnancy and parenthood have unfortunate 
        consequences for society, teenage mothers, and the children 
        born to them. Teen mothers frequently do not complete high 
        school, have poor earnings, and have increased dependency on 
        the welfare system. A child born to a teen mother is more 
        likely to have a low birthweight and health problems, suffer 
        abuse, live in an inferior home environment, be poor, and be 
        less likely to succeed in school. Moreover, a child born to a 
        teen is more likely to become a teenage parent.\5\
---------------------------------------------------------------------------
    \5\ GOA/HEHS-99-4, p. 1.

    Given the clashes over values in this policy area, most 
states have adopted indirect approaches to get at this 
challenge. Changes in reproductive behavior tend to be treated 
as expected side-effects of welfare reform policies. The 
Rockefeller Institute's research team in Wisconsin put it this 
---------------------------------------------------------------------------
way:

          Certainly the architects of W-2 expect the program over time 
        to reduce non-marital births, mostly because mothers can no 
        longer receive cash assistance without working and because teen 
        parents must live in an adult-supervised setting to receive W-2 
        services or support. . . . But reduction in out-of-wedlock 
        pregnancies is a hoped-for by-product of W-2. . . . The program 
        has no components aimed exclusively at the issue, and W-2 
        agencies have no formal role in preventing out-of-wedlock 
        pregnancies. (Wisconsin Field Research Report, 1998; emphasis 
        added.)

    Nine states in the Rockefeller Institute sample created 
task forces on teen pregnancy prevention to deal with this 
subject, a familiar tactic to put off action in sensitive, 
controversial policy areas. While many aspects of this policy 
area are controversial, some provisions of the 1996 welfare 
reform legislation were rather quietly enacted, for example, 
the requirements that teen mothers live at home or in an adult 
supervised setting and that they stay in school.
    Some states are trying to find a middle ground that is not 
ideologically charged, an approach that offends neither 
liberals nor conservatives. In West Virginia, for example, 
there is a marriage incentive, a ten percent increase in the 
monthly cash grant for two-parent families.\6\ The relative 
popularity of family caps--twenty states now have them--
reflects the same purpose, i.e., to discourage the birth of 
additional children without specifying how those births are to 
be prevented. However, the politically attractive ambiguity of 
this approach may not last. Recent studies of the effects of 
family caps in New Jersey conducted by researchers at Rutgers 
University suggest they may increase the incidence of 
abortions, thus casting doubts on their political 
acceptability.\7\
---------------------------------------------------------------------------
    \6\ Levin Epstein, Jodie. State TANF Plans: Out-of-Wedlock and 
Statutory Rape Provisions (Washington,. D.C.: Center for Law and Social 
Policy, 1997)
    \7\ Preston, Jennifer. ``With New Jersey Family Cap, Births Fall 
and Abortion Rise.'' The New York Times, November 3, 1998.
---------------------------------------------------------------------------

                  ``The Devolution is in the Details''

    The Personal Responsibility Act complicates this value-
reconciliation challenge. It makes $250 million available over 
five years for abstinence-only education programs to be 
administered by the states. There is a detailed set of 
regulations that must be followed to obtain this money. To be 
funded, a program must:
    1. Have as its exclusive purpose, teaching the social, 
psychological, and health gains to be realized by abstaining 
from sexual activity;
    2. Teach that abstinence from sexual activity outside 
marriage is the expected standard for all school-age children;
    3. Teach that abstinence from sexual activity is the only 
certain way to avoid out-of-wedlock pregnancy, sexually 
transmitted diseases, and other associated health problems;
    4. Teach that a mutually faithful monogamous relationship 
in the context of marriage is the expected standard of human 
sexual activity;
    5. Teach that bearing children out of wedlock is likely to 
have harmful consequences for the child, the child's parents, 
and society;
    6. Teach young people how to reject sexual advances and how 
alcohol and drug use increases vulnerability to sexual 
advances; and
    7. Teach the importance of attaining self-sufficiency 
before engaging in sexual activity.\8\
---------------------------------------------------------------------------
    \8\ Haskins, Ron and Carol Statuto Bevan. ``Abstinence Education 
Under Welfare Reform.'' In Abstinence Education Grants and Welfare 
Reform Seminar web page. College Park, MD: University Maryland Welfare 
Reform Academy, MD, 1997 (cited March 18, 1999). Available from http://
welfareacademy.org/pubs/main.htm
---------------------------------------------------------------------------
    Most states have applied for and received their allotments 
under this grant, but it is not clear that they will actually 
use the money. Many state officials see the abstinence-only 
program requirements as restrictive. They often do not 
understand that TANF and MOE funds can also be used for other 
pregnancy prevention approaches, such as family planning 
counseling and the provision of contraception--that is, if 
states choose to do so.\9\
---------------------------------------------------------------------------
    \9\ Cohen, Marie. Tapping TANF: When and How Welfare Funds Can 
Support Reproductive Health of Teen Parent Initiatives (Washington, 
D.C.: Center for Law and Social Policy, April 1999).
    See also an excellent analysis by Sawhill, Isabel V. Teen Pregnancy 
Prevention: Welfare Reform's Missing Component (Washington, D.C.: 
Brookings Institution, November 1998)
---------------------------------------------------------------------------
    In the opinion of one state official, ``few projects will 
be able to implement faithfully all components of the 
definition in the law'' for abstinence-only programs. These 
provisions, which require programs to teach that ``a mutually 
faithful monogamous relationship in the context of marriage is 
the expected standard of human sexual activity,'' have come 
under scrutiny. State officials have told our field researchers 
they are wary about setting aside money for abstinence 
education because there are few studies that have linked 
abstinence programs with the reduction in out-of-wedlock 
births, although the U.S. Department of Health and Human 
Services is currently supporting evaluations of abstinence-only 
programs. Finally, to use abstinence-only funds, the state 
needs to match every four federal dollars with three state 
dollars. This matching requirement has proven difficult in some 
states, in part because of the fear that the money used for 
abstinence-only education competes or conflicts with funding 
for other efforts to prevent teen pregnancies and out-of-
wedlock births.
    Imposing requirements on the states to take steps to 
prevent teen pregnancy is not new, though the emphasis on 
abstinence is. In 1967, a law was enacted that required states 
to offer family planning services ``in appropriate cases'' to 
recipients of Aid to Families with Dependent Children (AFDC), 
for the purpose of ``preventing or reducing the incidence of 
births out of wedlock.'' The 1972 amendments explicitly 
included sexually active minors in the definition of 
``appropriate cases,'' and required that family planning 
services be ``provided promptly'' to all who requested 
them.\10\ The 1972 amendments also established a penalty if 
states failed to comply with these requirements and provide 
family planning services under Medicaid.\11\ The requirement 
that AFDC clients be given information on family planning 
remained on the books until it was repealed by the 1996 welfare 
law.
---------------------------------------------------------------------------
    \10\ Social Security Act, U.S. Code Annotated, Vol. 42 Secs. 
602(a)(15)(A)(7) (1991).
    \11\ Congressional and Administrative News, Legislative History, 
1972, P.L. 92-603.
---------------------------------------------------------------------------
    In addition to the abstinence-only emphasis in the 1996 
Act, there are financial incentives to states tied to pregnancy 
prevention. Two bonuses provided in the Act are to be given to 
the states with the best performance. The first is the ``Bonus 
to Reward High Performance States.'' The federal government 
will reward states that best achieve the purposes set forth by 
the Personal Responsibility Act (all of the goals, not just 
those related to reproduction-reduction). Standards for this 
bonus were established by the Secretary of the U.S. Department 
of Health and Human Services in consultation with the National 
Governor's Association and the American Public Welfare 
Association, now the American Public Human Services 
Association. One of the four goals on which performance bonuses 
are based is the reduction of out-of-wedlock births. One 
hundred million dollars per year is available for fiscal years 
1999 and 2000.
    In addition, a specific ``Bonus to Reward a Decrease in 
Illegitimacy'' makes $100 million available, to be shared by 
the five states that demonstrate the greatest reductions in 
out-of-wedlock births. To qualify for the bonus, states must 
demonstrate that the abortion rate is less than the FY 1995 
level. It is important to note that both of these bonuses are 
directed at the state's entire population, not only teens or 
welfare recipients. These financial incentives, however, do not 
appear to be promoting active policy initiatives and 
administrative linkages between welfare and pregnancy 
prevention.

                       Agency Interrelationships

    The most significant institutional barrier to linking 
pregnancy prevention and welfare/job programs is the fact that 
pregnancy prevention programs are administered by health 
agencies, local health clinics, family planning clinics, and 
education departments--not welfare agencies. These agencies 
typically concentrate their efforts in low-income communities, 
but the missions and mechanisms involved do not directly tie 
into welfare/job systems. Historically, pregnancy prevention 
has been funded by the federal government under the Title X 
Family Planning Program and public health and education laws to 
achieve reductions in infant mortality or high school drop-out 
rates for pregnant and parenting teens.
    Because political disagreements over how to prevent teen 
pregnancy--and thus how to make connections between programs 
and program bureaucracies--are often less strong within some 
communities than within whole states, most states have devolved 
pregnancy prevention functions downwards in connection with the 
1996 welfare reform act. Teen pregnancy prevention shows the 
highest degree of second-order devolution of four basic 
welfare-related service functions we examined. As Table 1 
demonstrates, state agencies perform a relatively weak role in 
managing pregnancy prevention activities when compared to their 
roles in the administration of cash assistance or employment 
and training services. In our research sample, fewer than half 
of the state governments play an important role in delivering 
pregnancy prevention services, and only two out of three state 
governments exercise significant control over the 
administrative design of such programs. One out of four states 
have no important policy-making function in this area. Even 
among the states that retain significant control over policy, 
they often share that power with a wide variety of local 
institutions, including local public health agencies, public 
schools, and private nonprofit agencies.
    This downward shift in program responsibility may reduce 
some obstacles, but it creates others. Devolution down to 
localities may allow for greater flexibility and community 
involvement, but it can also cut down the budget for such 
programs. For example, Ohio tried to create a teen-pregnancy 
prevention bonus modeled after the federal one and was 
unsuccessful. Despite the fact that there is a state-provided 
incentive payment for the top performing counties in reducing 
out-of-wedlock births, we were told that Hamilton County 
(Cincinnati) ``downplayed the minimal amount of incentive money 
. . . people interviewed were doubtful that the county could do 
much to affect out-of-wedlock pregnancy and stressed that the 
financial rewards are too small for the county to expend much 
energy developing a program'' (Ohio Field Research Report, 
1998).
    Although site-specific actions in this policy area were not 
found to be widespread, several field researchers did identify 
cases of connectivity of welfare/job and teen pregnancy 
prevention efforts.
    <bullet> In Washington State, welfare offices have family 
planning nurses on staff. Eight of fifty welfare offices are 
co-located with a family planning clinic. While funding has 
increased for family planning under TANF, these connections are 
not new.
    <bullet> Florida has mapped out a long-term strategy that 
includes the implementation of a statewide protocol for the 
referral of clients to family planning services. Eventually, 
steps are to be taken so that family planning services are 
integrated with work activities. Currently, some WAGES (``Work 
and Gain Economic Self Sufficiency'') coalitions have 
designated a staff member to coordinate pregnancy prevention 
programs within their region.

 Table 1. Devolution Of Pregnancy Prevention Program Functions to Local
         Governments, Public Institutions, and Private Agencies
    [Percent of states indicating that various institutions perform a
  significant role in policy-making, administrative design, and service
  delivery for pregnancy prevention, employment and training, and cash
                          assistance programs]
------------------------------------------------------------------------
                                                 Employment
           Institution              Pregnancy       and          Cash
                                    Prevention    Training    Assistance
------------------------------------------------------------------------
Policy Making:
  State government...............           74          100          100
  Local government...............           27           26           21
  Other public institutions......           32           16            0
  Statewide nonprofits...........           13            0            5
  Local nonprofits...............            7            5           21
Administrative Design:
  State government...............           63           95           95
  Local government...............           21           32           37
  Other public institutions......           32           21            0
  Statewide nonprofits...........            5           11            0
  Local nonprofits...............           11            5           11
Service Delivery:
  State government...............           42           74           58
  Local government...............           53           47           37
  Other public institutions......           47           74            0
  Statewide nonprofits...........           40           47           11
  Local nonprofits...............           47           68           26
------------------------------------------------------------------------
Source: Field Research Reports, State Capacity Study, 1998.
Note: Data from nineteen states are included in the table. ``State
  government'' includes local as well as central offices of state
  agencies. ``Other public institutions'' includes school districts,
  community colleges, public hospitals, ans so on.

    <bullet> In Georgia, as part of the eligibility process, 
family members identified as needing information regarding 
family planning are to be referred to services. The state plan 
includes a list of personal responsibility requirements that 
may, for example, include requiring family planning counseling 
as well as participation in parenting classes for all teens 
whether or not they are parents. Recent controversy appears to 
have dampened the early enthusiasm for implementing this 
requirement. Nevertheless, in Bibb County, Georgia, we found 
that a family planning clinic is located just outside the 
welfare office and workers make frequent referrals. In Fulton 
County, Atlanta, one welfare office has on-site family planning 
services.
    These examples are more the exception than the rule. The 
Rockefeller Institute is continuing, and in fact accentuating, 
its local field observations, including a review of 
implementation activities in the pregnancy-prevention policy 
area for the second round of field research on the 
implementation of welfare reforms.

                               Conclusion

    At a conference last year at the American Enterprise 
Institute on teen pregnancy prevention, Douglas Besherov, the 
convenor, summarized the overall situation by citing ``deep 
ambivalence'' in this policy area. Jason Turner, Commissioner 
of the New York City Human Resources Administration, who also 
spoke at this conference, agreed, saying there is ``lack of a 
consensus'' not about whether to reduce teen pregnancy--but 
how. The dilemma is real: The popular culture incessantly 
signals a set of permissive values about sexual behavior, while 
at the same time the political culture gives decidedly 
different and very strong signals about sexual abstinence and 
family integrity.

            State Capacity Study Field Research Team Leaders

The Nelson A. Rockefeller Institute of Government

Arizona--John Stuart Hall, Arizona State University
California--Cristy A. Jensen, California State University
Florida--Robert E. Crew, Florida State University
Georgia--Michael J. Rich, Emory University
Kansas--Jocelyn M. Johnston, University of Kansas
Michigan--Carol S. Weissert, Michigan State University
Minnesota--Thomas F, Luce, University of Minnesota
Mississippi--David A. Breaux, Christopher M. Duncan, John C. Morris, 
    Denise Keller, Mississippi State University
Missouri--Rockefeller Institute Central Staff
    New Jersey--Richard F. Roper, The Roper Group Consultants
New York--Sarah F. Liebschutz, SUNY Brockport Distinguished Service 
    Professor
North Carolina--Deil S. Wright, University of North Carolina
Ohio--Charles F, Adams, Jr., Ohio State University
Rhode Island--Thomas J. Anton, Brown University
Tennessee--John E. Gnuschke, University of Memphis
Texas--Christopher T. King, University of Texas at Austin
Utah--Gary C. Bryner, Brigham Young University
Washington--Betty Jane Narver, Janet Looney, University of Washington 
    at Seattle
West Virginia--David G. Williams and L. Christopher Plein West Virginia 
    University
Wisconsin--Thomas J. Corbett and Thomas J. Kaplan, University of 
    Wisconsin, Poverty Institute

                                <F-dash>

    Chairman Johnson of Connecticut. Mr. Rector.

  STATEMENT OF ROBERT RECTOR, SENIOR POLICY ANALYST, HERITAGE 
                           FOUNDATION

    Mr. Rector. Thank you very much. I appreciate the 
opportunity to be here and testify about out-of-wedlock 
childbearing today.
    In 1950, about 4 percent of all children were born out of 
wedlock; today, that number has risen to 32 percent. As we 
speak, one child in the United States will be born out of 
wedlock every 35 seconds. During the course of this hearing 
there will probably be about 300 children born out of wedlock. 
The initial Medicaid costs for the births alone of those 300 
children will be about a million dollars.
    This is clearly the most important social problem facing 
our society today. The first point I would like to make is to 
emphasize the very crucial difference between teen pregnancy 
and out-of-wedlock childbearing. Only about 14 percent of the 
children born out of wedlock in the United States today are 
born to girls under age 18. In fact, there are more children 
born out of wedlock to women over age 30, than there are to 
teenagers in high school. If you look in my testimony, I give a 
table on this where I show that the predominant amount of out-
of-wedlock childbearing occurs to young women in their 19, 20, 
up to about age 24.
    Women having children out of wedlock are mainly young adult 
women. In 40 percent of the cases, they are actually cohabiting 
with the adult male, the father of that child. Out-of-wedlock 
childbearing, the one-million-plus children born out of wedlock 
each year is not a matter of high school students. It is, in 
fact, a crisis in the enduring relationships between young 
adult men and women in the United States, and it is very 
important that we recognize that distinction.
    Now, I wanted to talk briefly about some of the social 
effects of out-of-wedlock childbearing. This is data from the 
National Longitudinal Survey of Youth. What we did was look at 
children's status at birth and look at the subsequent family 
structure for that child.
    On the left, we have children that were born out of wedlock 
and the mother never marries; and on the extreme right, we have 
children that are born inside marriage and the marriage remains 
intact. The charts shows the poverty rates during the life of 
the child. We find the child born outside of wedlock, where 
there never is a marriage, was poor half of the child's life. 
By contrast, the child born inside an intact marriage, where 
the marriage remains stable, is poor 7 percent of the time. So 
there is a 700 percent increase in child poverty that is the 
direct result of out-of-wedlock childbearing.
    If we could go to the next chart, we see the same sets of 
statistics. This chart refers to welfare dependence. The black 
column is AFDC receipt. We find a child born outside of the 
wedlock, where the mother never marries, received AFDC about 50 
percent of the time during this period of analysis.
    By contrast, you go over to the right side of the chart, a 
child born inside marriage where the marriage remains intact 
received AFDC about 3 percent of the time. Again, you have got 
something like--in that case, it is more than 1,000 percent 
increase, about a 2,000 percent increase in the rate of welfare 
dependence as a result of out-of-wedlock childbearing.
    Out-of-wedlock childbearing is the primary cause both of 
child poverty and of welfare dependence in the United States 
today.
    A further chart on crime was provided in written testimony, 
but I don't have a mock-up of it. We looked at incarceration in 
juvenile facilities in the State of Wisconsin where we had 
very, very good data. We found that roughly half of the 
children--these would be teenagers--incarcerated in juvenile 
facilities in Wisconsin were children born out of wedlock where 
the mother had never married. Overall, the increase in 
probability that a child would commit crimes and end up in 
jail, we found it 22 times higher among--for a child that was 
born out of wedlock where the mother never marries, compared to 
a child born inside wedlock where the biological mother and 
father have remained together in a stable marriage.
    Out-of-wedlock childbearing and family instability is the 
principal cause of crime in the United States today.
    Now, we could go on and begin to think about different 
policies that we could establish to address this issue. I am 
going to emphasize two in my oral testimony. The first is 
abstinence education. I would encourage the committee very 
strongly to look at a program such as Best Friends in the 
District of Columbia, which appears to reduce the sexual 
activity rates of inner city girls by about 80 percent. But 
beyond that, we need to go on and recognize that the goal here 
is not just to get girls out of high school without getting 
pregnant. We want to go on and give them the vision and the 
skill necessary to form stable marital relationships when they 
are young adults in their 20s and are going to begin having 
children.
    So I would strongly urge expansion of abstinence education, 
combined with marriage education to emphasize the importance of 
marriage in the lives of men, women and children.
    The second policy that I think we should look at very 
strongly is to recognize that when a woman has a child out of 
wedlock, society pays for that very heavily. For example, for 
about 75 percent of the children born out of wedlock, Medicaid 
pays for the birth directly. We ought to look at policies, 
experiments to reward women not for making mistakes in their 
lives, but for doing the right thing. For example, we could 
take a group of at-risk women and say, if you get through high 
school and if your first birth is within marriage, we will 
reward you for taking those steps in the proper direction.
    I can't guarantee that that would work, but I would love to 
see how individuals would respond to that.
    In conclusion, I would say that out-of-wedlock childbearing 
is clearly harmful to the child, to the mother, to the father 
and to society. The most important and pressing thing we can do 
is to communicate the value of marriage, and define policies 
that can successfully begin to rebuild marriage in our society.
    Chairman Johnson of Connecticut. Thank you very much, Mr. 
Rector.
    [The prepared statement follows:]

Statement of Robert Rector, Senior Policy Analyst, Heritage Foundation

         Out-of-Wedlock Childbearing: Trends and Social Effects

                              Introduction

    I wish to thank the Sub-Committee on Human Resources for 
the opportunity to testify today. The views which I will 
express are my own and do not necessarily reflect the views of 
The Heritage Foundation.
    For more than three decades in U.S. society, marriage has 
declined, illegitimacy has flourished, and fathers have 
disappeared from the lives of children. The upward surge in 
out-of-wedlock child bearing has been accompanied by a 
mushrooming of other social problems: crime, welfare 
dependence, child abuse and drug abuse. The collapse of 
marriage, rise of illegitimacy, and absence of fathers are the 
root cause behind most of the nation's social problems.
    When the American War on Poverty began in 1965, 7 percent 
of America's children were born out-of-wedlock, today nearly a 
third are. (See Chart 1.) As we speak, one American child is 
born outside marriage every 25 seconds.
    The rise in illegitimacy has been driven by three factors: 
(1) a decline in the portion of women of child bearing age who 
are married; (2) an increase in the birth rate of non-married 
women; and (3) a decrease in the birth rate of married women. 
(See Charts 2 and 3.)
    As a result of these factors, the number of births to 
married women has declined dramatically and is now at the 
lowest level since the end of World War II. During the same 
period, out-of-wedlock births have increased 1,000 percent, 
rising from 125,000 in 1946 to 1.26 million in 1997.\1\ (See 
chart 4.)
    The decline in marital births has been particularly severe 
among black Americans. Today the number of black children born 
within marriage is roughly half the number at the end of World 
War II. This change is largely due to a precipitate drop in the 
number of adult black women who marry.

                            Recent Good News

    In nearly every year since the mid-1960s, the percentage of 
births that were out-of-wedlock increased steadily. In the last 
few years, however, there has been modest good news. In 1995, 
1996, and 1997, there was a ``pause'' in the growth of 
illegitimacy, for the first time in three decades. (See Chart 
1) The growth of the white out-of-wedlock birth rate slowed 
considerably, and the black rate actually declined slightly. 
This ``pause'' in the growth of illegitimacy (which coincided 
with the debate and passage of national welfare reform in the 
United States) is of great social significance. The crucial 
question is whether this pause will continue. Will the share of 
births which are outside marriage remain steady, or begin to 
fall? Or will illegitimacy soon resume its steady upward climb?

              Out-of-Wedlock Childbearing by Ethnic Group

    Childbearing out-of-wedlock varies greatly between racial/
ethnic groups. Chart 5 shows the percent of U.S. births that 
were out-of-wedlock in 1997 for five separate ethnic groups. 
The highest rate was non-Hispanic blacks, among whom 69.4% of 
births were out-of-wedlock. American Indians have the second 
highest rate at 58.7%, followed by Hispanics at 40.92%. Among 
non-Hispanic whites, 21.54 percent of births are out of 
wedlock, and Asians/Pacific islanders have the lowest rate with 
15.64% of births being out-of-wedlock.
    While black Americans have the highest percentage of births 
that are out-of-wedlock--this does not mean that most children 
born out-of-wedlock in the U.S. are black. In fact, only about 
one third of all out-of-wedlock births are to non-Hispanic 
blacks.
    Moreover, nearly all of the increase in illegitimacy 
occurring in recent years is due to whites. Between 1980 and 
1997, annual black non-marital births increased by only about 
100,000. By contrast, white out-of wedlock births more than 
doubled (rising from 328,984 to 793,202). In 1980 the numbers 
of black and white out-of-wedlock births were nearly equal; by 
1997 there were almost two white out-of-wedlock births for each 
black birth.

             Out-of-Wedlock Childbearing and Teen Pregnancy

    The rise of illegitimacy in the U.S. should not be confused 
with teenage pregnancy. Out-of-wedlock child bearing is 
overwhelmingly a problem among young adult women (age 18 to 
25), not minor teenage girls in high school. Only 13.17 percent 
of out-of-wedlock births occur to girls under 18. In fact, more 
out-of-wedlock births occur to women age thirty and over, than 
to minor teenage girls. (See Chart 6.) Out-of-wedlock 
childbearing is not primarily the product of careless and 
haphazard behavior between sexually active high school 
students, instead it represents a profound crisis in the 
relationships between young adult men and women.

      Other Social Factors Relating to Out-of-Wedlock Childbearing

    The conventional image is that out-of-wedlock births are 
largely the result of accidental pregnancy. In fact, nearly 
half of all illegitimate births are the result of an intended 
pregnancy; 34 percent are the result of a pregnancy that 
occurred earlier than the mother wished and only 14 percent are 
the result of a pregnancy that was completely unwanted. (See 
Chart 7)
    There is a strong tendency toward repeat out-of-wedlock 
births. Roughly half of all illegitimate births are not first 
births, but are second, third or even later births to the 
mother. (See Chart 8.)
    Most out-of-wedlock births do not occur as a result of 
ephemeral sexual encounters between near strangers. In fact, 
nearly forty percent of all out-of-wedlock births occur to 
women who are cohabiting with an adult male, who in most cases 
is the newborn's father. (See Chart 9.) Regrettably, these 
cohabiting relationships are unstable and generally dissolve 
within a few years rather than evolving into marriage.
    A key factor in determining whether a woman will have a 
child out-of-wedlock is religious belief and practice. Regular 
church attendance cuts the probability of having a child out-
of-wedlock roughly in half. (See Chart 10.)

            Social Effects of the Rise in Non-Marital Births

    The decline in marriage and the rise in out-of-wedlock 
childbearing has been associated with host of other social 
problems. In particular, the rise in illegitimacy has been a 
primary factor contributing to increases in: child poverty; 
welfare dependence; behavioral and emotional problems; and 
crime. In addition, the decline in marriage has been associated 
with high numbers of abortions.

       Social Effect #1: Out-of-Wedlock Childbearing and Poverty

    The most obvious consequence of the rising tide of 
illegitimacy and disappearance of fathers is child poverty. 
Chart 11 shows data from the National Longitudinal Survey of 
Youth (NLSY) which contains a nationally representative sample 
of young mothers and their children. The chart divides children 
into four groups:
    1. Out-of-Wedlock-Never Married--Children born out of 
wedlock whose mother has never married after the birth of the 
child;
    2. Out-of-Wedlock-Subsequent Marriage--Children born out of 
wedlock whose mother marries subsequent to the child's birth;
    3. Within Wedlock-Divorced--Children born to married 
parents who later divorce;
    4. Within Wedlock-Marriage Intact--Children born to parents 
who were married at the time of birth and remained married
    The chart shows the amount of time since birth that a child 
has lived in poverty for the four different categories of 
children. Children born out-of-wedlock to never married women 
are poor fifty-one percent of the time. By contrast children 
born within a marriage which remains intact are poor 7 percent 
of the time. Thus the absence of marriage increases the 
frequency of child poverty 700 percent. However, marriage after 
an illegitimate birth cuts the child poverty rate in half.

      Social Effect #2: Out-of-Wedlock Childbearing and Dependence

    A second consequence of father absence and out-of-wedlock 
births is prolonged welfare dependence. Chart 12, using data 
from the NLSY, separates children into the same four groups as 
the previous chart on poverty. Children born out-of-wedlock 
whose mothers have not married have received Aid to Families 
with Dependent Children (AFDC) benefits for fifty percent of 
the time since birth. By contrast, children who were born in 
wedlock and whose parents have remained married have received 
AFDC only 3 percent of the time since birth. Thus AFDC receipt 
is 1700 percent more frequent among illegitimate children of 
never married mothers than among legitimate children raised by 
intact married couples.
    If a woman gives birth out-of-wedlock but subsequently 
marries, the average length of time spent on AFDC will be cut 
in half, falling from 50 percent (for children of never married 
mothers) to 23 percent. Marriage even after an out-of-wedlock 
birth is thus quite effective in reducing dependence. 
Conversely if the parents of a legitimate child divorce, the 
length of time on AFDC will rise from 3 percent (for intact 
married couples) to 13 percent for divorced families.
    Chart 12 also shows the portion of time which children in 
the four different categories received any of the following 
means-tested welfare benefits: AFDC, Food Stamps, Medicaid, 
SSI, and WIC. On average, children in the ``out-of-wedlock-
never married'' group received some form of welfare benefit for 
71 percent of the months since birth. By contrast, legitimate 
children whose parents remained married have received some 
welfare for 12 percent of the time. Welfare receipt is six 
times greater among the never-married group.

    Social Effect #3: Out-of-Wedlock Childbearing and Emotional and 
                          Behavioral Problems

    Data from the National Health Interview Survey of Child 
Health (NHIS-CH) confirm that children born out of wedlock have 
far more behavioral and emotional problems than do children in 
intact married families. These problems include:
    Antisocial behavior--disobedience in school, cheating and 
lying; bullying and cruelty to others; breaking things 
deliberately; failure to feel sorry after misbehaving;
    Hyperactive behavior--difficulty concentrating or paying 
attention; becoming easily confused; acting without thinking; 
being restless or overactive;
    Headstrong behavior--easily losing one's temper; being 
stubborn, irritable, disobedient at home; arguing excessively;
    Peer conflict--having trouble getting along with others, 
being not liked, being withdrawn;
    Dependent behavior--crying too much, being too dependent on 
others, demanding attention, clinging to adults.
    Children raised by never-married mothers have significantly 
higher levels of all of the above behavior problems when 
compared to children raised by both biological parents. When 
comparisons are made between families that are identical in 
race, income, number of children, and mother's education, the 
behavioral differences between illegitimate and legitimate 
children actually widen. Compared to children living with both 
biological parents in similar socioeconomic circumstances, 
children of never-married mothers exhibit 68 percent more 
antisocial behavior, 24 percent more headstrong behavior, 33 
percent more hyperactive behavior, 78 percent more peer 
conflict, and 53 percent more dependency. (See Chart 13.) 
Overall, children of never-married mothers have behavioral 
problems that score nearly three times higher than children 
raised in comparable intact families.\1\
---------------------------------------------------------------------------
    \1\ Deborah A. Dawson, ``Family Structure and Children's Health and 
Well-being: Data from the 1988 National Health Interview Survey on 
Child Health,'' paper presented at the annual meeting of the Population 
Association of America, Toronto, May 1990.
---------------------------------------------------------------------------
    In addition, children born out of wedlock have less ability 
to delay gratification and poorer impulse control (control over 
anger and sexual gratification). They have a weaker sense of 
conscience or sense of right and wrong.\2\ Adding to all this 
is the sad fact that the incidence of child abuse and neglect 
is higher among single-parent families.\3\
---------------------------------------------------------------------------
    \2\ E.M. Hetherington and B. Martin, ``Family Interaction,'' in 
H.C. Quay and J.S. Werry (eds.), Psychopathological Disorders of 
Childhood (New York: John Wiley & Sons, 1979), pp. 247-302.
    \3\ A. Walsh, ``Illegitimacy, Child-Abuse and Neglect, and 
Cognitive Development,'' Journal of Genetic Psychology, Vol. 15 (1990), 
pp. 279-285.
---------------------------------------------------------------------------
    Being born out-of-wedlock and growing up in a single-parent 
family means the child is more likely to experience: retarded 
cognitive (especially verbal) development; lower educational 
achievement; lower job attainment; increased behavior and 
emotional problems; lower impulse control; and retarded social 
development. Such children are far more likely to: engage in 
early sexual activity; have children out of wedlock; be on 
welfare as adults; and engage in criminal activity.\4\
---------------------------------------------------------------------------
    \4\ See Robert Rector and Patrick F. Fagan, ``How Welfare Harms 
Kids,'' The Heritage Foundation Backgrounder, No. 1084, June 5, 1996.
---------------------------------------------------------------------------

        Social Effect #4: Out-of-Wedlock Childbearing and Crime

    Research by former Congressional Budget Office Director Dr. 
June O'Neill demonstrates the clear linkage between crime and 
single-parent families. Using data from the National 
Longitudinal Survey of Youth, O'Neill found that young black 
men raised in single-parent families were twice as likely to 
engage in criminal activities when compared to black men raised 
in two-parent families, even after holding constant a wide 
range of variables such as family income, urban residence, 
neighborhood environment, and parents' education. Growing up in 
a single-parent family in a neighborhood with many other 
single-parent families on welfare triples the probability that 
a young black man will engage in criminal activity.\5\
---------------------------------------------------------------------------
    \5\ M. Anne Hill and June O'Neill, Underclass Behaviors in the 
United States: Measurement and Analysis of Determinants, New York City, 
City University of New York, Baruch College March 1990.
---------------------------------------------------------------------------
    Even stronger evidence is provided by a study of the family 
backgrounds of youths incarcerated in juvenile correctional 
jails in Wisconsin in 1993.\6\ As Chart 14 shows, only 13 
percent of the juvenile offenders came from married couples 
where the child's biological father and mother were currently 
married and living together. In other words 87 percent of the 
juvenile criminals in Wisconsin came from never married or 
broken homes.
---------------------------------------------------------------------------
    \6\ Wisconsin Department of Health and Social Services, Division of 
Youth Services, Family Status of Delinquents in Juvenile Correctional 
Facilities in Wisconsin, April 1994.
---------------------------------------------------------------------------
    The report clearly demonstrates, not only that most 
juvenile crime is performed by youth from splintered homes, but 
that such children are far more likely to commit crimes than 
are those from homes with intact marriages. While only 13 
percent of incarcerated offenders were from married couple 
homes with two biological parents, United States Census data 
shows that roughly half of Wisconsin teenagers actually lived 
in such intact married families in 1990.\7\
---------------------------------------------------------------------------
    \7\ General figures on Wisconsin teenagers are from a Heritage 
Foundation calculation based on the public use sample of the 1990 
Census. The overall statewide percentage of Wisconsin teenage children 
residing with two married biological parents was adjusted downward to 
compensate for the underreporting of step child status in the Census 
data.
---------------------------------------------------------------------------
    Chart 15 shows the comparative probability of juvenile 
incarceration based on family structure. A child living with a 
never-married family was more than 22 times likely to be 
incarcerated for criminal activities than is a youth raised by 
married biological parents. Children from divorced, separated, 
and widowed families were some three times to be incarcerated 
for criminal activity than was a child from an intact married 
family with both biological parents.\8\
---------------------------------------------------------------------------
    \8\ Based on data provided by Pat Fagan. Due to limitations in the 
Census data on Wisconsin youth in general these figures should be 
interpreted as rough probabilities rather than precise estimates.
---------------------------------------------------------------------------

         Social Effect #5: The Decline in Marriage and Abortion

    Abortion in America is profoundly linked to the sharp 
decline in marriage and the increase in non-marital sexual 
activity outside of marriage. About 5.5 million pregnancies 
occur in the U.S. each year; nearly half (44 percent) of these 
pregnancies are to non-married women.\9\ Surprisingly, the 
pregnancy rate among never married women is virtually the same 
as for married women. In 1994 there were 95 pregnancies per 
thousand married women age 15 to 44. Among never-married women 
the rate was 91 pregnancies per thousand.
---------------------------------------------------------------------------
    \9\ Stanley K. Henshaw, ``Unintended Pregnancy in the United 
States'' Family Planning Perspectives, January/February 1998.
---------------------------------------------------------------------------
    However, while married and non-married women have similar 
pregnancy rates, they differ greatly in whether a pregnancy is 
carried forward to childbirth. Nearly half of all pregnancies 
among non-married women end in abortions. By contrast, only 11 
percent of pregnancies among married women end in abortion.\10\ 
(See Chart 16.) Overall, three quarters of abortions in the 
U.S. are performed on non-married women.\11\
---------------------------------------------------------------------------
    \10\ Ibid.
    \11\ Ibid. p. 26
---------------------------------------------------------------------------
    Some believe there may be a trade off between abortion and 
out-of-wedlock childbearing, maintaining that abortion may be 
decreased by increasing illegitimate births or vice versa. The 
facts do not support this view. In reality, those states with 
high abortion rates also have a higher rates of out-of-wedlock 
childbearing.\12\ This is because both illegitimacy and 
abortion stem from a common source: the decline in marriage. 
Therefore policies which would strengthen marriage in our 
society would have a double effect of reducing both out-of 
wedlock childbearing and abortion.
---------------------------------------------------------------------------
    \12\ Using state level data the correlation between the number of 
illegitimate births per 1,000 women aged 15-44 and number of abortions 
per 1,000 women aged 15-44 ranges from +.67 to +.72. See Robert Rector, 
``The Fallacy that Welfare Reform Will Increase Abortions,'' The 
Heritage Foundation Executive Memorandum, No.407, March 21, 1995.
---------------------------------------------------------------------------

              Out-of-Wedlock Births, Marriage, and Welfare

    The decline of fatherhood and marriage has been tied to the 
growth of the welfare state and is inherent in the structure 
government welfare programs. Welfare programs are programs 
which are ``means-tested'' or ``income-limited:'' this means 
that benefits from a welfare program are restricted to 
households whose non-welfare income falls below a certain 
limit. This restriction may take the form of an abrupt 
termination of eligibility when non-welfare income reaches a 
specified level, but is more likely to take the form of a 
graduated schedule in which benefits are incrementally reduced 
as non-welfare income rises.
    In the United States, there are over 70 major income-tested 
welfare programs. These provide cash, food, housing, medical 
care and targeted social services to low income persons. 
Federal and state spending on these programs costs over $400 
billion per year or 5 percent of the U.S. Gross Domestic 
Product. About half of this welfare spending is directed to 
families with children.
    It is critical to understand that all means-tested welfare 
programs are inherently anti-marriage and produce what has been 
termed ``household splitting effects.'' This occurs because 
welfare benefits fall as household earnings rise; welfare can 
thus be maximized by removing an employed father from the home 
or taking steps to ensure his earnings are formally disregarded 
by the welfare system.
    To understand how this process works in the U.S., we can 
imagine an example: ``Annie,'' a mother, and ``Bill,'' the 
employed father of her children. If Annie and Bill are not 
married and merely cohabit, Bill's earnings will generally be 
disregarded by the government and Annie will receive a variety 
of welfare benefits. If, on the other hand, Annie and Bill get 
married, Bill's earnings will immediately count against Annie's 
welfare eligibility and her benefits will be terminated or 
substantially reduced.\13\
---------------------------------------------------------------------------
    \13\ A rule against cohabitation by welfare mothers could be used, 
but it would be difficult to enforce and might only push ``Bill'' from 
the home.
---------------------------------------------------------------------------
    There are various permutations on this principle, but the 
underlying rule is always the same: if a mother and father 
present themselves as two separate legal units to the 
government, they will usually be able to draw on two sources of 
income, welfare and the father's earnings. If, however, the 
mother and father are a married couple, they will receive, in 
general, only one source of income, the father's earnings.
    It is crucial to understand that this is not a small 
accident in the welfare system, but is the inevitable result of 
the nature of ``means-tested'' welfare. Such welfare programs 
are inherently biased not against marriage, per se, but against 
the earnings of an employed husband.\14\ Earnings jeopardize 
welfare income; welfare benefits will be maximized only if the 
husband does not work, or if the father and mother are not 
married.
---------------------------------------------------------------------------
    \14\ Traditional welfare programs also create a strong incentive 
for the mother not to work or to hide her earnings from the government.
---------------------------------------------------------------------------
    The very structure of welfare programs thus implicitly 
penalizes married couples with an employed husband with a low 
or moderate income. The only way to eliminate this bias would 
be to universalize all means-tested benefits currently targeted 
toward single mothers. Under a universalized system, all 
mothers would receive the same benefits irrespective of marital 
status and irrespective of their husband's earnings level. 
Under such a hypothetical system, no mother would suffer a 
reduction in welfare because she was married to a working 
husband.
    Such a universal benefit system would be extraordinarily 
expensive. Moreover, even in such a system, anti-marriage 
effects would remain. The presence of generous universal 
supports to all mothers would undermine the economic necessity 
of marriage, rendering husbands' earnings less necessary or 
even superfluous. This would be particularly true for low wage, 
low skill fathers, precisely the group for whom marriage has 
become the most tenuous.

     Provisions Relating to Marriage and Illegitimacy in the 1996 
                             Welfare Reform

    The Personal Responsibility and Work Opportunity 
Reconciliation Act enacted in 1996 contained several key 
provisions designed to strengthen marriage and reduce 
illegitimacy.
    (1) The law established for the first time in the nation's 
history, a clear goal to ``prevent and reduce the incidence of 
out-of wedlock pregnancies.''
    (2) It required states to establish annual numerical goals 
for reducing out-of-wedlock childbearing.
    (3) It created an illegitimacy ratio reduction bonus fund 
of $50 million per year to reward states which decrease the 
percentage of births which occur outside of marriage without 
increasing abortions. Up to five states may receive funds each 
year under this provision.
    (4) It created a new program to provide abstinence 
education directed toward marriage with funding of $50 million 
per year.
    Finally, during the national debate on welfare reform 
running from 1994 through 1996, Congress for the first time in 
the nation's history engaged in a clear and forthright debate 
concerning the societal harm caused by illegitimacy and the 
linkage between welfare and out-of-wedlock childbearing. This 
debate broke a spell of silence which had prevailed on this 
issue for more than three decades.
    For the first time, the majority of the members of both 
parties were clear in affirming both the harm of illegitimacy, 
and the desirability of strengthening marriage. During this 
period, press coverage on the harmful effects of illegitimacy 
on children and society increased tenfold. The clear public 
discourse on the value of marriage and ills associated with 
out-of wedlock childbearing--reinforced by the underlying theme 
of personal responsibility embodied in reform legislation--
played a critical role in the unexpected halt in the growth of 
illegitimacy which began in 1995.

                         New Policy Directions

    Since most other social problems stem from or are closely 
associated with the dramatic decline in marriage, the 
restoration of marriage must be our top social priority. Given 
the anti-marriage bias inherent in means-tested programs, it 
will be very difficult to eliminate the all anti-marriage 
effects from our welfare system. But this does not mean that 
positive steps to strengthen and promote marriage cannot be 
taken. Such positive steps would include:
    1. Constantly Articulate the Goal of Marriage.--The death 
of marriage is the central social problem facing our society. 
The first step in restoring marriage would be for social and 
political leaders to forcefully provide the message that 
marriage is essential to the welfare of men, women and 
children, and that bearing and raising children out-of wedlock 
is undesirable for both the child and society.
    2. Provide Abstinence and Marriage Education.--Young people 
should be educated about the crucial linkage between marriage, 
human happiness, and social well-being. (This message is 
completely absent in our schools.) They should be instructed in 
the value of abstaining from sexual activity until marriage, 
and should be taught the inter-personal skills needed to build 
strong and committed relationships between men and women.
    3. Increase the Illegitimacy Reduction Bonus Fund.--As 
noted, the 1996 welfare reform law created a pool of money to 
reward states which decrease out-of-wedlock childbearing 
without increasing abortion. Funding for this program should be 
increased and awards should be made available to more than five 
states.
    4. Establish Mentoring and Counseling Programs to Expand 
and Strengthen Marriage.--Marriage development and protection 
programs should be established in communities with a high level 
of out-of wedlock child bearing and low levels of marriage. The 
inclusion of community and religious groups in such efforts 
would be critical. Such programs should include: mentoring 
programs to help restore role models of successful marriage in 
communities where marriage has greatly eroded; counseling 
programs to instill the goal of successful marriage and to 
develop relationship skills among at-risk men and women; and 
support programs to strengthen fragile new marriages.
    5. Limit Subsidization of Single Parenthood.--Welfare 
subsidies serve as a competition to marriage and undermine the 
importance of moderate-skilled men as breadwinners and 
husbands. Limitations should be placed on traditional welfare 
subsidies to single parents; these would include policies such 
as work requirements and providing loans rather than grants.
    6. Reward Marriage Among At-Risk Groups.--New programs 
should be devised which communicate social and governmental 
affirmation of marriage, and which explicitly reward the 
initiation and continuance of marriage by at-risk individuals.

                               Conclusion

    The 1996 welfare reform act stated correctly that 
``marriage is the foundation of a successful society.'' The 
decline in marriage and the growth in out-of-wedlock 
childbearing is injurious to the well-being of children, 
mothers, fathers and society at large. No task is more 
important or pressing than the restoration and strengthening of 
marriage in our society.
[GRAPHIC] [TIFF OMITTED] T5696.017

[GRAPHIC] [TIFF OMITTED] T5696.018

[GRAPHIC] [TIFF OMITTED] T5696.019

[GRAPHIC] [TIFF OMITTED] T5696.020

[GRAPHIC] [TIFF OMITTED] T5696.021

[GRAPHIC] [TIFF OMITTED] T5696.022

[GRAPHIC] [TIFF OMITTED] T5696.023

[GRAPHIC] [TIFF OMITTED] T5696.024

[GRAPHIC] [TIFF OMITTED] T5696.025

[GRAPHIC] [TIFF OMITTED] T5696.026

[GRAPHIC] [TIFF OMITTED] T5696.027

[GRAPHIC] [TIFF OMITTED] T5696.028

[GRAPHIC] [TIFF OMITTED] T5696.029

[GRAPHIC] [TIFF OMITTED] T5696.030

[GRAPHIC] [TIFF OMITTED] T5696.031

[GRAPHIC] [TIFF OMITTED] T5696.032


                                <F-dash>


    Chairman Johnson of Connecticut. Ms. Sawhill, it is a 
pleasure to welcome you back.

STATEMENT OF ISABEL V. SAWHILL, PH.D., SENIOR FELLOW, BROOKINGS 
 INSTITUTION, AND PRESIDENT, NATIONAL CAMPAIGN TO PREVENT TEEN 
                           PREGNANCY

    Ms. Sawhill. Thank you very much, Madam Chair. I am really 
delighted to be here.
    The first question I want to raise is, why should we care 
about nonmarital childbearing. Here I simply want to stress 
that all of our research suggests that children are better off 
in two-parent than in one-parent families. They do better in 
school; they have fewer behavioral and social problems. Even 
after you adjust for economic differences between two-parent 
and one-parent families, the children in one-parent families 
are worse off.
    However, the biggest problem is that children in single-
parent families have much lower incomes than those in two-
parent families, as I show in figure 1.
    The poverty rate amongst the children of never-married 
mothers is six times as high as the poverty rate in two-parent 
families, and this relationship holds no matter what racial or 
ethnic group you are looking at.
    Given the enormous differences in the economic situation of 
these different types of families, it is not too surprising 
that given the growth of both nonmarital childbearing and 
single-parent families, that we have experienced an upward 
trend in child poverty rates since about 1970. The main factor 
that is driving the increase in single-parent families in the 
last decade or so has been nonmarital childbearing. It used to 
be divorce that was driving the growth of single-parent 
families; it isn't anymore. The divorce rate has leveled off. 
So, it is now nonmarital childbearing that is driving up the 
number of single-parent families, and it is the growth in 
single-parent families, in turn, that is responsible for much 
of the increase in child poverty, as you can see in figure 2 
where we have adjusted the poverty rates for changes in family 
structure. We asked what would the poverty rate amongst 
children be in 1996 if we still had the same family structures 
that we did back in 1970; and the answer is, there wouldn't be 
much more child poverty now than there was in that earlier 
year.
    Now, all of this is by way of saying that marriage is a 
powerful antipoverty strategy, but many people say, ``Well, the 
reason that marriage has collapsed is because men don't have 
the earnings and the employment that they used to, particularly 
less-skilled, less-educated men, and therefore, men and women 
aren't getting married.'' There is no sense in taking on a 
husband if that husband can't earn enough to support a family; 
and there is a little evidence that declining earnings among 
men has played some role, but I don't think it has played the 
dominant role.
    And to further reinforce the point that marriage is a good 
antipoverty device, in figure 3, I compare two families. One is 
a single-parent family with two children, working in a minimum 
wage job full-time, and the second is a married couple in which 
both parents are also working full-time at minimum-wage jobs. 
In both cases, they get the Earned Income Tax Credit, although 
a little less EITC in the second case than in the first. But as 
you can see very clearly, this second family is economically 
much better off, even though neither of the parents is earning 
very much.
    We haven't taken into account child care costs here, which 
changes the picture somewhat, and we can go into that later if 
you like.
    I think both Robert Rector and Stephanie Ventura made the 
point that not all out-of-wedlock or nonmarital births are to 
teenagers, and that is true, but I want to emphasize that half 
of first nonmarital births are to teenagers and that those 
births are overwhelmingly unplanned and unintended. In fact, 
about one-fifth of all teenage girls in the United States can 
be predicted to have a child out of wedlock given current 
rates.
    So I think that when it gets to the question of what can be 
done, a very good place to focus our efforts is on reducing 
teenage pregnancies for several reasons. First, that is where 
the pattern of out-of-wedlock childbearing starts; second, that 
is the group for whom the consequences are most devastating, 
and third, that is the group for which the greatest social 
consensus exists that something needs to be done. You are going 
to hear more from Brenda Miller, my colleague at the National 
Campaign to Prevent Teen Pregnancy, about the strategy that we 
have adopted at the National Campaign for reducing teenage 
pregnancy. But one of the reasons that I got involved in 
helping to found the National Campaign to Prevent Teen 
Pregnancy is because I felt that reducing teenage pregnancies 
was one of the most highly leveraged and important things we 
could do to reduce poverty, welfare dependency and a whole host 
of social problems that several people have already alluded to.
    The good news is that teen pregnancy and birthrates have 
been declining since the early 1990s, but bear in mind that we 
still have rates that are much higher than in any other 
industrialized country. I am talking about five or six times as 
high as in Europe.
    On this question of abstinence versus contraception, it is 
very divisive. There is a huge debate out there, as Dr. Nathan 
has suggested. This is one reason why it has been so difficult 
to move forward at the local level. We have done polling data 
on this, and our polling data suggests that there is a strong, 
indeed, I would say, an overwhelming, consensus in the country 
that we should promote abstinence amongst school-age youth, but 
the public does not want contraceptives to be taken away. They 
want to have them available as a backup.
    So, as I think you said, Madam Chair, we need a more 
balanced conversation about this. We need abstinence to be our 
first message, but we need to have contraceptives available for 
those who need them.
    I could go on and make a number of other recommendations, 
but in the interest of time and seeing the red light, I will 
leave it at that for now. Thank you.
    [The prepared statement follows:]

Statement of Isabel V. Sawhill, Ph.D., Senior Fellow, Brookings 
Institution, and President, National Campaign to Prevent Teen Pregnancy

    I appreciate the opportunity to testify on this important 
topic. Both as President of the National Campaign to Prevent 
Teen Pregnancy and as a Senior Fellow at the Brookings 
Institution, I have become convinced that early out-of-wedlock 
childbearing is bad for parents, bad for society, and 
especially bad for the children born into such families. 
However, the views I express today are my own and should not be 
attributed to a particular institution with which I am 
associated.
    Three years after the enactment of welfare reform, the new 
law is being hailed as a great success. Caseloads have declined 
dramatically since the law was signed, and with fewer 
individuals to support, the states are flush with money. A 
strong economy interacting with tougher welfare rules and more 
support for the working poor is helping to turn welfare checks 
into paychecks. But the welfare system is like a revolving 
door. In good times, more people move off the rolls than come 
on and caseloads decline. But in bad times, exactly the reverse 
can occur. The only way to permanently reduce poverty and its 
associated expense is to stem the longer-term trends in out-of-
wedlock childbearing that have historically pushed child 
poverty and caseloads up. Unless the states invest their 
surplus funds in programs aimed at preventing poverty, success 
may be short-lived or purchased at the expense of the children 
it was designed to help. If every recipient who finds a job is 
replaced by a younger sister ill-prepared to support a family, 
the immutability of the revolving door will once again prevail.
    There are many ways of preventing poverty. We could invest 
in early childhood education, inner city schools, or in 
additional supports for the working poor. But unless we can 
reduce out-of-wedlock pregnancies and encourage the formation 
of two-parent families, other efforts, by themselves, may well 
fail.
    Much more attention needs to be given to encouraging young 
people to defer childbearing until they are ready to be 
parents. Some of the funds freed up by the drop in caseloads 
ought to be invested in teen pregnancy prevention programs and 
in reconnecting fathers with their children. In the absence of 
such efforts, welfare reform's current success is likely to be 
short-lived.

                Family Structure and Welfare Dependency

    Rising divorce rates combined with a huge increase in 
childbearing outside of marriage have led to a situation in 
which most children born today will spend some time in a single 
parent family. And since roughly half of these single parents 
are poor (Figure 1), large numbers of children are growing up 
in poverty as well. Indeed, the growth of single parent 
families can account for virtually all of the increase in child 
poverty since 1970 (Figure 2).
    The growth of female-headed families has also contributed 
to the growth of the welfare rolls. According to the 
Congressional Budget Office, welfare caseloads would have 
declined considerably throughout most of the 1980s if it had 
not been for the fact that the growth of single parent families 
continued to push them upwards. Moreover, this factor was more 
than twice as important as the economy in accounting for the 
roughly one million increase in the basic caseload between 1989 
and 1993.
    It is not just the growth of female-headed families but 
also shifts in the composition of the group that have 
contributed to greater poverty and welfare dependency. In the 
1960s and 1970s, most of the growth of single parent families 
was caused by increases in divorce or separation. In the 1980s 
and 1990s, all of the increase has been driven by out-of-
wedlock childbearing. Currently, 32 percent of all children in 
the United States and more than half in many large cities are 
born outside of marriage. Unmarried mothers tend to be younger 
and more disadvantaged than their divorced counterparts. They 
are overwhelmingly poor (Figure 1) and about three-quarters of 
them end up on welfare.
    A large fraction of babies born outside of marriage have 
mothers who are not teenagers. However, the pattern of out-of-
wedlock childbearing is often established at a young age. 
Specifically, more than half of first out-of-wedlock births are 
to teens. So if we want to reduce such births and the welfare 
dependency that usually ensues, the adolescent years are a good 
place to start.
    There are two strategies that can be used to reduce teen, 
out-of-wedlock births. One is to encourage marriage. The other 
is to discourage sex, pregnancy, and births among teens. This 
latter strategy has the advantage of being more consistent with 
the growing requirements of the economy for workers with higher 
levels of education and with evidence that teenage marriages 
are highly unstable.

       Out-of-Wedlock Childbearing: Cause or Symptom of Poverty?

    Some contend that many of the women who have babies as 
unmarried teens would have ended up poor and on welfare even if 
they had married and delayed childbearing. The argument is that 
they come from disadvantaged families and neighborhoods, have 
gone to poor schools, or faced other adverse influences that 
make having a baby at a young age as good an option as any 
other. There are few men with jobs for them to marry, and given 
their own lack of skills, welfare seems like a relatively good 
alternative. Moreover, earnings for less skilled men have 
plummeted over the past 30 years.
    Although such arguments cannot be dismissed entirely, they 
are only a small part of the story. To begin with, the drop in 
marriage rates, which has been especially pronounced among 
African Americans, has been much larger than any economic model 
can explain. Second, early childbearers are much less likely to 
complete high school, leading directly to poor long-term 
employment prospects for the young women involved. The children 
in such families suffer even greater adverse consequences, 
including poorer health, less success in school, and more 
behavior problems. Finally, the argument that declining 
earnings has made marriage less viable is a curious one. Two 
adults can live more cheaply than one, and by pooling whatever 
earnings can be secured from even intermittent or low paid 
employment, they will be better off than a single adult living 
alone. These arguments are doubly true once a child enters the 
picture and one parent either needs to stay home or shoulder 
the extra expense of paying for child care.
    One can grant that the earnings prospects of poorly 
educated, inner city residents are not good and have 
deteriorated in recent decades, and that better schools and 
more support systems for low-income working families would 
help. Still, early out-of-wedlock childbearing greatly 
compounds the problem. Even well-educated individuals in their 
twenties have difficulty living on one income these days, and 
most middle class families have two earners. Yet, for some 
reason, it is assumed that if the men in low-income communities 
can't command a decent wage, they are not marriageable. But 
fathers are, or should be, more than just a meal ticket. And 
although two minimum wage jobs will not make anyone rich, they 
will provide an income of about $20,000 a year, well above the 
poverty level for a family with two children (Figure 3). In 
short, marriage and delayed childbearing have the potential to 
solve a lot of problems, including assuring a better future for 
the next generation.

     Why Are Teen Pregnancy and Out-of-Wedlock Birth Rates So High?

    As teen pregnancy and childbearing have become more common, 
they have also become more acceptable, or at least less 
stigmatized. A few decades ago, there were real social 
penalties to be paid if a girl became pregnant outside of 
marriage. Young girls refrained from sex for fear of becoming 
pregnant and being socially ostracized. Among those who did get 
pregnant, shotgun marriages were common. Young men had to 
compete for women's affections by promising marriage or at 
least commitment. All of this changed during the 1970s and 
1980s. Contraception and abortion became much more available, 
women became more liberated, and sexual mores changed 
dramatically. A study by George Akerlof and Janet Yellen 
documents how the decline in shotgun marriages contributed to a 
rising tide of out-of-wedlock births. But this same change in 
sexual mores led not just to fewer marriages but also to a lot 
more sexual activity and a rising pregnancy rate among the 
nation's youth.
    As Figure 4 shows, teen pregnancy rates increased from the 
early 1970s until 1990 and have been declining since that time. 
The relatively modest growth depicted in the chart is the 
result of two offsetting trends since 1972: increased sexual 
activity among teens combined with greater use of 
contraception. If teens had not increased their use of 
contraception over this period, teen pregnancy rates would have 
soared and been almost 40 percent higher by now. On the other 
hand, contraceptive use did not keep pace with the greater 
tendency of teens to engage in sex, with the result that, up 
until recently, the pregnancy rate kept rising. In the war 
between sex and safer sex, sex won.
    These increases in pregnancy rates have not always 
translated into higher birth rates. The greater availability of 
abortion after 1973 kept the teen birthrate somewhat in check. 
But few people, whatever their position on this difficult 
issue, want abortion to be the major means of preventing 
poverty and welfare dependency.

    The Good News: Teen Pregnancy and Birth Rates Are Now Declining

    In the 1990s, teenage sexual activity stopped increasing or 
even declined a bit. This combined with greater utilization of 
contraception among teens has caused the teen pregnancy rate to 
decline for the first time in decades. Teen births have fallen 
as well and the proportion of all children born out-of-wedlock 
has stabilized. The drop in birth rates among unmarried black 
teens is especially striking. It has declined by almost one 
fifth since 1991, a much sharper drop than that experienced by 
any other group.
    What has caused this recent turnaround in sexual activity, 
pregnancy, and out-of-wedlock births? No one really knows but 
there are several possible explanations. One is fear of AIDS, 
which is widely suspected to be the most important reason for 
teens' willingness to either abstain from sex or use 
contraception more frequently than in the past.
    Another possible explanation is welfare reform itself. 
Although the trends predate welfare reform, they may have 
gotten an extra push from the debate leading up to enactment of 
the new law in 1996 and the state reforms that preceded it. 
Most researchers don't expect welfare reform to have a big 
impact on out-of-wedlock childbearing. (Past studies are 
somewhat inconsistent, but most find that welfare has had only 
minor effects.) However, the new law makes welfare, and thus 
unwed motherhood, as a life choice much more difficult. And 
past research may not be a very good guide to future behavior 
because it has been based on variations in welfare benefits 
across states, not system-wide changes that are accompanied by 
time limits and strong moral messages that have the potential 
to change community norms.
    Another factor that can't be dismissed is the performance 
of the economy over this period. The unemployment rate peaked 
in 1992 at 7.5 percent and has fallen sharply since. The long 
and very robust expansion, combined with increases in the 
minimum wage and in the Earned Income Tax Credit, may have 
helped to make work more attractive than welfare, and provided 
young women with more of a reason to defer childbearing. (This 
explanation is consistent with a surprisingly steep rise in the 
labor force participation of less educated single mothers since 
1990.) And finally, tougher enforcement of child support laws 
may have made young men think twice before producing a baby.

                  Given All This Good News, Why Worry?

    Although recent declines auger well for the future, it is 
worth remembering that teenage pregnancy rates are still at 
least twice as high as in other industrialized countries and 
higher than they were in the early 1970s. About half of these 
pregnancies are carried to term while the remainder either end 
with a miscarriage or are terminated by an abortion. Very few 
teen mothers put their babies up for adoption, or marry the 
baby's father, a marked departure from practices 30 or 40 years 
ago.
    All of these considerations suggest that unless welfare 
reform begins to modify the underlying demographic trends that 
contribute to poverty and welfare dependency, it may do little 
more than reshuffle poor mothers and their children between 
welfare and low-paid work or worse. With the help of a strong 
economy, states could end up being quite successful at moving 
existing recipients off the welfare rolls. But unless they also 
focus on the number coming in the front door of the welfare 
system, this could be a hollow victory. Congress has created an 
incentive for states to reduce teen and out-of-wedlock 
childbearing by offering a bonus of $20 million annually to the 
most successful states, and this has served as a wake-up call 
for some governors. But as Richard Nathan at SUNY Albany 
reports, many states have been reluctant to address the issue, 
considering it too hot to handle. They have tossed this 
political hot potato to local governments and nonprofit 
organizations.

                         What Else Can Be Done?

    Efforts to reduce teen pregnancy have traditionally 
centered on sex education and family planning services. Sex 
education, although widely available, is often too little and 
too late to have much impact. The best curricula focus less on 
reproductive biology than on teaching adolescents the skills 
needed to handle relationships, resist peer pressures, and 
negotiate difficult situations. Although teens are using 
contraception much more frequently than in the past, and their 
preferred method--condoms--is widely available in stores, they 
do not typically use it consistently, especially when they are 
young. The result is that failure rates are high and unplanned 
pregnancies all too common. Even a 12 percent annual failure 
rate, typical for condom users, cumulates to an almost certain 
pregnancy in the dozen years between puberty and marriage or an 
adult job. Part of the problem is that the boys and young men 
involved are not held accountable for their actions. Although 
the new welfare law puts considerable emphasis on establishing 
paternity and collecting child support from fathers, up until 
now, most have had a free ride. Unwed fathers need to be 
offered the same work opportunities and be subjected to the 
same requirements as the mothers of their children. And if 
Congress wants to do something about the so-called ``marriage 
penalty,'' the place to start is with the Earned Income Tax 
Credit (EITC). As a result of the credit, a working single 
parent with two children can qualify for almost $4,000 a year. 
But if she marries another low-wage earner, she stands to lose 
most or all of these benefits. Congress should consider basing 
the credit on individual rather than family earnings. (A 
requirement that couples split their total earnings before the 
credit rate was applied would prevent benefits from going to 
higher income families.) Under such a revised EITC, incentives 
to marry would be greatly enhanced.
    In the meantime, efforts to equip adolescents with the 
knowledge and the means to avoid pregnancy in the first place 
have been highly charged politically and have created a 
backlash by conservatives, and even by some moderates, who want 
more emphasis placed on abstinence. Public opinion polls show 
that over 90 percent of the public believes that abstinence is 
the appropriate standard for school-age youth, even though a 
majority still wants contraceptives to be available as a 
backup. (Contrary to what some believe, there is no evidence 
that teaching young people how to protect themselves causes 
them to have more sex.) As part of the 1996 welfare reform 
bill, Congress provided $50 million a year for abstinence 
education programs. Such programs have never been adequately 
evaluated and many experts are skeptical that ``just say no'' 
campaigns by themselves will have much effect. But there is 
newfound appreciation for the need to encourage abstinence, 
especially among younger teens. In addition, if these or other 
funds were used for programs such as mentoring, community 
service, or after school activities, it could make a 
difference.
    Those looking for guaranteed programmatic solutions to this 
problem are likely to be disappointed. The point is not that 
programs can't be effective, but that in isolation from a 
change in social norms, their impact may be small. Conversely, 
an intervention that begins by affecting behavior in quite 
modest ways may eventually produce changes in norms that 
snowball into bigger long-term effects. Behavior is contagious. 
Teens, in particular, are enormously influenced by what their 
friends, parents, and heros say and do, as documented in 
research commissioned by the National Campaign to Prevent Teen 
Pregnancy. This suggests that programs not be judged only on 
the basis of their immediate effects but also on their 
potential to reengage parents and reorient peer culture. It 
also suggests devoting some funds to media campaigns and to 
support for community or youth-led efforts that focus on values 
and not just services.
    In conclusion, reducing teen pregnancy could substantially 
decrease child poverty, welfare dependency, and other social 
ills. Although little is known with certainty about how to 
advance this objective, states now have the opportunity to 
experiment with a variety of promising approaches that are 
critical to the longer-term success of current welfare reform 
efforts. Whatever approach states choose, they should remain 
cognizant of the importance of strengthening the social norm 
that teen out-of-wedlock childbearing is--to put it most 
simply--wrong.
[GRAPHIC] [TIFF OMITTED] T5696.033

[GRAPHIC] [TIFF OMITTED] T5696.034

[GRAPHIC] [TIFF OMITTED] T5696.035

[GRAPHIC] [TIFF OMITTED] T5696.036

                                <F-dash>


    Mr. Cardin. Madam Chair, if I can interrupt for just a 
moment, I am going to need to leave because I am going to be in 
a panel testifying before another committee, taking your place, 
on a pension bill. I apologize, but I need to testify before 
another legislative committee at this time, and I look forward 
to reading the testimony of those that I do not hear today, and 
working with everybody here.
    Chairman Johnson of Connecticut. Thank you. I have to say 
the bill that Ben and my colleague, Rob Portman, are proposing 
will have as much to do with helping to create economic 
security for some of these young girls as anything this 
Congress might do by allowing and encouraging employers, even 
those who provide minimum wage benefits to their employees, to 
also be able to provide pension opportunities and encourage 
savings.
    Thanks, Ben.
    Pat Funderburk.

STATEMENT OF PAT FUNDERBURK WARE, PRESIDENT AND CHIEF EXECUTIVE 
  OFFICER, PRESERVING FAMILY WELL-BEING FOUNDATION, ASHBURN, 
                            VIRGINIA

    Ms. Ware. Good morning.
    Chairman Johnson of Connecticut. I'm sorry, Pat Ware.
    Ms. Ware. Pat Funderburk Ware, but it is not hyphenated, 
and Ware is so much easier than Funderburk, so I just use the 
Ware.
    I am now serving as president and CEO of Preserving Family 
Well-Being Foundation, a new nonprofit organization formed by a 
number of African American organizations around the country 
that are also very interested in the issue of teen pregnancy 
prevention and family preservation. And much has been said that 
I do agree with, coming onto the Hill, Isabel Sawhill, one of 
my colleagues. I agree that teen pregnancy prevention is 
extremely critical.
    I will tell you, if you are looking for my testimony it is 
not there. It is not there because I have been in the field for 
the last 2 weeks talking about this issue in the communities, 
in rural area, urban areas, and actually forgot that I was 
supposed to be here today. So it was fortunate I got home at 1 
a.m. and looked at my other calendar and saw this. But again, 
it was a good thing to do because it does lead up to what we 
are talking about today.
    I think I heard earlier from Dr. Zill about the importance 
of adults being involved in this conversation. We are talking 
about, how do we actually prevent teen pregnancies? One of my 
focused areas is the adults. I don't do a lot of discussion and 
training with the young people because, for many reasons, I 
feel this is more of an adult problem than a teenager's 
problem.
    I have been invited by communities that do have title V 
money to come in and do what we call community training, and I 
do title training--is there hope for them, because the focus in 
most of the communities is on the African-American community; 
and we have seen the data, and I have been very encouraged by 
the response that we have gotten because what I try to help the 
community do is to take a journey with me, to do something 
really different, not just focus on what the kids are doing, 
but what we as adults have and have not done? Why is it that at 
a time in the history of African Americans in this country, 
where we can have more economic and educational opportunities 
than we have ever had, that the data for our youth looks worse 
than it has ever looked since we have been in America?
    And we talk about that, how did we get from point A to 
point B? How is it that at the onset of 1960 nearly 80 percent 
of all black households were headed by two parents. And now we 
have heard the data today; it is horrendous.
    So what I found in the community is that we don't have to 
talk about political issues. We don't have to talk about 
abstinence versus contraception. We talk about what we can do 
as a people. What happened to us? Did we abandon the values 
that kept us together as a people through slavery and 
segregation, Jim Crow-ism and hangings, and we look at those 
values, and it is very clear, once we assess what we did, what 
changed after integration that is very clear, that we don't 
teach our kids the same things anymore. We don't talk about 
delaying sex, waiting until marriage. We don't have a strong 
value on marriage any longer.
    I talked to them about the data that is out there, about 
the health data study that came out, that was funded by the 
National Institutes for Child Health and Human Development, 
that looks at what keeps our kids safe, and when they looked in 
the area of pregnancy and sexuality, there were four strong 
points that they talk about in this report.
    The first is the connectedness with parents, how many of us 
are connecting with our parents. The second is when a parent 
gives a child a very clear, clear message that they do not want 
that child to be sexually active, not a kind of nondirective 
kind of wishy-washy response. The third that I think surprised 
a lot of us is when the parents give a clear message that they 
do want their children to use contraception, and what also was 
surprising in this study was that 10 percent of the men, young 
men, I think, between the ages of either 14 or 15 and 19 in 
this study, over 12,000 of them and 15 percent of the young 
women had taken pledges of chastity, and that was a surprise to 
many people.
    But what we are trying to do is to paint a vision for our 
people about what it can be like for us in the future, what our 
families could look like and how do we get there; and it is 
clear that we can't get there by not being very clear what we 
want our kids to do and how to do that.
    I was a single mom myself for 20 years. I have lived in a 
devastated inner city community and helping revitalize that 
community so the teen pregnancies rates would decline, and drug 
abuse. And people started their own businesses and bought homes 
that they thought they would never have, got off welfare and 
stayed off welfare, and it is more than a discussion about 
whether we should teach abstinence or use contraception.
    And when we can paint the vision, what I have found in 
every community I have been in, whether poor rural or urban, 
the conclusion from the parents is always that we have to teach 
our children something better, we have to teach them about 
delaying sexual self-gratification, and we have to help them 
understand why sexual activity is not in their best sexual 
interest, best health interests for the present or the future.
    There is a lot more I can say, too, but I do see the red 
bulb, and I will stop.
    Chairman Johnson of Connecticut. Thank you very much, and 
thank you for being here. Certainly, your experience in the 
field is extremely important to us because you can talk all you 
want about the stuff in Washington, frankly, and if you never 
get out there to the real world and if nobody ever hears you, 
it isn't going to make a bit of difference.
    Mr. Richards.

   STATEMENT OF CORY L. RICHARDS, VICE PRESIDENT FOR PUBLIC 
               POLICY, ALAN GUTTMACHER INSTITUTE

    Mr. Richards. Thank you. We have been hearing this morning 
that nonmarital childbearing is an exceedingly complex problem, 
and it is, but certainly one of the driving forces behind 
nonmarital childbearing in the United States is unintended 
pregnancy. Among all the births to never-married women in the 
United States, 6 in 10 are the result of pregnancies that were 
not intended. Among teenage births, and teenagers are 
overwhelmingly not married, two-thirds of the births are the 
result of unintended pregnancies.
    So clearly, as we look at a range in societal responses to 
the problems of nonmarital childbearing, we need to pay 
attention to unintended pregnancy.
    The second point I would like to make is that unintended 
pregnancy is not an intractable problem. We have heard this 
morning, and I absolutely agree, that the rates in the United 
States are high. They are very high compared to other developed 
countries; they are far too high. But the fact of the matter is 
that rates of unintended pregnancy in the United States have 
been coming down. They have been coming down for all women, 
including adult women, and especially for teenage women.
    I think we have heard twice this morning that teenagers are 
not responsible for the bulk of nonmarital childbirths in the 
United States, and I want to say it for the third time. 
Teenagers only account for about a third of the nonmarital 
childbearing in the United States, but for reasons given by 
Isabel Sawhill and others, there is plenty of justification for 
dealing with the problems of our young, most vulnerable 
citizens, so addressing teenage pregnancy is a tremendously 
important problem.
    Having said that teenage pregnancy rates are coming down in 
the United States, that naturally raises the question that all 
you policymakers want the easy answer to, which is why; and of 
course, I can't give you the easy answer because there is much 
that we don't know about why people are behaving the way they 
are. But there are new data from the National Surveys of Family 
Growth in 1988 and 1995 that shed some light on what is sort of 
the first-cut question, which is, how much of this is due to 
increased abstinence among teenagers and how much is due to 
other factors?
    What we have seen from the NSFG surveys is that between 
1988 and 1995 there was a 10 point decline in the teenage 
pregnancy rate from 111 to 101 per 1,000 teenagers. During that 
same period there was a 2 percent decline in the proportion of 
teenagers who reported that they ever had intercourse. But 
while statistically that is very small, the fact of the matter 
is that that 2 percent decline in sexual activity is 
responsible for about 20 percent of the total decline that we 
have seen in teenage pregnancy.
    What that means, however, is that 80 percent of the decline 
has to do with changes in behavior among teenagers who are 
sexually experienced, who have had intercourse in the past; and 
we looked at the three possibilities that could be responsible 
for that. It could be one or a combination, of either sexually 
experienced teenagers having sex less frequently, using 
contraceptives more in total, or using contraceptives more 
effectively. What the data seem to show is that sexually 
experienced teenagers are not substantially less sexually 
active than in the past. Meanwhile, their total contraceptive 
use has gone up only very slightly, from about 78 percent to 80 
percent. But the real change, and the significant change that 
is responsible for the very steep declines that we have seen in 
pregnancy rates among sexually active teenagers, is a change in 
method use primarily toward the new long-lasting hormonal 
methods, Depo-Provera and the contraceptive implant Norplant, 
which only came on the market in the United States in the early 
1990s.
    By 1995, the second NFSG survey, 1 in 10 teenagers at risk 
of unintended pregnancy was using these methods, and we think 
that that is the critical reason that pregnancy rates among 
sexually active teenagers went down.
    Earlier, Stephanie Ventura talked about the very steep 
decline we have seen in second pregnancies to teen moms, and it 
would appear that the use of these long-lasting contraceptives 
is even more important among these teenagers because about one 
in four of these teenagers is using these methods.
    So, to sum up, it seems to me that in the great controversy 
over whether this is due to abstinence or contraception, it is 
not an either/or situation, that both seem to be at play here, 
though not in the same proportion; and I would suggest that the 
policy implications of that are relatively clear, or they seem 
relatively clear to me, which is that even as we continue to 
promote abstinence with our young people, we need to recognize 
that half of the teenagers in the United States still are 
sexually active and that access to the information and the 
contraceptive services that they need to protect themselves 
need to be preserved as well.
    Chairman Johnson of Connecticut. Thank you. That was very 
interesting, and it does remind us that this is a complicated 
problem and certainly contraception plays a role.
    [The prepared statement follows:]

Statement of Cory L. Richards, Vice President for Public Policy, Alan 
Guttmacher Institute

    Good morning. My name is Cory Richards, and I am Vice 
President for Public Policy at The Alan Guttmacher Institute 
(AGI), an independent, not-for-profit corporation for 
reproductive health research, policy analysis and public 
education. In compliance with clause 2(g)(4) of House Rule XI, 
I have submitted to the subcommittee information on relevant 
federal government grants received by AGI.
    Thank you, Madam Chairwoman, for inviting me to speak to 
you and members of the subcommittee this morning as you 
consider a range of questions related to the goal of reducing 
nonmarital births.
    Nonmarital childbearing in the United States is an 
exceedingly complex matter; it represents the coming together 
of a variety of factors. But no matter how you cut it, one 
central force driving nonmarital birth is unintended pregnancy. 
Fully six in 10 births to never-married women are the result of 
pregnancies that were unintended. Among teenagers, most of whom 
are unmarried, fully two-thirds of all births are the result of 
pregnancies that were unintended.\1\ As a result, although 
there are many ways in which we, as a society, can work to 
alleviate problems associated with nonmarital births, it is 
clear that confronting the issue of unintended pregnancy is 
absolutely critical.
---------------------------------------------------------------------------
    \1\ Source: Henshaw S, Unintended pregnancy in the United States, 
Family Planning Perspectives, 1998, 30(1):24-29.
---------------------------------------------------------------------------
    In that light, it is heartening to be able to report that 
there is some very good news on the unintended pregnancy front: 
Unintended pregnancy rates in the United States began to 
decline over a decade ago, and that decline has continued into 
the 1990s. Indeed, the unintended pregnancy rate among all 
women of reproductive age dropped fully 16% between 1987 and 
1994.\2\
---------------------------------------------------------------------------
    \2\ Source: Ibid.
---------------------------------------------------------------------------
    On the teenage pregnancy front, the news is especially 
good: After years of steady increases, U.S. teen pregnancy 
rates have dropped markedly this decade. Teen pregnancy rates 
peaked in 1990, and then fell 17% between 1990 and 1996. 
Likewise, teen birthrates have fallen off since 1990,\3\ and 
teen abortion rates fell by almost a third between 1986 and 
1996.\4\ While, contrary to popular belief, teens do not 
account for the majority of nonmarital births,\5\ childbearing 
among unmarried young women is quite properly of particular 
concern to us all, since young mothers and their children are 
especially vulnerable to severe adverse social and economic 
consequences.\6\
---------------------------------------------------------------------------
    \3\ Teen birthrates dropped 12%, from 62.1 to 54.4 per 1,000, 
between 1991 and 1996. In 1986, the birthrate was 50.2. Source: The 
Alan Guttmacher Institute (AGI), Teenage pregnancy, overall trends and 
state-by-state information, New York: AGI, 1999.
    \4\ The teen abortion rate was 42.3 in 1986; in 1996, it was 29.2. 
Source: Ibid.
    \5\ Nonmarital births to teenagers account for 31% of all 
nonmarital births. Source: Ventura, SJ et al., Births: Final data for 
1997, National Vital Statistics Report, 1999, Vol. 47, No. 18, Tables 2 
and 17.
    \6\ See Maynard RA, ed., Kids Having Kids: A Robin Hood Foundation 
Special Report on the Costs of Adolescent Childbearing, New York: The 
Robin Hood Foundation, 1996.
---------------------------------------------------------------------------
    Why have teen pregnancy rates fallen? Answers to this 
question are crucial, as they can--and should--inform how we 
can sustain these positive trends among teenagers, as well as 
shed much-needed light on ways to address the phenomenon of 
unintended pregnancy that is shared by women of all ages.
    Careful analyses of key government data \7\ indicate that 
approximately 80% of the declines that we have seen in teen 
pregnancy can be attributed to declines in pregnancy rates 
among sexually experienced teenagers. Indeed, the drop in 
pregnancy rates among sexually experienced teens has been very 
marked--16% between 1990 and 1996.\8\
---------------------------------------------------------------------------
    \7\ The 1988 and 1995 National Surveys of Family Growth.
    \8\ In 1990, the pregnancy rate among sexually experienced teens 
was 224; in 1996, it was 190. Source: Saul R, Teen pregnancy: Progress 
meets politics, The Guttmacher Report on Public Policy, 1999, 2(3): 6-
9.
---------------------------------------------------------------------------
    Declining pregnancy rates among sexually experienced teens 
must be attributable to one or more of the following three 
factors:
    <bullet> less frequent sexual activity;
    <bullet> an overall increase in contraceptive use (that is, 
an increase in the proportion of sexually experienced teens 
using a contraceptive);
    <bullet> and/or improved--in other words, more effective--
contraceptive use.
    Government data do not bear out a decrease in levels of 
sexual activity among sexually experienced teens.\9\ On the 
other hand, there is evidence that a slightly larger proportion 
of sexually active teens are using contraceptives,\10\ and--
even more significantly--that teens who do use contraceptives 
are using more effective methods. Most notably, there has been 
a substantial shift among sexually active teens toward use of 
highly effective, long-acting contraceptive methods--the 
contraceptive injectable, Depo-Provera and the contraceptive 
implant, Norplant. These methods only hit the U.S. market in 
the early 1990s, but by 1995, one in ten sexually active teen 
women at risk of unintended pregnancy was using one of 
them.\11\ Because these long-acting methods are so effective 
and so easy to use, they are making a big dent in the teen 
pregnancy rate.
---------------------------------------------------------------------------
    \9\ A somewhat lower proportion of sexually experienced young women 
reported having had intercourse in the three months prior to the 
National Survey of Family Growth in 1995 than in 1988 (79% vs. 81%); 
however, over the entire prior year, sexually experienced young women 
reported having had intercourse during the same average number of 
months in both the 1988 and the 1995 NSFG (8.6 months). Source: Ibid.
    \10\ A greater proportion of sexually experienced teens reported 
currently using a contraceptive--using one within the last month--in 
1995 than in 1988; that number grew from 78% to 80%. Source: Ibid.
    \11\ Source: Ibid.
---------------------------------------------------------------------------
    Use of Depo-Provera and Norplant may have played a 
particularly large role in reducing second pregnancies among 
teen mothers. Data released earlier this year by NCHS showed a 
dramatic 21% decline between 1991 and 1996 in the proportion of 
teens giving birth a second time.\12\ During a corresponding 
time period, as NCHS researchers have pointed out, a relatively 
high proportion of teen mothers--one in four--were using long-
acting methods.\13\
---------------------------------------------------------------------------
    \12\ Source: Ventura SJ, Mathews TJ and Curtin SC, Declines in 
teenage birth rates, 1991-1997: National and state patterns, National 
Vital Statistics Reports; 1998, Vol. 47, No. 12.
    \13\ Using data from the 1995 National Survey of Family Growth, 
NCHS researchers estimate that about one-fourth of teens who are 
mothers are using Depo-Provera or Norplant. Source: NCHS, Unpublished 
tabulation, 1999.
---------------------------------------------------------------------------
    Our analyses additionally confirm that there has been a 
decline--or at least a leveling off--in the proportion of 
teenagers who have ever had sexual intercourse. Indeed, the 
proportion of women aged 15-19 who report they have ever had 
sexual intercourse decreased about one percentage point between 
1988 and 1995.\14\ About 20% of the declines in the overall 
U.S. teen pregnancy rate is attributable to this increased 
abstinence.
---------------------------------------------------------------------------
    \14\ The percentage of 15-19 year old women who say they have ever 
had sexual intercourse was 52.6% in 1988 and 51.5% in 1995. Source: 
Saul R, 1999, op. cit. (see reference 8).
---------------------------------------------------------------------------
    Many questions remain around why teen contraceptive use has 
improved, and why more teens are remaining abstinent, but the 
bottom line is that both phenomena are making a difference in 
combating teen pregnancy. As we have seen, about 20% of that 
difference is attributable to increased abstinence; about 80% 
is due to more successful pregnancy prevention efforts among 
teens who are sexually active. This strongly suggests that even 
as abstinence is being promoted to our nation's young people, 
access to contraceptives for those teens who are sexually 
active--half of all U.S. teens--is also vitally important to 
reducing teen pregnancies, fully eight in 10 of which are 
unintended.\15\
---------------------------------------------------------------------------
    \15\ Seventy-eight percent of pregnancies among 15-19-year-old 
women are unintended. Source: Henshaw S, 1998, op. cit. (see reference 
1).
---------------------------------------------------------------------------
    In fact, access to highly effective contraceptives can--and 
clearly does--make a difference in reducing unintended 
pregnancy and, as a result, nonmarital births among all women. 
Since low-income women are especially vulnerable to unintended 
pregnancy and nonmarital childbearing, government-subsidized 
family planning services are key to addressing these issues. I 
applaud the efforts of committee members who worked to ensure 
that TANF funds can be used for family planning services. The 
unmet need is great,\16\ and new funding under TANF is a small 
but important step in the right direction.
---------------------------------------------------------------------------
    \16\ An estimated 16.5 million women in the United States are in 
need of publicly subsidized contraceptive services. That is, they are 
sexually active, fecund, not pregnant and not trying to become 
pregnant, and are either teenagers or have a family income below 250% 
of the federal poverty level. Only 27% of women in need of such 
services are married. Of those who need publicly funded services, it is 
estimated that four in 10 women were served by a public family planning 
clinic in 1995. Source: AGI, Contraceptive Needs and Services, 1995, 
New York: AGI, 1997.
---------------------------------------------------------------------------
    Thank you.

                                <F-dash>


    Chairman Johnson of Connecticut. I did want to ask Mr. 
Rector, though, about his interest in abstinence programs. I, 
too, am very interested in abstinence programs, and as 
impressed as I am with the Best Friends program--and I haven't 
been out there to visit, I just read about them--I have to tell 
you that there is a program that my hometown has had over 
either 6 or 8 years--I can't remember how long the program has 
been in place, and unfortunately, its structure was not able to 
come today, but they have had one pregnancy over all the area 
through the years, and that pregnancy was by a male who had 
dropped out of the program 2 years earlier.
    But their commitment to these kids is, once you are in, you 
are always in, and you are always our person and we count you 
in our statistics, which I think is a very high standard. And 
it is very interesting to me because they absolutely stress 
abstinence, but they also teach sexual health, I mean personal 
health, and they also teach about contraceptives; and they 
don't have a problem with this mixed message stuff, but I think 
it is because they do it regularly over time. It is a very 
normal part of the conversation.
    The kids hear things on the street, they can bring it back. 
They hear things in school, they can ask about it. And they 
don't qualify for $1 of Federal money because they aren't 
sufficiently pure, but their record is better than any 
abstinence program I am aware of.
    So as much as I agree with you that abstinence has to be 
talked about more and certainly, Ms. Ware, that is what you are 
fighting is that we need to know how to talk to young people. 
How do some of us grow up with that assumption? I mean, I can't 
remember my parents ever talking to me about it, but I 
certainly know what they thought about these things, and they 
did influence not only my behavior, but every kid I knew. Of 
course, that was helpful since there was more uniformity.
    But would you support abstinence programs, abstinence 
funding going to programs on the basis of their performance and 
a little less on the basis of whether or not they teach about 
contraceptives or don't teach about contraceptives?
    Mr. Rector. I think there are a couple of points. First of 
all, when people are looking at the pure abstinence programs 
directed towards marriage, sometimes there is a suggestion that 
we are trying to deny children information. In almost all the 
schools where these programs, for example, the Best Friends 
program, there is information about birth control provided in 
some context in the school. It it not like we are going and 
pulling books off the shelves and ripping pages out and things 
like that.
    What I feel is the most--what we see in these programs is 
that the program providers have to believe in the message, and 
what we were concerned about in drafting title V was that if 
you allowed a simple mixed message, what we would get was the 
same old sex ed program, but, where somebody puts the word 
``abstinence'' on the front cover--actually--even with the 
tight definitions in title V, we got more of that bogus 
abstinence than we got real abstinence, I think. It is very 
important that the presenter and the teacher really believe it, 
because you are asking them to--.
    Chairman Johnson of Connecticut. I appreciate that very 
much, and I think when you first start something like this, you 
have to be perhaps a little more focused than you do later on.
    But what would be wrong now with a program that has been 
established and that can demonstrate highly effective 
abstinence performance, why would we need then to be quite so 
judgmental in exactly how they do it? Clearly, they are 
committed to the message of abstinence, there is no question 
about it; but by having them both in the same place, as opposed 
to someplace else in the school, the trust issue is very, very 
great--what can we ask, and whom can we trust to talk to us 
straight--and I would hope that you would think about whether 
or not you and your organization would be willing to support a 
certain portion of this money going on outcomes like that.
    Mr. Rector. I think, first of all, still--even within title 
V, I think that the predominant number of programs, despite the 
rigor of the definitions in those programs--and I am glad you 
have got a program that is firmly committed to abstinence and 
is communicating that message. I think that the majority of 
title V programs really aren't committed to that; that would be 
my experience. There are some very good ones out there. There 
might be some good mixed message programs, but by and large, 
even within title V, I think the abstinence component is quite 
weak, and therefore, I think that that kind of change would be 
premature.
    I think the program that you are talking about could be 
very well funded under other programs, but basically, I would 
like to see most of the title V programs get up to speed.
    Chairman Johnson of Connecticut. See, first of all, I would 
have to say this: These kids live in a mixed message world, and 
having a program that is not capable of talking about both is a 
weakness.
    But I certainly would hope that you would give some thought 
to working with us on outcomes. I mean, the abstinence program 
has been in place long enough now. Why can't we have a portion 
of that money go to outcomes? Have you performed? Are your kids 
abstaining?
    So I think once a program's been in place a little longer, 
then you are obliged to look at the outcome, and if you are 
abstinence and you are talking abstinence and your rate of 
pregnancy is high, you shouldn't get the money; I don't care 
what you are talking about, you know.
    So we will be looking at changing that language, but I 
wanted you to understand that it was because I personally 
believe that there are high-performing abstinence programs out 
there, and that I have an obligation to make sure that the 
money goes to help kids not get pregnant.
    Mr. Rector. That would be fine.
    I would also recommend, though, that in looking at 
evaluations, we ought to evaluate title X and a lot of these 
other programs which have been around much longer than title V, 
have not been evaluated and are not rewarded by outcome. One of 
the things we were trying to do with title V was to create some 
diversity, because there really wasn't a lot of strong 
abstinence, certainly not federally funded strong abstinence 
out there, and my feeling is that if you weaken the definition 
of that, far from creating, we would just fall back into----
    Chairman Johnson of Connecticut. Oh no, I don't think we 
are talking about weakening definitions. I think we are talking 
about strengthening focus by looking at outcomes, not weakening 
definitions. So I think we just have to recognize the 
complexity of the problem and that programs that develop the 
kind of trust you need amongst kids cannot be forbidden from 
talking about the realities of those children's surroundings.
    Mr. Rector. Again, I could--you know, I think we are both 
aware that one of the strong potential problems here is what we 
would end up with is a condom promotion program that has 
abstinence tacked on the front end. And I think everyone agrees 
here that the value base that is in the program that you are 
talking about and the ones I am talking about is a critical 
feature, and we wouldn't want to jeopardize that.
    Chairman Johnson of Connecticut. We certainly don't, but we 
do want to make sure that the programs that are working have 
some support to expand.
    Dr. Nathan--Mr. Nathan.
    Mr. Nathan. I would like to make a comment about that. In 
my testimony on page 9, the bottom of the page, I point out 
that TANF and MOE funds--and there have been quite a few recent 
reports that say this--can be used for other kinds of programs, 
like the programs you are speaking about. I think that it maybe 
isn't the law that needs to be changed, but there needs to be a 
greater understanding of this.
    A lot of people, I think, out in the country don't realize 
that, and so that might be a way to educate without having to 
legislate.
    Chairman Johnson of Connecticut. Thank you. I do want to go 
back to the issue in your testimony about connectivity and just 
briefly ask you to comment on the apparent difficulty we are 
having in Medicaid sign-ups and whether that represents sort of 
a bureaucratic connectivity problem and whether there are ways 
that we could better focus the welfare reform bureaucracy, as 
it is evolving, to better connect with public health agencies 
and, you know, the kinds of programs that could reach teens and 
women on this issue of unmarried births.
    Mr. Nathan. I appreciate the chance to comment on that.
    It is not surprising that in delinking AFDC and food stamps 
and Medicaid that we are seeing the kinds of effects that are 
occurring. In my opinion, the key is that welfare reform is a 
work in progress. The key to what happens is information 
technology and building systems that workers at the front line 
can use to make connections and track services--both services 
and safety net programs. Right in this room last week, on 
Friday, we held the fifth meeting of the Rockefeller Institute-
General Accounting Office ``Working Seminar on Information 
Systems for Social Programs.''
    I am not a techie, I don't do this stuff myself, but I 
think this is the future in terms of what the new welfare 
becomes. TANF is bigger than welfare. The challenge now is to 
build systems. The young people who are being hired and work in 
these bureaucracies aren't afraid of the technology. It is off 
the shelf technology. The money is out there; there is a good 
spirit about welfare reform now. It is not as controversial.
    This is the moment, with the economy performing the way it 
is, to put a lot of emphasis on making connections with 
information systems that workers can use on the front lines for 
health services, just as you said, and for safety net programs 
and for job programs.
    We had people from different States come and talk about 
what is going on in the country. Like Diogenes with the 
lantern, I have been out there looking for the best way to do 
this. There are efforts going forward. I think this is the most 
important finding of our research, namely about building 
management systems with information technology where I think 
the Federal Government can help. I have been going around in 
Washington trying to urge Federal agencies and people around in 
different key areas in Washington to support this. The staff of 
this Subcommittee has been very active and helpful in this. In 
fact, Comptroller General David Walker, who attended on Friday, 
specifically thanked you for letting us use this room for our 
meetings.
    Chairman Johnson of Connecticut. I see from your larger 
report on the 20 sites and I see in my own experience that the 
better connection between the welfare eligibility bureaucracy 
and the job training job placement bureaucracy is having a very 
powerful effect. I don't see developing yet any healthy 
connection between that bureaucracy and the substance abuse 
prevention people, substance abuse treatment people, the mental 
health resources are completely lacking. As we get more into 
this, that is going to be very, very important, and then on 
this issue of the means, the reasons for not having children 
out-of-wedlock, not having that second birth, we are not 
connecting well into the sort of information about that, why 
you wouldn't do that, what it means for your future, what it 
means for the child's future and what are your options.
    Mr. Nathan. That is exactly right, and it is a big 
opportunity, and wherever it is happening we should understand 
that and use information about best practices to promote these 
kinds of changes. It is really the future of the new welfare 
right there.
    Chairman Johnson of Connecticut. Yes, Ms. Ware.
    Ms. Ware. Mrs. Johnson, I just wanted to make one quick 
comment on your concern about perhaps opening the title V money 
to organizations that also discuss contraception. I did a 
manual on abstinence, an abstinence resource manual, looking at 
all of the abstinence programs and what worked in these 
programs, whether they had been evaluated and so forth. Many of 
the very good programs do talk about contraception. I think it 
is a misrepresentation that abstinence programs--abstinence 
only programs don't mention contraception or condoms. They do. 
Many of them do. But it is the way they are talked about, it is 
in what context, and it in no way suggests to the young person 
that sexual activity is an OK behavior if you think you are 
mature enough or if you think it is your choice, that kind of 
thing. It lets young people know that if this is what you will 
do, and some kids are going to regardless of what you say, that 
there still is a risk factor involved for you, and we spend 
most of the time trying to help them understand why waiting is 
better and then helping them develop the skills to do that, 
give them something to look forward to in the future, those 
kinds of things.
    But there is a--the most serious difference between 
programs that also provide contraception and consider 
themselves abstinence-based and abstinence only is not that one 
talks about contraception and the other doesn't. It is that 
under no circumstances will the abstinence-only program 
encourage sexual activity in any way. It is a fine point----
    Chairman Johnson of Connecticut. It would be very hard to 
see, you know, how they would oversee that. I mean certainly 
there is no question in my mind, but there is this program at 
home in my district that certainly has that message but they 
have not received any abstinence money. Now, I don't know 
whether it is the general suspicion that new England isn't 
sufficiently morally straight, but I think that one way of 
dealing with this problem, because it is very hard from the 
outside to judge that, is to begin to look at outcomes data 
when we have it.
    Ms. Ware. Right.
    Chairman Johnson of Connecticut. We do in every other area, 
and it just blows my mind that we could ignore a program that 
has had one pregnancy over 6 or 8 years from a kid who dropped 
out. So I think that--I think we do have to look at a variety 
of tools, and I think you can do that without diluting it, and 
I think your comment about the fact that many of these 
abstinence programs do also provide information that kids 
really need to know or at least some kids need to know is 
interesting.
    Bell, did you want to comment?
    Ms. Sawhill. Can I jump in, is this Pathways/Senderos, and 
by the way it is a wonderful program, and we have written it up 
in one of our national campaigns to prevent teen pregnancy 
because one of the things that is needed when there are good 
programs like this is other people around the country need to 
know about them and be able to use them as models of best 
practice.
    Chairman Johnson of Connecticut. Just for a moment on that 
issue, they are now seeing kids not able to come regularly to 
their program because they have to stay home this summer and 
take care of the children, their brothers and sisters, and the 
neighborhood wants them to start a program for younger children 
so they could have a summer program that would be totally 
abstinence because these are under fifth grade. The fifth grade 
teachers talked them into starting a fifth grade class, and 
they have only had the kids for 3 months and their grades have 
gone up and their behavior has improved. This is a very, very 
successful program, but it doesn't--so there is something wrong 
when you can't look at results.
    Ms. Sawhill. I love your idea of a more outcome-based focus 
for the use of these funds, and I think it is exactly the right 
way to go. I think one of the problems with teenage pregnancy 
prevention programs is they have not been adequately evaluated 
in the past. We know far too little about how to achieve 
success in this area, and as a result of that, we are, you 
know, sort of flying blind.
    Now, I am very pleased that you all did put some funding 
for evaluating at least the abstinence-based programs into the 
welfare reform amendments and that some of that is going on 
now, and we all look forward to seeing the results, but I think 
we need still more evaluation, and our advisory panel, which I 
want to thank you for being a part of, by the way, to the 
national campaign, has been looking at this issue, and the co-
chairs of that panel, as I think you know, Mr. Castle and Ms. 
Lowey, have co-sponsored a bill that would call for more 
outcome-based programs and more money for evaluation and then 
funding of the ones that have been demonstrated to be effective 
through those evaluations and spoken to some people on the 
Senate side as well who are also interested in that. So I just 
wanted to sort of flag that as being very consistent with I 
think what your ideas are here.
    I think what you say about what people on the ground are 
going to do, what they think is best, is absolutely right as 
well. I think it is very good that the Congress has changed the 
debate, and I give my friend Robert and others in the 
conservative community lots of credit for having changed the 
discussion about these issues, but I think in the end when you 
are talking about actual teachers and mentors and others in 
local communities working with kids, they have to be given the 
flexibility to work with those kids in whatever way they think 
is effective.
    I would point you to the example of South Carolina where 
the legislature did allocate some funding for teen pregnancy 
prevention last year, and they are putting the money out to all 
of their local communities with complete flexibility in terms 
of how the money is used, and it seems to me that, you know, 
that is the model we have to build on. We have to change the 
conversation about this, but in the end, we have to give the 
people who are actually running the programs a fair amount of 
flexibility.
    Chairman Johnson of Connecticut. I do think it is very 
important, and certainly my goal is not to substitute the 
legislation that has been introduced as interesting, as I think 
it is, for the language in there. I think it is just that you 
want to create also a way in which programs can be viewed by 
the accomplishments they have achieved, but I do just want to 
mention one other fact.
    When you look behind any of these programs, and they are 
providing role models. They are helping kids with their 
homework. They are giving kids some view of other career 
options. You know, they are not succeeding on the issue of 
abstinence on simply moral authority ground. They are 
connecting not having children with having power over your life 
and opportunity, and that is I think why the message succeeds.
    So as important as the issue of abstinence and/or 
contraceptives is, the real power of these programs is that 
they help kids do better in school. They give them an 
alternative to unstable homes often, often though not always, 
and they give them a way to see what else they could do in life 
besides go on welfare.
    Mr. Rector. If I could just reinforce the one point that 
Dr. Nathan made that I thought was very important vis-a-vis 
your program, all the TANF surplus funding in the State could 
be used for that program.
    Chairman Johnson of Connecticut. I appreciate that. For me 
it is a matter of principle, Mr. Rector. I think since they are 
focused on this they are serious about abstinence, and they are 
performing, and they are having great results. So I think for, 
``abstinence funding to cut them out is simply wrong,'' see. 
So, yes, there are other sources. I mean, they have been up and 
running and they have gotten national attention, but I don't 
think it is right, and I appreciate your point that you don't 
want to--you fear dilution and you----
    Mr. Rector. Dilution is already here.
    Chairman Johnson of Connecticut [continuing]. Fear under 
the original law that you would have just simply rubber stamped 
old programs with a new name, but I don't think that relieves 
me of the responsibility to really look at programs that focus 
on abstinence, that achieve abstinence but may not, for 
microtechnical reasons--see, it is very judgmental when you get 
down to this level of are they talking about contraceptives or 
are they not and what is their intention in talking with them. 
So this is really bad territory. The Government really can't 
evaluate that. So I have to look more closely at that law, and 
we certainly would keep you informed. I just wanted to alert 
you to the fact that I do think outcomes matter a lot, and some 
of the programs that are working really hard at abstinence in 
the very heart of poor urban areas and succeeding, they deserve 
recognition.
    Mr. Rector. I think it is important to realize that title V 
represents only a very, very small fraction of the amount of 
money that the Government is spending on sex ed and only a 
small fraction of title V is going to abstinence-only programs. 
We were trying to break the mold and to move, particularly 
public health institutions, in a new direction. If we are going 
to go with--outcome-based funding and things like that, I think 
it is very important to look at all the sex ed funding that is 
coming out of HHS and not just title V.
    Title V is a brand new program. We now have better 
evaluations on title V than we do on all the bulk of the other 
programs that have been around for decades. I would commend to 
you a very important thing that we could do is call for the 
same sorts of evaluations on title X and other sex ed programs 
or abstinence-plus programs. In the long run, we want the same 
thing that you do. I am just afraid of the bureaucratic 
inertia. If we didn't clearly say we want you to do something 
different--the bureaucracies in the State level are very, very 
hostile to abstinence-only. So if we drop the strict 
definition, I think most abstinence-only programs would vanish. 
We wouldn't even get to experiment, we wouldn't get to evaluate 
abstinence only because the programs wouldn't exist, and that 
was our concern.
    Chairman Johnson of Connecticut. Yes, Mr. Richards, then we 
must go on to the next panel.
    Mr. Richards. I would just like to make the point that 
title X is not a sex education program. It is a family planning 
services program. Two-thirds of the clientele in family 
planning clinics are adults, in addition to which there have 
been many evaluations of the program over the years in terms of 
its impact on preventing pregnancies.
    Chairman Johnson of Connecticut. I would just say that in 
my district, which is really, I mean my biggest city is 65, 
70,000, it is going down so I never quite know, title X and 
some of the poor cities in my district where they have no 
community health centers, they were the only access women had 
for pap smears, but family planning is very important to 
married couples. Married couples need to be able to have the 
number of children they want to have, and they should not be in 
a position of having to decide about whether to have an 
abortion or not.
    I mean, my husband in the early days when abortions were 
illegal stood at the bedside of a mother of five with a husband 
standing there, and she died of an aseptic abortion, and she 
died because they could not tolerate the economic burden of one 
more child, and they had not been able to prevent the 
pregnancy. So that was a part of life at that time, and as much 
as I think we need to retrain our children and ourselves as 
adults and do something about the mixed messages out there and 
this terrible problem of children being born in circumstances 
that do terribly prejudice that child to destitution and 
failure, I also think the lack of healthcare for uninsured 
women, the terrible importance in a free society of being able 
to control whether you have more children or not is something 
that unfortunately title X has been a weak small lever, but it 
has been all we have been able to do, and I think the issue of 
teen pregnancy is really a different issue and we need to think 
about it and act on it far more aggressively than we have. I 
think it is the one area in which there is consensus, and we do 
need to work more effectively, and we have some better 
information now from the abstinence program.
                              The Alan Guttmacher Institute
                                      Washington, DC, July 20, 1999
The Honorable Nancy L. Johnson,
Chairman, Committee on Ways and Means
U.S. House of Representatives,
Washington, DC.

    Dear Madam Chairman:

    This is in response to your request for additional information 
concerning the calculations that led to our conclusion--presented by 
Cory L. Richards, The Alan Guttmacher Institute's (AGI) vice president 
for public policy, in his testimony before the Subcommittee on June 
29--that, to varying degrees, both increased abstinence from sexual 
activity among teenagers and changes in contraceptive behavior among 
sexually experienced teenagers contributed to the observed decline in 
the pregnancy rate among U.S. teenagers between the late 1980s and the 
mid-1990s.
    These calculations, which are detailed below, were based on the 
following data sets:
    <bullet> Pregnancy rates--released by AGI in April, 1999 in 
``Teenage Pregnancy: Overall Trends and State-by-State Information''--
are based on birth rates from the National Center for Health Statistics 
and abortion data from periodic AGI Abortion Provider Surveys. 
Information on the proportions of young women who have had sexual 
intercourse are from the National Center for Health Statistics' 1988 
and 1995 National Surveys of Family Growth (NSFG).
    <bullet> Information on sexual activity and contraceptive use is 
from the 1988 and 1995 NSFG.
    <bullet> Overall contraceptive failure rates are based on NSFG 
information on contraceptive use and from first-year failure rates 
calculated from the 1995 NSFG and the 1994-95 AGI Abortion Patient 
Survey http://www.agi-usa.org/pubs/journals/3105699.html).
    In 1988, the pregnancy rate was 111.4 per 1,000 women aged 15-19, 
and 52.6% of women aged 15-19 had had sexual intercourse, for a 
pregnancy rate per 1,000 women aged 15-19 who ever had sex of 211.8 
(.526 * 211.8 = 111.4). In 1995, the pregnancy rate was 101.1 per 
1,000, and 51.5% of women aged 15-19 had had sex, for a pregnancy rate 
per 1,000 women aged 15-19 who ever had sex of 196.3 (.515 * 196.3 = 
101.1).
    Between 1988 and 1995, the pregnancy rate per 1,000 women 15-19 
declined by 10.3 pregnancies per 1,000 women, from 111.4 to 101.1. The 
relative contributions to this decline from the change in the 
proportion of women aged 15-19 who ever had sex and from the change in 
the pregnancy rate among those who ever had sex can be determined by 
calculating what the pregnancy rate in 1995 would have been if only one 
of these factors changed.
    If only the proportion of women who ever had sex had decreased 
(from 52.6% in 1988 to 51.5% in 1995), given the pregnancy rate of 
211.8 per 1,000 sexually experienced women aged 15-19, the overall 
pregnancy rate per 1,000 women aged 15-19 in 1995 would have been 109.1 
(.515 * 211.8 = 109.1). The pregnancy rate would then have fallen by 
only 2.3 pregnancies per 1,000 (from 111.4 to 109.1). Thus, roughly 20% 
of the actual decrease of 10.3 pregnancies per 1,000 (2.3/10.3 = 22%) 
was due to the lowered proportion sexually experienced.
    Similarly, if the proportion of women aged 15-19 who ever had sex 
had stayed stable at the 1988 level of 52.6%, and only the pregnancy 
rate among sexually experienced women aged 15-19 had fallen (from 211.8 
in 1988 to 196.3 in 1995), the overall pregnancy rate in 1995 would 
have been 103.3 (.526 * 196.3 = 103.3). This decrease of 8.1 
pregnancies per 1,000 due to the lowered pregnancy rate among sexually 
experienced young women is roughly 80% of the observed decline in the 
pregnancy rate per 1,000 women 15-19 (8.1/10.3 = 79%).
    The question, then, is how the decrease in the pregnancy rate among 
sexually experienced young women occurred. Three factors were 
investigated--whether these women reduced the frequency with which they 
had intercourse, increased their use of contraceptive methods or became 
more effective users of contraceptives.
    Regarding the first factor, changes occurred between 1988 and 1995 
in the sexual activity of women aged 15-19 who ever had sex, but they 
offset each other so that there was no change in the average number of 
months in the prior year during which sexually experienced women aged 
15-19 had had intercourse (8.6 months in both years).
    Regarding the second factor, contraceptive use at first intercourse 
increased substantially between 1988 and 1995, but ongoing use at the 
time women aged 15-19 were surveyed increased only slightly, from 78% 
to 80% of women aged 15-19 who were having sex, fertile and not 
pregnant, postpartum or trying to become pregnant.
    Regarding the third factor, there were important shifts in the 
types of methods used. Condom use increased slightly, and reliance on 
oral contraceptives declined substantially. At the same time, however, 
long-acting methods, such as the injectable and implant which were not 
available in 1988, accounted for 14% of current method use in 1995. 
Because of this shift to long-acting methods, the estimated overall 
first-year method failure rate for teen contraceptive users dropped 9%, 
from 16% to 15%.
    The observed decline in the pregnancy rate among sexually 
experienced teens appears to be attributable to these two changes in 
contraceptive use, the modest increase in the proportion of users and 
the substantial decline in their overall failure rate.
    We hope this information will be helpful to you. It will be 
expanded upon and placed in a larger context in a monograph to be 
published this fall, and we will be certain to sent you a copy at that 
time.

            Sincerely,
                               Jacqueline E. Darroch, Ph.D.
                                          Senior Vice President and
                                        Vice President for Research

                                <F-dash>

    I am sorry to take so long. We really must be on to the 
next panel, but thank you very much for your participation and 
your help, and I look forward to working with you.
    Brenda Miller, who is deputy director of the National 
Campaign to Prevent Teen Pregnancy of the Urban Institute; 
Rebecca Maynard, the project director for the National 
Evaluation of Title V Abstinence Education Programs, 
Mathematica Policy Research; Edward Tetelman, the assistant 
commissioner of the New Jersey Department of Human Services; 
and John Sciamanna, senior policy advocate in the American 
Public Health Services Association.
    We welcome you here today. I very much appreciate your 
participation. I am very pleased to have Rebecca Maynard here 
and her evaluation of the title V programs and would ask Ms. 
Maynard to start.

  STATEMENT OF REBECCA A. MAYNARD, PROJECT DIRECTOR, NATIONAL 
     EVALUATION OF TITLE V ABSTINENCE EDUCATION PROGRAMS, 
     MATHEMATICA POLICY RESEARCH, INC., AND UNIVERSITY OF 
                          PENNSYLVANIA

    Ms. Maynard. Thank you, Madam Chair. It is a real pleasure 
to be able to talk with you about the ttle V abstinence 
education programs and the lessons that should be coming from 
the congressionally authorized evaluation of these programs.
    As project director for the National Evaluation of Title V 
Abstinence Education Programs, I have had the privilege of 
seeing firsthand a number of quite exceptional programmatic 
initiatives aimed at addressing head on the issues of teenage 
sex and out-of-wedlock childbearing through abstinence only 
education programming. Our mission in the evaluation is to 
identify effective, replicable abstinence education models, and 
as many of you know, there is a wide range of programs being 
supported through section 510 of title V.
    The funded activities out there range from State level 
media campaigns to high intensity, multifaceted, multi-year 
youth development initiatives. A handful of the States have 
opted for a single statewide intervention strategy, but most of 
the States have chosen to fund a diverse set of initiatives 
ranging from brief curriculum-based classroom programs that are 
offered communitywide to more extensive targeted classroom 
programs that are complemented by strong boosters that 
reinforce the abstinence messages and that provide youths with 
alternatives to high-risk behaviors.
    Many States also have supported some communitywide 
initiatives that are using abstinence-only messages in an 
effort to alter youths' behaviors through systemic changes in 
community norms and opportunities and the support structures 
available.
    Now, I can't speak to the overall implementation of the 
title V abstinence education program. However, in the course of 
our preliminary evaluation work we have observed a wide range 
of the programs that are out there funded under this 
legislation, and I am going to just illustrate with five 
programs some of the efforts that we have observed.
    There is a locally-funded--locally-designed program in 
Florida that has developed an abstinence only curriculum 
offered to youth in grades 6 through 12 as a year-long elective 
class. The class meets 5 days a week. Students receive 
unequivocal messages about the value of abstinence, the power 
of building positive relationships and the strong benefits of 
marriage. These classroom curricula activities are reinforced 
and extended to encourage parent support through regular home 
visits by trained social workers.
    Another program that we have spent time with is a very 
intensive program operating in New Jersey that follows a 
leading national abstinence education program model. This is a 
school-based program that provides girls with between 100 and 
200 hours of interaction with responsible adult mentors, most 
of whom are teachers. This intervention extends over a minimum 
of 3 years. In addition, the program includes health and 
fitness components, and it offers a structured curriculum 
covering topics such as friendship, decisionmaking, love and 
dating, self-respect and substance abuse. So it is fairly 
broad-based.
    In several Wisconsin middle schools there is a program that 
works with youth for 2 hours every day after school. This 
program delivers strong abstinence messages in every one of 
these after school sessions through a variety of means, 
including through a formal curriculum that emphasizes knowledge 
of anatomy, that provides information about sexually-
transmitted diseases and talks a lot about the values of 
marriage. It also offers positive skill building activities 
such as job shadowing and exposure to cultural events. Youth 
generally stay in this program throughout the middle school 
years once they come in, and many of the kids have an 
opportunity to enroll in the summer program which lasts 7 
weeks. Kids are in the summer program all day, every day, 5 
days a week, again getting more of the abstinence curriculum, 
more of the youth development activities and the strong 
abstinence messages.
    Virginia has a program for eighth and tenth graders that 
uses a nationally marketed abstinence education curriculum. The 
program classes, which meet about 30 times a year, address 
abstinence in the context of a curriculum that is strongly 
focused on character development. The school-based abstinence 
education efforts are bolstered by media campaigns, an 
information and referral service and communitywide workshops on 
various aspects of parenting, youth development and abstinence.
    The final example I will give you is Texas, which has a 
communitywide initiative that is reaching students in more than 
two dozen school districts with a national abstinence education 
curricula. This program has trained nearly 200 teachers to 
deliver the school-based curriculum. It engages physicians and 
counselors to staff hotlines where they answer questions about 
sexually transmitted diseases and other health risks associated 
with teen and out-of-wedlock sex. It produces and airs media 
spots. It has developed and administered tools to train medical 
professionals in the promotion of abstinence. It has organized 
community mentoring programs for youth, and it has instituted a 
monitoring and assessment effort to help guide its community 
efforts.
    The evaluation that we are working on is going to 
capitalize on the breadth and depth of programming that is 
being supported through title V abstinence education to provide 
much needed evidence regarding the potential of these various 
programs. Moreover, the evaluation is going to focus on models 
that are adaptable to different circumstances, for example, for 
communities that are willing to institutionalize programs in 
schools versus those that are only going to institutionalize 
programs in the community setting or in after school settings.
    In the evaluation, we have committed to the most rigorous 
standards for conducting our studies. We are going to rely on 
experimental design studies with large samples of youth to 
document the impacts of the various programmatic strategies on 
youths' behaviors, their knowledge and their attitudes. Then, 
we are going to complement the rigorous impact analysis with 
extensive qualitative research so that we can document the 
nature of the interventions, the circumstances and strategies 
for their successful replication and the mechanisms through 
which the programs can strengthen family values and responsible 
decisionmaking.
    Thank you.
    [The prepared statement follows:]

Statement of Rebecca A. Maynard, Project Director, National Evaluation 
of Title V Abstinence Education Programs, Mathematica Policy Research, 
Inc. \1\ and University of Pennsylavinia

    The Personal Responsibility and Work Opportunity 
Reconciliation Act (P.L. 104-193) authorized federal 
expenditures of $50 million annually for five years beginning 
in fiscal year 1998 to support state efforts promoting 
abstinence-only education. A congressionally authorized 
evaluation is now underway, funded through the Office of the 
Assistant Secretary for Planning and Evaluation within the U.S. 
Department of Health and Human Services.
---------------------------------------------------------------------------
    \1\ University Trustee Professor of Education and Social Policy at 
the University of Pennsylvania and Project Director for the National 
Evaluation of Section 510, Title V, Programs being conducted by 
Mathematica Policy Research, Inc., and the University of Pennsylvania 
(HHS-100-98-0010).
---------------------------------------------------------------------------
    As Project Director for the National Evaluation of Title V 
Abstinence Education programs, I and my colleagues have had the 
privilege of seeing firsthand a number of quite exceptional 
programmatic initiatives aimed at addressing head-on issues of 
teenage sex and out-of-wedlock childbearing. Our mission in the 
evaluation is to identify effective, replicable abstinence 
education models that are funded under the recent welfare 
reform legislation. Toward this end, we have examined numerous 
local program initiatives for the purpose of identifying 
criteria by which to select sites. We are presently working on 
selecting a focal group of well-grounded, well-implemented 
projects for in-depth evaluation to document their efficacy in 
delaying sexual activity among teens and in promoting 
abstinence until marriage.
    There is a wide range of programs being supported through 
Section 510 of Title V. Funded activities range from state-
level media campaigns to high-intensity, multifaceted and 
multiyear youth development initiatives. A handful of states 
have opted for a single statewide intervention strategy, but 
most have chosen to fund a diverse set of initiatives. These 
initiatives range from brief, curriculum-based classroom 
programs that are offered community-wide, to more extensive 
classroom programs complemented by strong ``boosters'' to 
reinforce the abstinence messages delivered in the classroom 
and to provide youths with alternatives to high-risk behaviors. 
Many states also support community-wide abstinence-only 
initiatives, which attempt to alter youths' behaviors through 
systemic changes in community norms, opportunities, and 
support.
    I cannot speak to the states' implementation of the Title V 
Abstinence Education program. However, in the course of our 
preliminary work to design the evaluation, we have observed a 
wide range of initiatives. The following five programs 
illustrate some of the efforts that we have observed:
    A locally designed program in Florida has developed an 
abstinence-only curriculum that is offered to youth in grades 6 
through 12 as a yearlong elective class that meets five days 
per week. Students receive an unequivocal message about the 
value of abstinence, the power of building positive 
relationships, and the strong benefits of marriage. The 
classroom curriculum is reinforced and extended to encourage 
parent support by regular home visits by social workers.
    Another very intensive program, operating in New Jersey, 
follows a leading national abstinence-education program model. 
This school-based program offers a multifaceted youth 
development curriculum with long-term adult involvement. It 
provides girls with between 100 and 200 hours of interaction 
with responsible adult mentors, most of whom are teachers, over 
a minimum of three years. In addition, the program includes 
health and fitness components and it offers a structured 
curriculum covering topics such as friendship, decision-making, 
love and dating, self-respect, and substance abuse.
    In several Wisconsin middle schools, there is a program 
that works with youth for two hours every day after school. 
This program delivers strong abstinence messages every day 
through a variety of means, including a formal curriculum that 
emphasizes knowledge of anatomy, information about sexually 
transmitted diseases and the values of marriage, and positive 
skill-building activities such as job shadowing and exposure to 
cultural events and positive social engagements. Youths 
generally stay in the program throughout their middle school 
years. Moreover, for many youths, program activities may extend 
into the summer, when the abstinence curriculum and youth 
development activities extend to all day, five days a week.
    Virginia has a program for 8th and 10th graders that uses a 
nationally marketed abstinence-education curriculum. The 
program classes, which meet about 30 times a year, address 
abstinence in the context of a curriculum strongly focused on 
character development. The school-based abstinence education 
efforts are bolstered by media campaigns, an information and 
referral service, and community workshops. ``Booster'' 
activities to reinforce the abstinence messages and abstinence-
promoting and enabling skills are instituted for the 9th 
graders.
    And, Texas has a countywide initiative reaching students in 
more than two dozen school districts with a national abstinence 
education curriculum. This program has trained nearly 200 
teachers to deliver the school-based curriculum; engages 
physicians, counselors, and abstinence resource specialists for 
``hot-lines'' to answer questions about sexually transmitted 
diseases and other health risks associated with teen and out-
of-wedlock sex; produces and airs major media ``spots"; 
developed and administered tools to train medical professionals 
in the promotion of abstinence; organizes community mentoring 
programs for youth that promote abstinence; and has established 
local monitoring and assessment efforts to guide community 
planning.
    In light of the breadth and depth of programs supported 
through the Title V Abstinence Education program, the 
evaluation will provide the much-needed evidence regarding the 
potential of abstinence-only education strategies to promote 
abstinence and other positive behavioral choices by our young 
people. Moreover, the richness of program designs and the 
variability in the implementation settings will facilitate 
identifying model programs that are well suited to varying 
local circumstances--for example, for communities willing to 
institutionalize programs in their schools versus those where 
it is most viable to situate programs in after-school or 
community settings.
    As others have documented in their testimony, the issues of 
teenage sex and out of wedlock childbearing are extremely 
important. We need to expand effective policies to reduce both. 
For this reason, we have committed to the most rigorous 
standards for conducting the Title V Abstinence Education 
program evaluation. We will rely on experimental design studies 
with large samples of youth to document the impacts of various 
programmatic strategies on youths' behaviors, knowledge, and 
attitudes. This rigorous impact analysis will be complemented 
by extensive qualitative research that documents the nature of 
the interventions; the circumstances and strategies for their 
successful replication; and the mechanisms through which 
programs can strengthen family values and responsible decision-
making among youth.

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much, Ms. 
Maynard.
    Ms. Miller.

 STATEMENT OF BRENDA RHODES MILLER, DEPUTY DIRECTOR, NATIONAL 
               CAMPAIGN TO PREVENT TEEN PREGNANCY

    Ms. Miller. Good morning. Thank you for inviting me to 
testify on the relationship between teen pregnancy prevention 
and reducing nonmarital births. I am especially pleased by your 
invitation because you are a member of our bipartisan House 
advisory panel.
    I am deputy director of the National Campaign to Prevent 
Teen Pregnancy, which is a privately-funded, nonprofit, 
nonpartisan organization here in Washington. It is clear from 
all we have heard this morning that we must make it possible 
for all young people to spend their teenage years on education, 
growing up and enjoying their youth, not on rushing into adult 
situations and assuming adult responsibilities.
    Teen pregnancy affects not only the health and well-being 
of babies born to teens but also the young parents themselves, 
their families and the community at large. The relationship 
between teen pregnancy and nonmarital births is stark. Nearly 
three quarters of teen births are to unmarried teens, while as 
recently as 1960 only 15 percent were. Teens account for 
approximately 30 percent of all nonmarital births in the United 
States but nearly half of all nonmarital first births.
    I want to depart from my written testimony briefly to tell 
you a little bit about two areas of the campaign's work that we 
think are especially useful in the area of reducing teen 
pregnancy in America. One area is our work including young 
people in the prevention conversation and the other area is our 
work with the entertainment media to change social norms.
    First, let me tell you I stand in awe of the wisdom and the 
energy of American teenagers. At the National Campaign to 
Prevent Teen Pregnancy, we think it is enormously important for 
us to listen to young people because teens are the least 
represented in terms of having their voices heard in this area 
of prevention. We know that many decisions are made that affect 
young people's lives without any information from them on how 
those decisions will play themselves out or what the decisions 
will mean to them.
    So last summer the campaign reached out to about 100 
national and local organizations for help in building our youth 
leadership team. The response was amazing. We got more than 150 
nominations and we selected 13 boys and 13 girls, 15 to 18 
years old, black, white, Latino, Asian and native American, 
from the 20 States with high teen pregnancy rates or small 
declines in the teen pregnancy numbers. These are thoughtful, 
perceptive people who have strong opinions about teen pregnancy 
prevention, opinions they back up with their life experiences.
    The team includes young people who lead True Love Waits 
projects as well as young people who are peer educators at 
Planned Parenthood. We have Girl Scouts and 4-H members, former 
gang bangers, members of the YWCA, boys and girls clubs 
members, computer experts, dancers. We have a mother and a 
father, both of whom are doing their best to be good parents, 
while they work, go to school, and try to grow into productive 
adults.
    Their life experiences are powerful and telling. One young 
girl explained what teen pregnancy meant to her community by 
showing a home video she had made and explaining that there 
used to be dozens of girls who could dance each year as Hopi 
maidens, but now there are only a few. What she was telling us 
was that teen pregnancy has made a big impact on her community 
because there are no more maidens to dance.
    A young man--a really good looking young man--told us that 
he is often challenged to explain why a tall, good looking jock 
like he is would wait until he got married to have sex. His 
answer, which was based on his religious beliefs, was spiced 
with a lot of humor. He says that he tells people, I am just 
worth the wait.
    We have learned from these kids that teenagers agree with 
most adults, that teen pregnancy is not in anyone's best 
interest, that they want to talk to adults about feelings, 
about values, about love, sex and relationships. Though we have 
also learned that a lot of teenagers have nowhere to turn for 
information on these important subjects.
    Much of what we have learned from the teenagers in the 
youth leadership team are in these two publications that I have 
provided to you. We have done these in both English and 
Spanish. One of them is talking back, 10 things teens want 
parents to know about teen pregnancy, and the other one is 
thinking about the right now, what teens want other teens to 
know about pregnancy prevention.
    This leads me into the campaign's work with the 
entertainment media. We are a small shop. We realized early in 
the game that there was no way we could reach all the audiences 
who needed to be reached with the message that teen pregnancy 
is not OK. So, rather than throw up our hands in dismay, we 
worked through our media task force to deliver key messages 
about teen pregnancy prevention to our core audiences, which 
includes boys and girls, parents, other adults, opinion 
leaders. We brought in partners from radio, television, 
magazines to help us deliver the prevention messages. We don't 
beat the entertainment media over the head or blame them for 
the problem. Rather, we enlist their support by providing them 
with facts, information and brainstorming ways we can be 
helpful to them in presenting the prevention messages. We work 
in true partnership and focus on communicating prevention 
messages rather than on just getting visibility for ourselves.
    Last year, we had briefings for seven TV shows in 
Hollywood, six daytime dramas in New York and the producers of 
Black Entertainment Television teen's summit here in 
Washington. As a result at least seven of these television 
shows have incorporated campaign messages into story lines and 
episodes, and I will say it fast, 7th Heaven, Dawson's Creek, 
Party of Five, the Parenthood, Channel One, ER, and again, 
Black Entertainment Television.
    We believe our work with the national entertainment media 
and our work with young people have a lot in common. The 
campaign continues to learn from both groups about what is 
important to them and what will move them to act in preventing 
teen pregnancy in America.
    Thank you very much.
    [The prepared statement follows:]

Statement of Brenda Rhodes Miller, Deputy Director, National Campaign 
to Prevent Teen Pregnancy

    Good Morning. Thank you for inviting me to testify on the 
relationship between teen pregnancy prevention and reducing 
non-marital births. My name is Brenda Rhodes Miller and I am 
Deputy Director of the National Campaign to Prevent Teen 
Pregnancy and in the fall will lead a District of Columbia 
Campaign to Prevent Teen Pregnancy.
    I am especially pleased by the invitation because with the 
support of several people here, the Campaign has established 
two bipartisan advisory panels, one in the Senate co-chaired by 
Joseph Lieberman (D-CT) and Olympia Snowe (R-ME) and one in the 
House co-chaired by Nita Lowey (D-NY) and Mike Castle (R-DE). 
The House Bipartisan panel has initiated a number of special 
projects with the National Campaign. Indeed, the chair of the 
subcommittee on human resources, Representative Nancy L. 
Johnson, is an active member of the house advisory panel and I 
thank her for including me in today's proceedings.
    It is clear that we must make it possible for all young 
people to spend their teenage years on education, growing up 
and enjoying their youth, not on rushing into adult situations 
and assuming adult responsibilities. Teen pregnancy affects not 
only the health and well being of babies born to teens, but 
also the young parents themselves, their families, and the 
community at large. The relationship between teen pregnancy and 
non-marital births is stark. Nearly three quarters of teen 
births are to unmarried teens while as recently as 1960 only 
15% were. Teens account for approximately 30% of all non-
marital births in the United States but nearly half of all non-
marital first births.

 The Critical Importance of Reducing Teen Pregnancies to Child Health 
                             and Well-Being

    The National Campaign to Prevent Teen Pregnancy was 
organized in 1996 by individuals who concluded, for a variety 
of reasons, that reducing the nation's rate of teen pregnancy 
was one of the most strategic and direct means available to 
improve overall child well-being and to reduce persistent child 
poverty. Although the Campaign's activities often bring it into 
collaborative working relationships with those in the 
reproductive health field, the Campaign should be seen, first 
and foremost, as an intense effort to strengthen child health 
and welfare.
    Teen pregnancy and child-bearing go hand in hand with heavy 
health risks for mother and child. Young adolescents 
(particularly those under age 15) experience a maternal death 
rate 2.5 times greater than that of mothers aged 20-24. Common 
medical problems among adolescent mothers include poor weight 
gain, pregnancy-induced hypertension, anemia, sexually 
transmitted diseases (STDs), and cephalopelvic disproportion. 
Later in life, adolescent mothers tend to be at greater risk 
for obesity and hypertension than women who were not teenagers 
when they had their first child.\1\ Moreover, the children of 
teen mothers are at a significantly increased risk of at least 
the following: low birth weight and prematurity, mental 
retardation, insufficient health care, inadequate parenting, 
abuse and neglect, poverty, growing up without a father, and 
poor school performance.
---------------------------------------------------------------------------
    \1\ Brown, Sarah and Leon Eisenberg (ed), The Best Intentions: 
Unintended Pregnancy and the Well-Being of Children and Families. 
Committee on Unintended Pregnancy. Institute of Medicine. Washington, 
D.C.: The National Academy Press, 1995.
---------------------------------------------------------------------------
    Low birth weight and related health problems: Infants born 
to mothers 15 years-old or younger are more than twice as 
likely to weigh less than 5.5 pounds at birth and three times 
more likely to die in the first 28 days of life than infants 
born to older mothers.\2\ Low birth weight raises the 
probabilities of infant death, blindness, deafness, chronic 
respiratory problems, mental retardation, mental illness, and 
cerebral palsy. In addition, low birth weight doubles the 
chances that a child will later be diagnosed as having 
dyslexia, hyperactivity, or another disability.\3\
---------------------------------------------------------------------------
    \2\ Ibid.
    \3\ Maynard, Rebecca (ed), Kids Having Kids: A Robin Hood 
Foundation Special Report on the Costs of Adolescent Childbearing, New 
York: Robin Hood Foundation, 1997; See also Wolfe, Barbara and Maria 
Perozek, ``Teen Children's Health and Health Care Use,'' in Kids Having 
Kids: Economic Costs and Social Consequences of Teen Pregnancy. Rebecca 
A. Maynard (ed). Washington, D.C.: The Urban Institute Press, 1997.
---------------------------------------------------------------------------
    Insufficient health care: Despite having more health 
problems than the children of older mothers, the children of 
teen mothers receive less medical care and treatment. In his or 
her first 14 years, the average child of a teen mother visits a 
physician and other medical providers an average of 3.8 times 
per year, compared with 4.3 times for a child of older child 
bearers.\4\ And when they do visit medical providers, more of 
the expenses they incur are paid by others in society than is 
the case among children of older mothers. One recent study 
suggested that the medical expenses paid by society would be 
reduced dramatically if teenage mothers were to wait until they 
were older to have their first child.\5\
---------------------------------------------------------------------------
    \4\ Maynard, Rebecca (ed), Kids Having Kids: A Robin Hood 
Foundation Special Report on the Costs of Adolescent Childbearing, New 
York: Robin Hood Foundation, 1997; See also Wolfe, Barbara and Maria 
Perozek, ``Teen Children's Health and Health Care Use,'' in Kids Having 
Kids: Economic Costs and Social Consequences of Teen Pregnancy. Rebecca 
A. Maynard (ed). Washington, D.C.: The Urban Institute Press, 1997.
    \5\ Ibid.
---------------------------------------------------------------------------
    Inadequate parenting: Children born to teen mothers are 
also at higher risk because their mothers--and often their 
fathers as well--are typically too young to master the 
demanding job of being a parent. Still growing and developing 
themselves, teen mothers are often unable to provide the kind 
of environment that infants and very young children require for 
optimal development. Recent research, for example, has 
clarified the critical importance of sensitive parenting and 
early cognitive stimulation for adequate brain development.\6\
---------------------------------------------------------------------------
    \6\ Carnegie Task Force on Meeting the Needs of Children, Starting 
Points: Meeting the Needs of Our Youngest Children, Carnegie 
Corporation of New York, August, 1994.
---------------------------------------------------------------------------
    Abuse and neglect: Children of adolescent parents also 
suffer higher rates of abuse and neglect than would occur if 
their mothers had delayed childbearing. For example, a recent 
analysis found that there are 110 reported incidents of abuse 
and neglect per 1,000 families headed by a young teen mother. 
If these mothers had delayed childbearing until their early 
twenties, this rate would be less than half this level--or 51 
incidents per 1,000 families.\7\ Similarly, rates of foster 
care placement are significantly higher for children whose 
mothers are under 18. In fact, over half of foster care 
placements of children with these young mothers could be 
averted by delaying child-bearing, thereby saving taxpayers 
nearly $1 billion annually in foster care costs alone.\8\
---------------------------------------------------------------------------
    \7\ Maynard, Rebecca (ed), Kids Having Kids: A Robin Hood 
Foundation Special Report on the Costs of Adolescent Childbearing, New 
York: Robin Hood Foundation, 1997; See also Goerge, Robert M, and Bong 
Joo Lee, ``Abuse and Neglect of the Children,'' in Kids Having Kids: 
Economic Costs and Social Consequences of Teen Pregnancy. Rebecca A. 
Maynard (ed). Washington, D.C.: The Urban Institute Press, 1997.
    \8\ Ibid.
---------------------------------------------------------------------------
    Poverty and single parenthood: Preventing teen pregnancy is 
also important because of its persistent link to poverty and 
other social ills. The growth in single parent families remains 
the single most important reason for increased poverty among 
children. Given that out-of-wedlock childbearing is currently 
the driving force behind the growth of single parents and that 
half of first out-of-wedlock births are to teens, reducing teen 
pregnancy and child-bearing is an obvious place to anchor any 
serious effort to reduce poverty in future generations. And 
since more than three quarters of unwed teen mothers end up on 
welfare, it is also a good way to reduce welfare dependency and 
its costs to society.
    School performance: Compared with children from the same 
background who grow up with both biological parents, children 
raised in single-parent households are more likely to drop out 
of high school, less likely to attend college, and less likely 
to graduate from college if they attend. Before leaving high 
school, children from single-parent homes score lower on 
standardized achievement tests, have lower grade point 
averages, have more erratic attendance records, and have lower 
college expectations. These children also show more behavioral 
and emotional problems while growing up, as reported by parents 
and teachers.\9\
---------------------------------------------------------------------------
    \9\ Brown, Sarah and Leon Eisenberg (ed), The Best Intentions: 
Unintended Pregnancy and the Well-Being of Children and Families. 
Committee on Unintended Pregnancy. Institute of Medicine. Washington, 
D.C.: The National Academy Press, 1995.
---------------------------------------------------------------------------
    The bottom line: One of the reasons that this country 
continues to struggle with seemingly intractable poverty and 
social burdens is that, at present, over 40 percent of first 
births in this country are to women with one or more of the 
following attributes: being under 20, unmarried, and/or lacking 
a high school diploma. If we can reduce this figure 
substantially (as we would if teen pregnancy alone were 
reduced--these three measures are highly interrelated), we can 
anticipate significant overall improvement in a whole range of 
problems that now burden us, from poor health to school failure 
to poor job skills. We understand that poverty is a cause as 
well as a consequence of teen pregnancy, and we try constantly 
to help people understand the connection. But while we all wait 
for an effective national assault on poverty, we urge attention 
to a more focused and immediate goal: reducing teen pregnancy.
    In essence, we're trying to get at one of the major sources 
of our enduring social problems--children having children. As 
such, we are working on a two generational agenda. And although 
we understand that there is still some controversy (within the 
research community) about how much a reduction in teen 
childbearing would improve the lives of young women themselves, 
there is no question about the benefits that children realize 
when they have mothers--and, hopefully, fathers, too--who are 
ready to assume the responsibilities that being a parent 
entails. Although reducing teen pregnancy obviously would not 
eliminate all our social ills, it would move us forward 
significantly.
    It's important to add, incidentally, that working to reduce 
rates of teen pregnancy is not a quixotic quest. Lower rates of 
teen pregnancy and child-bearing are reported in all of the 
other industrialized countries to which the United States 
typically compares itself, and the fact that U.S. rates have 
fluctuated significantly over this century shows that they are 
not set in stone. Moreover, declines since 1991 in both the 
teen birth and teen pregnancy rates demonstrate that U.S. rates 
can decrease steadily; although these rates are still very high 
(even above those in the 1980s), we should all be encouraged by 
the recent good news and motivated to take the additional steps 
necessary to sustain the downward trend.

                        The Campaign's Strategy

    The Campaign's program and strategy over the next three 
years are based on two key goals: (1) strengthening social 
norms through our own actions and those of others; and (2) 
creating a national movement through better coordinated and 
supported state and local efforts. In both of these areas, the 
Campaign serves as a catalytic group emphasizing highly 
leveraged activities that complement and extend the 
programmatic solutions to teen pregnancy emphasized by other 
groups.

Strategy #1.--Strengthening Social Norms

    The Campaign has become convinced that one of the main 
reasons that we have high rates of teen pregnancy in the United 
States is that the nation lacks clearly articulated social 
norms and expectations that would lead to reduced rates of teen 
pregnancy. In particular, influential groups and individuals 
rarely speak clearly and forcefully against teenaged pregnancy, 
or about expected standards of adolescent sexual behavior. Even 
though polling data and survey research reveal an impressive 
national consensus in both of these areas, this consensus is 
often obscure or, at worst, invisible. Accordingly, the 
Campaign is giving major strategic priority to articulating and 
strengthening the underlying national consensus regarding both 
these issues.
    With regard to the first norm, although few are in favor of 
teen pregnancy and child bearing, the adults in this country 
seem oddly reluctant to state crisply and often that 
adolescence is for education and growing up, not pregnancy and 
parenthood, that children need adult parents, and that 
pregnancy and parenthood at a young age is in no one's best 
interest. Adults seem to hedge about this, fearful of hurting 
feelings, of devaluing those who have born children in their 
teens, of making a values-based statement.
    In the Campaign's view, this reluctance to speak clearly 
against teen pregnancy contributes directly to the high levels 
of non-marital teen pregnancy that the nation is currently 
experiencing. In the absence of well-articulated standards, 
social norms and expectations, it is all too easy for young 
people to fail to do one of the only two things that will avoid 
pregnancy--abstaining or using contraception extremely 
carefully. Both take motivation and work, and both rest on some 
sort of basic conviction, belief or value. In a culture that 
fails to speak clearly about whether teen pregnancy is or isn't 
okay, how can we be surprised if so many pregnancies occur?
    It is therefore critical that there be more explicit and 
powerful articulation of the basic concept that non-marital 
teen pregnancy and childbearing are in no one's best interests. 
The clear, unambiguous message must be that at this time, in 
this country, in this economy with its ever-rising requirements 
for an educated work force, the adolescent years must be used 
for education, skill-building and maturation. As alluded to 
earlier, recent research on early childhood development in the 
first weeks and months of life shows ever more conclusively the 
critical need that infants have for adult parents able to 
provide irreplaceable stimulation, stability and care early in 
life. All children need parents who are ready to take on the 
most important responsibility that any adult undertakes. 
Pretending otherwise--or worse, not speaking directly about all 
this--serves no good end.
    New efforts must also be made to give voice to a second 
strong national consensus that is not well articulated, 
especially at the national level: teenagers should abstain from 
sex during the school years; those who become sexually active, 
however, should have access to contraception. In a 1997 poll 
conducted by the Campaign, 95% of both adults and teens agreed 
that society should give kids a strong message that they should 
abstain from sex at least until they are out of high school. 
There is no ambiguity about this shared national value. As is 
well known, however, not all teens are going to achieve this 
standard and therefore a majority of Americans also support the 
notion that sexually active teenagers should have ready access 
to contraception. But the acceptance of contraception seems 
grounded in a clear preference for abstinence as the desired 
standard of behavior.
    At the Campaign, we approach this task at two levels: what 
the Campaign itself can accomplish with our own resources to 
strengthen these two points of consensus, and what the Campaign 
can encourage other groups and social sectors to undertake as a 
result of our leadership.
    What the Campaign itself can do: The Campaign increasingly 
threads these two social norms throughout all our work. We 
include them in our publications, advocacy, conferences, and 
seminars. And in particular, we express them in our frequent 
contacts with the press and in our work with media leaders. We 
do not shy away from taking clear positions on both of these 
issues, and we seek opportunities to state them crisply and 
publicly. We believe that our willingness to address social 
norms and to discuss values is one of the Campaign's unique 
characteristics, absent from most other groups working on this 
and related topics. Were we to ignore the values dimension of 
the problem, we believe our strategy would be missing one of 
the core challenges in reducing teen pregnancy.
    Is the Campaign's focus on values and social norms useful? 
We can only report that we have been stunned by the power of 
our position. In speech after speech, in media briefing after 
media briefing, in community after community, we hear 
constantly that our taking an unambiguous stand in these two 
areas is not only powerful, but also unusual. One woman in 
Atlanta said to the Campaign's director recently, ``I've worked 
in this field now for over ten years, and I don't ever recall 
anyone or any group offering such straight talk [sic]. Don't 
you ever get in trouble?'' Well, so far, no. We are amazed that 
taking a clear stand can be valuable in and of itself, 
particularly if the position resonates with the majority of 
Americans, as we believe ours does.
    What other groups can do: As intent as the Campaign is on 
giving new voice to these basic ideas and values ourselves, we 
remain a very modest organization with a small staff and 
budget. Obviously, the challenge of influencing and clarifying 
social norms is enormous and will require the efforts of many 
groups. Accordingly, the Campaign invests heavily in urging 
other groups and social sectors to act. That is, the Campaign 
has very consciously adopted a ``high-leverage'' approach to 
extend its influence and reach far more groups and individuals 
than it ever could reach on its own.
    At present, we are working hard to enlist the interest and 
help of the entertainment media and we are also reaching out to 
parents and other adults deeply involved in the lives of young 
people. We are especially proud of our work with young people 
themselves and faith communities.
    (a) The entertainment media: One of the most efficient ways 
to communicate with the nation about social norms or any other 
topic is through the media, especially the entertainment media, 
which is a pervasive force in American life and a major arbiter 
of culture. The ability of the media to convey information, 
shape values, and influence attitudes is well known. 
Recognizing how powerful this sector can be, especially if it 
were to be enlisted in reducing teen pregnancy, the Campaign is 
placing its highest priority on work with the entertainment 
media, both print and broadcast.
    With the help and leadership of our Media Task Force, we 
are now working productively with a wide variety of media 
groups. Rather than taking the traditional public service 
announcement (PSA) route, which can have limited reach and 
unpredictable viewership, we instead are working in partnership 
with entertainment media leaders, offering each a menu of ideas 
and messages that we ask them to weave into their story lines 
over time. Many young people pay close attention to what their 
favorite characters on television say and do, and many parents 
feel that the media can and should echo the prevention messages 
they are trying to teach at home. By working with decision-
makers in many parts of the entertainment media industry, the 
Campaign is reaching a wide variety of audiences with important 
prevention messages delivered in ways that are appealing and 
memorable to them.
    (b) Parents: In spring of 1998, the Campaign emphasized 
another approach to reducing teen pregnancy that is rarely 
spotlighted: encouraging parents and adults generally to take a 
more active role in supervising and communicating with their 
children about a wide range of issues related to sex, love and 
relationships. We published a review of 20 years of research 
about the powerful role that families play in reducing sexual 
risk-taking,\10\ and translated these findings into Ten Tips 
for Parents to Help Their Children Avoid Teen Pregnancy.
---------------------------------------------------------------------------
    \10\ Miller, Brent. (1998). Families Matter: A Research Synthesis 
of Family Influences on Adolescent Pregnancy. Washington, DC: The 
National Campaign to Prevent Teen Pregnancy.
---------------------------------------------------------------------------
    (c) Youth themselves: In January 1999, 26 outstanding young 
people, (13 boys and 13 girls), from all over America joined 
the National Campaign to form the Youth Leadership Team. 
Nominated by organizations across the country, the Youth 
Leadership Team advises the Campaign and gives voice to the 
unique perspectives and opinions of teens. They represent 20 
states and organizations ranging from Best Friends to 4-H to 
Planned Parenthood to the YWCA to the Girl Scouts to the 
Mexican American Community Services Agency to the United Way. 
The Youth Leadership Team meets twice annually and has 
contributed to recent Campaign publications including Talking 
Back: Ten Things Teens Want Parents to Know About Teen 
Pregnancy and Thinking About the Right-Now: What Teens Want 
Other Teens to Know About Preventing Pregnancy.
    (d) Faith Communities: Given the pervasiveness of religious 
organizations and the large number of Americans affiliated with 
an organized religion, the deep religiosity of this country, 
the important role that values and moral choices make in sexual 
behavior, and the growing concern among religious leaders about 
the state of the American family, the Campaign has reached out 
through Nine Tips to Help Faith Leaders and Their Communities 
Address Teen Pregnancy, (written by the Campaign's Task Force 
on Religion and Public Values) and through a series of regional 
meetings for faith leaders. The religious community is large, 
powerful, and one of the most influential centers of leadership 
in the country. Our goal in working with faith community 
leaders will be to enlist their interest in preventing teen 
pregnancy, to learn how they are already supporting families 
and teenagers themselves, and to explore ways that the Campaign 
can support their efforts.

Strategy #2.--Creating a National Movement Through Strengthened 
and Better Coordinated State and Local Efforts

    The Campaign matches its ``top down,'' high-leverage 
efforts just described with a strong focus on creating a 
``bottom up'' national movement. We do so by providing state 
and local programs, coalitions, and leaders with a wide variety 
of materials, ideas, and hands-on assistance and encouragement.
    Linking state and local efforts: Over the last three years 
the Campaign has learned that although many states and 
communities have various coalitions and programs to reduce teen 
pregnancy, they are generally quite fragile and disconnected 
from one another. They are rarely based on strong theory or 
solid research, and there are few mechanisms in place for 
people to learn what others are doing in their own state and 
around the country. In response, the Campaign is trying to 
bolster state and local efforts in a variety of ways: through 
technical assistance, by producing and disseminating research-
based publications, and by holding conferences and meetings for 
individuals at the state level. We have also developed an 
interactive bulletin board on our web site that allows state 
and local practitioners to communicate directly with each other 
and the Campaign about new strategies, points of interest, and 
upcoming events. (The idea for this originated at the 
Campaign's state-based media conference in June 1997, where 
participants from 41 states lamented the lack of connection 
among state practitioners working in teen pregnancy 
prevention.) In these disparate ways, our objective is to 
foster a national movement from a set of often disconnected 
parts.
    The Campaign also continues to visit states and local 
communities (more than 40 states at last count) to learn more 
about what they are doing and what problems they have 
encountered, as well as to communicate new ideas about 
preventing teen pregnancy. At these ``site visits,'' the 
Campaign meets with local leaders, talks with teenagers, learns 
more about coalition-building and local programs from the 
people ``on the ground'' who are doing the work. In addition, 
the Campaign shares ideas gleaned from visits and consultations 
all over the country as a way to connect teen pregnancy 
prevention efforts nationwide.
    While the states and local communities first and foremost 
want more money to fund their work, their second major request 
is for technical assistance with their specific challenges they 
face in planning and implementing prevention initiatives. In 
response, the Campaign provides ongoing help to communities in 
working through problems and identifying resources of all 
kinds. Most recently, Campaign staff provided individuals 
working in states and communities with a list of suggested 
activities for Teen Pregnancy Prevention Month in May. As a 
result, a number of states organized linked activities and 
events.
    Tool kit: A major component of our work with states and 
communities involves the release of a practical, ``user-
friendly'' tool kit for states and communities searching for 
ways to reduce teen pregnancy in their areas. Developed in 
close consultation with our Task Force on State and Local 
Action, this tool kit provides concise tips for communities on 
how to develop teen pregnancy prevention programs and 
partnerships. It includes information on what is needed to 
develop a sustainable program and what its activities might 
usefully include. Information targets, for example, how to 
handle the conflict that work on this problem often generates, 
how to involve youth in community programs and planning, and 
how to conduct a review of the evidence on promising programs.
    Conflict reduction: In our work with states and 
communities, we give special emphasis to conflict reduction, 
quite simply because so many local and state leaders have 
reported that controversy and divisive publicity too often 
greet bold actions to reduce teen pregnancy--and that the 
controversy and hostility can spring from right or left, 
depending on the solution being advocated. We have been so 
struck by the tensions in this area that we have developed a 
saying in the office that captures the problem: while the 
adults are arguing, the kids are getting pregnant. In our view, 
unless communities can find new ways of doing business in this 
field--ones that are less prone to eruptions, blow-ups, and 
angry editorials in the newspaper--we will continue to be 
limited in our ability to decrease teen pregnancy.
    Under the guidance of the Campaign's Task Force on Religion 
and Public Values, we have developed an approach to community 
conflict that is designed to reduce tensions and allow 
progress. This community process (called ``structured community 
dialogues,'' or SCDs) was recently piloted in California. With 
Campaign leadership and guidance, a group of community leaders 
in San Bernardino active in teen pregnancy prevention engaged 
in a two-day SCD that increased mutual tolerance and helped the 
participants to build areas of common ground and action. The 
Campaign's publication, While the Adults are Arguing: The Teens 
Are Getting Pregnant was produced following the San Bernardino 
meeting. Subsequent to the San Bernardino pilot, a similar 
meeting took place in Glendale, Arizona with tremendous 
community support. A goal is to use this same approach in three 
or four other communities in order to demonstrate the value of 
this model for breaking deadlocks at the community level.

                               Conclusion

    We're often asked to summarize briefly the Campaign's 
overall approach. Here's the briefest summary statement we've 
yet devised:

          The United States has the highest rate of teen pregnancy in 
        the industrialized world. Two-fifths of our teenaged girls 
        become pregnant before their twentieth birthday. Almost half of 
        first births today are to mothers who are either teens, 
        unmarried, or lacking a high school degree. This does not auger 
        well for the future of our economy or our society.
          This dismal situation is unlikely to improve significantly 
        without clearly articulated social norms and expectations that 
        discourage teenage pregnancy. Young people today are heavily 
        influenced by the media and by peer group pressures that 
        romanticize sex and child-bearing, and they are spending less 
        time with parents or other responsible adults who could counter 
        such influences.
          There is a consensus in this country that non-marital teen 
        pregnancy is not acceptable or ``okay,'' and that teens should 
        delay sex and pregnancy at least through high school, although 
        the public wants contraception to be available to those who 
        need it. The Campaign's goal is to strengthen and clearly 
        articulate these points of consensus through our own efforts 
        and with the help of such other powerful sectors as the media, 
        faith leaders and youth themselves. We also seek to support and 
        honor other organizations whose programmatic efforts in this 
        area are most effective, and to build a national movement to 
        reduce teen pregnancy out of a myriad of smaller efforts at the 
        state and local levels. In all these activities, we seek to 
        decrease unproductive conflict and help all to find areas of 
        common ground and common action.

    Thank you.

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you, Ms. Miller. I 
appreciate that.
    Mr. Tetelman.

   STATEMENT OF EDWARD TETELMAN, ASSISTANT COMMISSIONER, NEW 
              JERSEY DEPARTMENT OF HUMAN SERVICES

    Mr. Tetelman. Thank you for inviting me. I am Ed Tetelman. 
I am the assistant commissioner for the Department of Human 
Services, and I am pleased to discuss this important topic with 
you.
    In New Jersey, we have been fortunate to have clear 
leadership from our governor Christie Whitman on the problems 
related to teen pregnancy and nonmarital births. Most New 
Jersey teens who give birth are unmarried or in marriages that 
don't last very long. New Jersey's teen pregnancy rate is 35 
per 1,000 births as compared to the national average of about 
54 per 1,000.
    In New Jersey, our efforts to prevent teen pregnancy range 
from the creation of an 800 number that teens can call to find 
out about family planning services to developing a pool of 
mentors who impart information and a message that sometimes 
unfortunately just doesn't come from parents.
    Let me tell you a little bit about the specifics of these 
programs. Last year, Governor Whitman directed $1 million, TANF 
dollars, to an adolescent pregnancy prevention initiative. That 
initiative includes a strong mentoring effort. I want to thank 
the committee for granting the States the flexibility with TANF 
funds to making this program possible. If we didn't have that 
flexibility, we wouldn't be able to do this.
    In our first mentoring program we have adults working with 
teens at risk of becoming pregnant. These adults provide 
counseling and family planning information, but probably the 
most important thing they do is to--and the hardest to measure 
is that they help to build self-esteem. They help teens learn 
how to make decisions for themselves, and they encourage a 
young woman to look beyond today. A caring adult can have a 
profound influence on a teenage girl as she struggles to define 
her own self-image.
    Our second mentoring program uses teen mentors, and they 
provide similar information about family planning and related 
health issues. Peer pressure among teens is especially intense. 
Its influence often results in teens making poor or self-
destructive decisions based on bad or no advice. We realize 
that the carrier of the message can be as important as the 
message itself.
    Another initiative is the governor's allocation of $100,000 
to create an 800 number hotline that provides counseling 
referrals to teens who are weighing practical decisions around 
sex and related health issues. Also, our counselors advise that 
abstinence is the only guaranteed way of preventing pregnancy 
or avoiding a sexually transmitted disease.
    To publicize these prevention efforts, last year we 
undertook a public relations campaign. As a result, the hotline 
calls increased by 600 percent. One of the reasons New Jersey 
was able to develop these programs so quickly is that we had 
some solid experience to draw on from our school-based youth 
services program. This program offers comprehensive service on 
a one stop shopping basis in or near schools. The core services 
of employment, mental health and family counseling, healthcare, 
counseling and family planning, as well as recreation and 
information and referral.
    The staff develop relationships based on trust, and from 
that relationship they are able to provide teens with the 
ability to express their feelings so that if they want to say 
no to sex they can. However, if they are engaged in sex, they 
receive the information they need to protect themselves.
    Our school-based program has shown dramatic reductions in 
adolescent pregnancies and repeat pregnancies. At one of our 
school-based sites there had been on the average about 20 teen 
births a year. After our program began providing counseling and 
family planning service that number dropped to three 
pregnancies or less a year at the high school, remaining so for 
over 8 years. The keys to success are connections and 
collaborations between educators, counselors, healthcare 
providers with teens at the ground level.
    As part of our most recent effort to enhance prevention 
efforts, Governor Whitman held regional forums on the 
prevention of adolescent pregnancies, including teens. 
Additionally, the Governor has established an Advisory Council 
on Adolescent Pregnancy that represents varied opinions in the 
field.
    We have learned a number of lessons from our teen pregnancy 
programs. First, school-based programs work, and second, that 
there was a correlation between the numbers of births to a teen 
and her age. We concluded that as we develop programs we must 
consider the different dynamics that lead to pregnancies in 
girls under 14 years of age and those between 17--15 and 17 and 
those between 18 and 19 years old, where in New Jersey it is 
the bulk of the young women getting pregnant, about 6,000.
    We noted that in all successful programs that collaboration 
and coordination was the key. We also established to carry this 
out an interdepartmental work group on adolescent pregnancy. 
This group developed county teen pregnancy initiatives, 
coordination that looked at existing programs to get the 
message through our existing programs, as Dr. Nathan says, 
Medicaid, school to work and those types of programs, and a 
public relation campaign that includes public service 
announcements for movie theaters, as well as TV and radios. The 
30-second spot will be viewed before PG and R movies and will 
spread our prevention message to a teenage audience. 
Additionally, there are wallet-sized cards with pertinent 
information and posters to promote the hotline.
    I would like to close with just a brief discussion on the 
role of TANF dollars in the prevention of pregnancy. No. 1, 
TANF dollars pay for our mentoring programs. TANF dollars also 
support our child care efforts in 11 highly successful 
adolescent parent programs that are located in schools 
throughout the State with high pregnancy rates. These programs 
have almost no repeat pregnancies and close to 100 percent 
graduation rates. By the way, most of those young women go on 
to jobs and college. The programs assist teen moms to stay in 
school as required also by the TANF regulations themselves.
    TANF dollars have also been used to leverage other dollars 
from other sources, from foundations and Children's Trust Fund.
    And in closing, New Jersey is committed to reducing teen 
pregnancy. The welfare reform message of personal 
responsibility, along with the flexible use of Federal dollars, 
has allowed us to take important steps to address this issue. 
We all recognize this is not just a welfare issue and that we 
must continue to engage parents, government, business, 
educators, the community and faith-based organizations, as well 
as teens. Obviously, we still have a lot of work to do to 
reduce teen pregnancy, and New Jersey is committed to the goal.
    Finally, your focus on teen pregnancy prevention and 
nonmarital births today highlights your commitment to breaking 
the cycle of welfare dependency and ultimately giving a young 
person an opportunity to make choices in their best interest. 
Thank you very much.
    [The prepared statement follows:]

Statement of Edward Tetelman, Assistant Commissioner, New Jersey, 
Department of Human Services

    Thank you for inviting me to speak with you today. I am Ed 
Tetelman, Assistant Commissioner of the New Jersey Department 
of Human Services. I am pleased to be with you as we discuss 
this important topic.
    In New Jersey, we have been fortunate to have clear 
leadership from our Governor, Christie Whitman, on the problems 
related to teen pregnancy and non-marital births.
    Most New Jersey teens who give birth are unmarried, or are 
in marriages that, in many instances, won't last.
    New Jersey's teen pregnancy rate is 35 per 1,000, as 
compared with the national average of 54 per 1,000.
    In New Jersey, our efforts to prevent teen pregnancy have 
ranged from the creation of an 800 number that teens can call 
to find out about family planning services to developing a pool 
of mentors who impart information and a message that sometimes, 
unfortunatey, just doesn't come from a parent.
    Let me tell you a little bit about the specifics of our 
programs.
    Last year, Governor Whitman directed $1 million in TANF 
dollars to an Adolescent Pregnancy Prevention Initiative. I 
want to thank the committee for granting states flexibility 
with tanf funds making this program possible.
    The initiative includes a strong mentoring approach. First, 
we have adults working with teens at risk of becoming pregnant. 
These adults provide counseling and family planning 
information. But probably the most important thing they do is 
the hardest to measure. They help build self-esteem, and help 
teens learn how to make decisions for themselves. They 
encourage the young woman to look beyond today.
    A caring adult can have a profound influence on a teenage 
girl as she struggles to define her own self image.
    Our second mentoring program is similar with one key 
difference: the mentors are teenagers themselves. They provide 
similar information about family planning and related health 
issues.
    Peer pressure among teens is especially intense. Its 
influence often results in teens making poor or self 
destructive decisions based on bad or no information.
    We realized that the carrier of the message can be as 
important as the message itself.
    Another initiative is the governor's allocation of $100,000 
to create a toll-free hotline that provides counseling and 
referrals to teens who are weighing practical decisions about 
sex and related health issues.
    Our counselors advise that aBstinence is the only 
guaranteed way of preventing pregnancy or of avoiding a 
sexually transmitted disease.
    To publicize our prevention efforts, Last year we undertook 
a public relations campaign. As a result, calls to the hotline 
have continued to climb as this campaign has gained momentum. 
We have seen a greater than 600 percent increase in calls since 
we began the campaign.
    One of the reasons New Jersey was able to develop these 
programs so quickly is that we had some solid experience to 
draw on with our school-based youth services program.
    This program offers comprehensive services on a one-stop 
shopping basis in or near schools. The core services include 
employment services, mental health, family counseling, and 
health services, including family planning and counseling.
    The staff develop relationships based on trust. From that 
relationship, they are able to provide teens with the ability 
to express their feelings so that if they want to say no to 
sex, they can.
    However, if they are engaged in sex, they receive the 
information they need to protect themselves.
    Our school-based program has shown dramatic reductions in 
adolescent pregnancies and repeat pregnancies.
    At one of our school based sites, there was on average 
about 20 teen births each year. After our program began 
providing counseling and family planning services, that number 
dropped to three pregancies or less each year at the high 
school--
remaining so for over eight years. the keys to success are the 
collaborations that are developed between educators, counselors 
and health providers with the teens from the outset.
    As part of our most recent effort to enhance prevention 
efforts, Governor Whitman held Regional forums on the 
prevention of adolescent pregnancy.
    Additionally, the governor has established an Advisory 
Council on Adolescent Pregnancy that represents the varied 
opinions of those in the field.
    We have learned a number of lessons from our teen pregnancy 
programs.
    First, there have been extraordinary reductions in births 
to teens in some of our School-Based Youth Service Program 
sites; and second, there is a corrolation between the numbers 
of births to a teen and her age.
    We concluded that as we develop programs, we must consider 
the different dynamics that lead to pregnancies in girls under 
14 years of age (fewer than 350 a year), those 15 to 17 years 
(3,500) and those 18 and 19 years old (6,000).
    We noted that in all successful programs, the local 
educators, health providers, and mental health and employment 
counselors were working in a coordinated fashion and made great 
efforts to create a seamless connection to provide necessary 
services.
    Accordingly, collaboration and coordination became key to 
New Jersey's efforts.
    We established an inter-departmental WorkGroup on 
Adolescent Pregnancy Prevention. Senior representatives from 
the New Jersey Departments of Education, Health and Senior 
Services, Labor, Community Affairs, Child Abuse Prevention and 
Juvenile Justice participated. Following are some of the 
activities this group helped to organize:
    <bullet> County-based teen pregnancy prevention efforts. 
These programs were developed locally by educators, service 
providers, business representatives, government officials, and 
most importantly, teens.
    <bullet> Coordination with other state programs, such as 
paternity support, Adolescent Health, the Abstinence grants of 
the NJ Dept. of Health and Senior Services, Medicaid, school-
to-work, housing, domestic violence, employment and training, 
and youth and family services.
    <bullet> A public relations campaign that includes Public 
service announcements for movie theaters as well as TV and 
radio. The 30-second spot will be viewed before PG and R movies 
and will spread our prevention message to a teenage audience.
    I'd like to briefly discuss the role of TANF dollars in the 
prevention of pregnancy.
    The 22 mentoring programs I spoke of earlier are supported 
with TANF dollars.
    TANF dollars support childcare for 11 highly successful 
adolescent parent programs that are located in schools 
throughout the state with high pregnancy rates. These programs 
have almost no repeat pregnancies and close to 100% graduation 
rates. they assist teen moms in staying in school as required 
by the TANF regulations.
    TANF dollars have also been used to leverage dollars from 
other sources. For example, children's trust fund and 
foundation dollars pay for special programs for fathers and are 
used to expand mentoring to a larger number of youth.
    In closing, New Jersey is commited to reducing teen 
pregnancy. The Welfare reform message of personal 
responsibility along with the flexible use of federal dollars 
has allowed us to take important steps to address this issue. 
We all recognize that this is not just a welfare issue and that 
we must continue to engage parents, government, business, 
educators, commumity and faith-based organizations, and, of 
course, teens. We still have a lot of work to do to continue to 
reduce teen pregnancy, and we remain committed to that goal.
    We applaud the committee for examining the issue of non-
marital births and look forward to working with you in the 
future.
    I would be happy to respond to any questions.

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much.
    Mr. Sciamanna.

STATEMENT OF JOHN SCIAMANNA, SENIOR POLICY ASSOCIATE, AMERICAN 
               PUBLIC HUMAN SERVICES ASSOCIATION

    Mr. Sciamanna. Thank you, Madam Chair. My name is John 
Sciamanna. I am a senior policy associate at the American 
Public Human Service Association. Thank you for the opportunity 
to share preliminary results of our survey on State efforts to 
reduce nonmarital births and in particular to prevent teenage 
pregnancy. I will summarize my testimony.
    The reduction of teenage pregnancy in nonmarital births are 
of key concern to State health and human service directors. 
They know that the prevention of teenage births will reduce 
future dependence on public assistance and poverty. The 
Personal Responsibility and Work Opportunity Reconciliation Act 
placed an emphasis on reducing nonmarital births. In the 3 
years since its passage APHSA together with the Population 
Resource Center has sponsored national meetings to examine 
State strategies and programs in out-of-wedlock births. The 
survey I will summarize for you today is another in our efforts 
to highlight the importance of this issue to our organization 
and to our members.
    Since August 1996 the goal of State TANF programs has been 
on moving families from welfare to work. States are also 
focusing attention on this issue by expanding past State health 
department efforts in initiating new TANF funded programs. 
Efforts to reduce teen pregnancy is not limited to the TANF 
arena. It is a broader issue that spans income groups and must 
be addressed by a comprehensive approach involving State and 
local parties, programs and community-based organizations. It 
is key to the success of welfare reform that we address both 
the needs of adults on TANF as well as the needs of their 
children, and preventing an unintended pregnancy is part of 
that strategy.
    I would like to share with the committee some of the 
initial information on State efforts that we have received so 
far. Thirty-six States indicated to us that they are funding 
teen pregnancy or out-of-wedlock birth prevention programs with 
either Federal TANF funds or State maintenance of effort TANF 
funds. Nine of these thirty-six are using TANF funds 
specifically for abstinence education efforts. Title V funds, 
as we talked about, are available to all States for programs 
that emphasize abstinence, and these nine States are 
supplementing that effort.
    State policies incorporate a range of strategies. At least 
16 of the 36 States are running statewide programs, while 14 
are funding local initiatives and the rest of the States are 
combining both approaches. Eleven States are using funds to 
evaluate abstinence education or teen pregnancy prevention or 
out-of-wedlock birth programs. We are seeing more investment 
here since experts from the field as we have heard today have 
indicated that past programs have not always been subject to 
rigorous evaluation.
    Nine States are using media campaigns as part of their teen 
pregnancy prevention strategy, while an additional twenty used 
media campaigns as part of their abstinence education strategy. 
In fact, last summer during a Capitol Hill briefing on TANF, we 
featured a media spot that was developed for the State of 
Mississippi by a media consultant who worked with teenagers in 
shaping the message of that entire media campaign.
    Ten States are providing pregnancy prevention programs with 
technical assistance, including curriculum development, an 
additional fourteen specifically targeting this assistance to 
abstinence education efforts. I would like to offer a few 
specific examples of what we have heard so far.
    Your home State, Connecticut, is using a combination of 
both State and TANF funds to support 18 pregnancy prevention 
models based on Dr. Michael Carrera's model. He serves, in 
fact, as a consultant and he has a very interesting and dynamic 
approach that follows kids with a range of supports and skill 
building services.
    Maryland is targeting the prevention of second births to 
teen parents. The State is investing $1 million in the home 
visiting program and a father involvement program. The programs 
target teenagers who are expecting and are receiving TANF or 
come from families that have received TANF. The fatherhood 
program seeks to improve the long term involvement of both 
parents. Maryland is also using its abstinence funds in a media 
campaign as well as investing in after school youth development 
programs.
    Louisiana has designed a pilot project that targets the New 
Orleans area. Ten contracts have been issued to community-based 
groups. Components of these programs include youth development, 
comprehensive health and family life education, parental 
involvement, mental health services and counseling and male 
involvement. The target populations there include 11- to 19-
year-olds, teen parents and parents of teenagers.
    Pennsylvania is using its abstinence education dollars to 
develop a 5-year initiative. The 5-year project, called 
abstinence education and related services, is funding 28 
projects that cover 35 counties. The abstinence program 
includes mentoring, adult supervision and counseling. Training 
programs in abstinence education for teens, parents, peers and 
health professionals is also provided.
    Michigan is funding 18 community coalitions to provide an 
abstinence message that is geared specifically to the local 
needs of that particular community. The program places an 
emphasis on 9- to 14-year olds.
    Florida is a State that has included an evaluation 
component. Florida is evaluating five pilot projects that use 
different pregnancy prevention strategies. These projects 
include family life and sexuality education, medical and mental 
health services, tutoring, job and career service activities, 
mentoring and community service activities. Parents are 
encouraged to participate with their children. The programs 
serves approximately 1,600 at risk middle school teens. At the 
same time, Florida has funded 17 statewide abstinence education 
grants to a variety of community-based organizations.
    These are a few of the examples of current State approaches 
in strategies. APHSA will be happy to provide the committee 
with our full report to be issued in the coming weeks. We 
expect to see expanded investment of TANF funds, greater 
coordination between departments and partnerships.
    Thank you for the opportunity to testify today.
    [The prepared statement follows:]

Statement of John Sciamanna, Senior Policy Associate, American Public 
Human Services Association

    Madam Chairman, Congressman Cardin, members of the 
Committee, goodmorning. My name is John Sciamanna; I am a 
Senior Policy Associate atthe American Public Human Services 
Association. I am here today to sharepreliminary results of our 
survey of state efforts aimed at reducing non-marital births 
and in particular, to prevent teenage pregnancy.
    As you know, the reduction of teenage non-marital births 
are a key concern to state health and human service directors 
throughout the country. They know that prevention of teenage 
births will significantly reduce future dependence on public 
assistance and poverty. The Personal Responsibility and Work 
Opportunity Reconciliation Act of 1996 placed a special 
emphasis on reducing non-marital births. Since the enactment of 
the law, APHSA has placed an emphasis on this issue by 
convening sessions to examine state strategies, promising 
programs and by encouraging states to use their TANF block 
grant funds for this purpose.
    In March 1997, October 1998 and March 1999, together with 
the Population Resource Center, APHSA sponsored national 
meetings in Washington and the Southern part of the country to 
examine local programs. We invited local pregnancy prevention 
program managers to Washington to explain their approaches in 
their various cities.
    In the past few years, the goal of state TANF programs has 
been on moving families from welfare to work, however, states 
are also focusing more attention on this issue by expanding 
past health department efforts and initiating new TANF-funded 
programs. It should be emphasized that reducing teen pregnancy 
is not confined just to the TANF arena but it is a broader 
issue that spans income groups and must be addressed by a 
comprehensive approach involving a cross-section of state and 
local departments, programs and communities-based 
organizations.
    APHSA believes it is fundamental to the success of welfare 
reform that we address not just the needs of adults on TANF but 
we must also build a strategy that addresses the needs of their 
children and preventing an unintended pregnancy is part of that 
strategy.
    APHSA began a survey of states on their work in this area 
and at this point we have received responses from forty-four 
states and three territories. I would like to share with the 
Committee the preliminary findings of a soon-to-be-published 
report that highlights the wide range of state initiatives 
underway.
    Thirty-six are funding teen pregnancy or out-of-wedlock 
birth prevention programs with either federal TANF funds or 
state Maintenance-of-Effort funds. Nine of these thirty-six 
states are using TANF funds specifically for ``abstinence-
only'' education efforts while thirty-six states are funding 
their 'abstinence-only'' programs with Title V funds.
    State policies incorporate a range of strategies including 
media campaigns, case management services to prevent second 
births, teen support and education programs, after-school 
programs that include abstinence education, youth conferences, 
family life and sexuality education, tutoring, job and career 
activities, medical and mental health services and mentoring 
combined with community services activities to mention a few of 
the policies.
    Our survey information indicates that at least sixteen 
states of the thirty-six states are running statewide programs 
while fourteen are funding local initiatives and the rest are 
using both approaches.
    Eleven states told us that they were using funds to develop 
and implement evaluation methods for statewide and local 
abstinence education or teen-pregnancy prevention or out-of-
wedlock birth programs. We are seeing a greater investment in 
evaluation of these programs since many experts from the field 
have indicated that past programs and approaches have not 
always been subject to such research.
    Nine states reported using media campaigns as part of their 
teen pregnancy prevention strategy while an additional 20 use 
media campaigns as part of their abstinence education strategy. 
I would add that last summer, during a Capitol Hill briefing on 
TANF, we featured some of the media spots developed for the 
state of Mississippi by a media consultant who worked with 
teenagers in shaping the message.
    Ten states are providing local pregnancy-prevention 
programs with technical assistance including curriculum 
development. An additional fourteen states are specifically 
targeting this assistance to abstinence education efforts.
    In an effort to coordinate these policies some states are 
establishing councils that will bring all parties together in a 
planning process. At least two governors have appointed 
councils and another state has a twenty-five-member committee 
created by the state legislature.
    I would like to take this opportunity to focus on a few 
examples of state efforts:
    Georgia has 28 programs funded with $3.9 million of TANF 
funds, that are aimed at reducing risk behavior and poor health 
outcomes. Included in the Georgia strategy are male involvement 
programs that promote responsible behavior, delayed fatherhood 
and abstinence. These programs encourage community involvement 
and also target parental involvement.
    Maryland is targeting the prevention of second births to 
teenage parents. The state is investing $1 million in a home 
visiting program and father-involvement program. The programs 
targets teenagers who are expecting and are either receiving 
TANF or come from families that have. The fatherhood component 
is an effort to improve the long term involvement of both 
parents. The Maryland is also using its abstinence funds in a 
media campaign as well as investing in after-school youth 
development programs.
    The state of Illinois has invested over $9 million in TANF 
funds over two years in a program called ``REACH''--
Responsibility, Education, Achievement, Caring and Hope. This 
effort targets 10 through 17 year-olds by creating structured 
programs for out-of-school time. Local agencies are contracted 
to provide services in communities that have a high 
concentration of TANF families. Separately, the state has 
contracted with 31 agencies in selected areas to focus on 
abstinence-only education.
    Louisiana has designed a pilot project that targets the New 
Orleans area that has the highest teen-birth rate in the state. 
Ten contracts have been issued to community-based groups. Some 
of the components include youth development, comprehensive 
health and family life education, parental involvement, mental 
health services and counseling and male involvement. Target 
groups include 11 through 19 year-old students, teen parents 
and parents or other adult caretakers of teens.
    Pennsylvania is using its abstinence education dollars to 
develop a five year initiative. The five-year project called, 
``Abstinence Education and Related Services'' or AERS is 
currently funding 28 projects that cover 35 counties. In 
addition to delivering an abstinence message, the program 
includes mentoring, adult supervision, counseling and training 
programs in abstinence education for teens, parents, peers and 
health professionals.
    Similarly, Michigan is funding 18 community-coalitions that 
will provide an abstinence message that is geared to specific 
local needs. The program places an emphasis on 9- to 14-year-
olds.
    Florida is an example of a state that has included an 
evaluation component. The state is evaluating five pilot 
projects on different teen pregnancy prevention strategies, 
including family life and sexuality education, medical and 
mental health services, tutoring, job and career activities, 
mentoring and community service activities. Parents are 
encouraged to participate with their children. The programs 
serve approximately 1600 at-risk middle school teens. At the 
same time, Florida has funded 17 statewide abstinence education 
grants to a variety of community-based organizations.
    There are many other efforts going on, Iowa provides long-
term ten year grants to communities for long term prevention 
strategies and programs, Oklahoma is expanding existing health 
department efforts to increase outreach, Arkansas has convened 
a statewide youth conference as a part of its strategy. Efforts 
are expanding across the country.
    These are just a few examples of current state approaches 
and strategies. APHSA will be happy to provide the committee 
with our full report to be issued in the coming weeks.
    We expect to see expanded investments of TANF funds, 
greater coordination between state and local departments and 
partnerships in the coming years. Thank you for the opportunity 
to testify today.

                                <F-dash>


    State Teen Pregnancy Prevention and Abstinence Education Efforts

                               Background

    One of the core purposes of the Personal Responsibility and 
Work Opportunity Reconciliation Act of 1996 (P.L. 104-193) is 
to prevent and reduce the incidence of out-of-wedlock 
pregnancies. States may therefore use federal Temporary 
Assistance for Needy Families (TANF) and state maintenance-of-
effort (MOE) funds for programs and services designed to 
achieve this goal. The welfare reform law also added a new 
formula grant program to Title V of the Social Security Act for 
states to provide abstinence education, mentoring, counseling, 
and adult supervision to promote abstinence from sexual 
activity, particularly among those groups identified as most 
likely to bear children out of wedlock.
    According to a recent survey conducted by the American 
Public Human Services Association, states are using TANF and 
Title V resources for a variety of efforts to reduce out-of-
wedlock pregnancies, with a heavy emphasis on promoting 
abstinence and reducing pregnancy among teens. Some states are 
incorporating strategies into their TANF policies, such as 
targeted case management services, while others are 
specifically funding prevention programs. State human service 
and health agencies are working with other public and nonprofit 
agencies, community groups, health providers, and others to 
develop and implement programs and activities to achieve this 
goal.

                            Survey Findings

    The APHSA survey asked two questions of states:
    <bullet> Can you describe how you designed TANF policy or 
used TANF funds to reduce the out-of-wedlock birthrate or teen 
pregnancy?, and
    <bullet> Can you give an example of how abstinence 
education funds have been used in a strategy to reduce out-of-
wedlock birthrates?
    All 50 states, three territories, and the District of 
Columbia responded to the survey. According to responses, most 
states are using TANF and/or Title V funds for both teen 
pregnancy/out-of-wedlock birth prevention programs and teen 
abstinence education. Specifically:
    <bullet> 46 states reported funding teen pregnancy/out-of-
wedlock birth prevention programs with federal TANF or state 
MOE funds;
    <bullet> 45 states reported using federal Title V 
abstinence education funds for abstinence programs;
    <bullet> 12 states reported using TANF funds for abstinence 
education, or combining TANF and Title V funds; and
    <bullet> 11 states reported focusing solely on teen 
abstinence using TANF funds, Title V funds, or both.

Range of Activities

    States are using available federal and state resources for 
a variety of activities to prevent teen pregnancy and out-of-
wedlock births and to promote teen abstinence, including:
    <bullet> Media campaigns
    <bullet> Intensive case management
    <bullet> Family planning referrals
    <bullet> Community-based education programs
    <bullet> Youth conferences
    <bullet> Parenting skills programs
    <bullet> Father involvement programs
    <bullet> After-school programs
    <bullet> Curricula for self-esteem building, abstinence 
education, etc.
    <bullet> Teen support and education programs
    <bullet> Family life and sexuality education
    <bullet> Medical and mental health services
    <bullet> Tutoring, job and career activities
    <bullet> Mentoring and community service activities
    <bullet> Family cap and short work-exemption period for 
TANF recipients
    <bullet> Statutory rape education and awareness
    <bullet> Parent/child centers
    <bullet> Family focus group

Statewide/Local Programs

    <bullet> Of the states funding specific teen pregnancy 
prevention/out-of-wedlock birth programs, 16 indicated that 
they are using funds to run statewide programs, 13 states 
indicated that they are supporting local programs, and 14 
states indicated that they are supporting both statewide and 
local efforts. (The total does not equal 46 because combined 
teen pregnancy/abstinence programs are listed under 
abstinence.)
    Connecticut is using a combination of state and TANF funds 
to support eight teen pregnancy programs. These programs 
attempt to address a range of services and supports. 
Pennsylvania, as part of the governor's ``Project for Community 
Building,'' is implementing a statewide, five-year plan to 
promote abstinence to adolescents. Rhode Island coordinated a 
state strategy by bringing together the Departments of 
Children, Youth and Families, Health, Education, and Human 
Services. The multifaceted effort has focused on ``Positive 
Asset Development'' in youths. The statewide plan also includes 
a media campaign, a male-responsibility project, and the use of 
male role models. Utah has used TANF funds for training staff 
engaged in case management, teaching workers how to bring up 
family planning services and how to use resource and referral 
techniques.
    While these statewide approaches involve the participation 
of local parties, other states have sent funds directly to the 
local level. Many times these funds are awarded by requests for 
proposals (RFP); some states award money by formula. Most of 
Colorado's 63 counties have some prevention efforts underway. 
Services include programs to develop parenting skills, father 
involvement, and family planning services. Virginia has 
recognized 50 coalitions in more than 100 communities by 
distributing $1 million in TANF funds. These coalitions were 
required to conduct local community meetings on out-of-wedlock 
births and submit a resolution to their local elected body 
agreeing to make efforts to reduce the out-of-wedlock 
birthrates. The state has also committed to pass along any 
federal bonus funds to the communities that reduce their rates 
the most. Wisconsin established criteria for abstinence-only 
education grants and funds were awarded to the 13 local 
programs that met those criteria. New York transferred $7 
million in TANF funds to the Department of Health to be 
targeted to programs of community health education and outreach 
and to community-based adolescent pregnancy prevention 
programs. The Oregon STARS (Students Today Aren't Ready for 
Sex) program for high school and middle school students is a 
school-based curriculum available in most of the state's 
schools. The program's focus is to engage teens in a discussion 
on sexuality and parenthood. South Carolina has set aside $10 
million in TANF funds to be provided to each of the state's 46 
counties over a three-year period. The programs to reduce out-
of-wedlock rates will be developed to reflect local community 
values. Louisiana has targeted the New Orleans area due to its 
high out-of-wedlock birthrate. As part of the state's strategy 
it has awarded 10 contracts to develop school-and community-
based projects.
Abstinence-Only Approaches

    <bullet> Of the states funding abstinence education, nine 
indicated that they are using funds to run statewide programs, 
18 states indicated that they are supporting local programs, 
and 19 indicated that they are supporting both state and local 
efforts.
    Arizona is using $2 million in TANF funds and combining 
these dollars with its Title V funds into a single abstinence-
only program. The program includes a media campaign and 
evaluation component and a variety of abstinence curricula. 
Funds are awarded to local groups. The District of Columbia's 
Public Health Department has developed a collaborative effort 
around the abstinence approach. The department is working with 
a number of groups including the Mayor's Committee to Reduce 
Teen Pregnancy and Out-of-Wedlock Births and the Metropolitan 
Police Boys and Girls Clubs. They are participating in the 
``I'm Worth the Wait'' education curriculum. The District plans 
to involve 10 additional organizations and agencies in the 
effort. Massachusetts has developed the ``Abstinence Education 
Media Campaign.'' A series of television and radio ads were 
developed and aired with a target audience of 9- to 14-year-
olds. The ads also target parents of teens. The state is 
building on that effort by adding a parent education film, 
facilitator's guide, and youth and parent brochures and 
posters. A number of planned community events and messages 
educate youths about the relationship of alcohol and other 
substances to sexual assault and the ability to remain 
abstinent. Michigan is using its funds to assist 18 community 
coalitions that have developed and implemented community-
specific education, outreach, and awareness activities targeted 
to 9- to 14-year-olds. Maine has developed a media campaign 
targeted to parents of teens in an effort to increase parent-
teen communication. The media campaign is reinforced with 
information packets to parents providing tips on how to talk to 
their children about sex.

Media Campaigns

    <bullet> 12 states reported that they are using media 
campaigns as part of their teen pregnancy/out-of-wedlock birth 
prevention efforts and 26 states reported that they are using 
media campaigns as part of their abstinence education programs. 
(Many of these states used Title V funding, but four states 
reported that they combined TANF and Title V Funds for a 
campaign.)
    States have increasingly turned to the media in their 
efforts to reach ``Generation Y.'' These campaigns are usually 
part of a larger strategy and are intended as an ongoing 
effort. In a recent study, Delaware found that more than 68 
percent of its residents have seen the messages being conveyed 
by its media campaign on abstinence. The Delaware campaign uses 
radio, billboards, print media, and bus tags with an emphasis 
on getting parents to communicate with their children about 
abstinence. Mississippi joined forces with a local marketing 
research firm that provided pro bono services. The 
collaboration resulted in a multimedia ``Just Wait'' campaign 
that includes a 16-minute documentary called ``Heat of the 
Moment.'' The documentary offers advice from teens to teens 
about the results of teen pregnancy. Wyoming has combined the 
use of TANF and Title V funds in an abstinence campaign. 
Wyoming has targeted 9- to 14-year-olds with a radio and 
television campaign. The message's secondary target is parents 
and older siblings. A toll-free telephone number is also part 
of the strategy.

Appointed Councils

    <bullet> Two states reported that they have councils or 
committees appointed by the governor specifically to develop 
teen pregnancy/out-of-wedlock birth reduction and/or abstinence 
programs.
    The governor of Arkansas appointed a 10-member steering 
committee and hired an abstinence coordinator to develop a 
strategy. One result of this effort was two statewide 
conferences in November 1997 and May 1999. A 25-member 
legislatively appointed committee also was created to assist in 
the development of a pregnancy-prevention strategy. In Idaho 
the governor has created a 15-member council on Adolescent 
Pregnancy Prevention, comprised of members of key state 
departments, private business, health care professionals, and 
adolescents. The council has three subcommittees targeted to 
infrastructure, educational resources, and media strategy.

Evaluation Efforts

    <bullet> 13 states indicated that they are using funds to 
develop and implement evaluation methods for statewide and 
local abstinence and/or teen pregnancy prevention/out-of-
wedlock birth programs.
    Florida is funding five pilot projects on teen pregnancy 
prevention strategies and at the same time evaluating the 
different approaches. Built into Iowa's abstinence education 
grant program is an evaluation of its four school-based 
curricula. Rhode Island has built an evaluation component into 
its Male Responsibility Project. The program aims to prevent 
``too-early'' fatherhood and the projects will be evaluated on 
their capacity to achieve specific outcomes such as increased 
abstinence, increased condom use, increased school attendance 
and improved grades, and improved access to medical care. A 
decrease in negative risk-taking behaviors and other measures 
are also part of the evaluation process.

Family Planning Services

    <bullet> 15 states reported that they are including family 
planning and sex education in their teen pregnancy/out-of-
wedlock birth prevention programs.
    California has used TANF funds for a Family Planning 
Information Project for TANF recipients. The goal of the 
project is to educate all audiences about the availability of 
free and low-cost services. An advertising campaign that also 
reaches the general population is part of this effort. Alaska 
has targeted areas with high teen pregnancy birthrates and high 
numbers of unintended pregnancies. The services include a fee 
system that enables women with incomes lower than 200 percent 
of poverty, who are not receiving Medicaid and have no other 
source of insurance, to receive these services at no cost. As 
part of a major coordinated effort between the Department of 
Health and the Department of Human Services, Ohio has allocated 
$250,000 of TANF funds for family planning services targeted to 
the prevention of out-of-wedlock births. Kentucky has 
transferred funds into Title XX, the Social Services Block 
Grant, to provide family planning and a range of other 
prevention services.
Males and Teen Fathers

    <bullet> Four states have targeted males or teen fathers 
for special services or prevention efforts.
    Georgia has funded 28 statewide comprehensive programs 
funded from $3.9 million in TANF funds. These programs include 
some that target the male population. These programs for males 
promote responsible behavior, responsible fatherhood, and 
abstinence. Indiana uses a combination of federal and state 
TANF funds for a local grant program, the ``Restoring 
Fatherhood'' initiative. Maryland has invested approximately $1 
million over three years to serve 150 families through the 
``Responsible Choice Home Visiting/Father-Involvement 
Program.''

Case Management for Target Populations

    <bullet> 24 states reported that they are including case 
management of TANF recipients or high-risk teens in their teen 
pregnancy/out-of-wedlock birth prevention programs.
    As part of its case management services, Vermont provides 
information about the financial and emotional impacts of teen 
pregnancy and parenting. Ohio's Learning Earning and Parenting 
(LEAP) program is a case management program that pre-dates 
welfare reform. LEAP targets teen mothers with a goal of 
keeping them in school and preventing a second birth. 
Missouri's Teen Education Attainment Model (TEAM) is a school-
based case management program that targets high-risk teens with 
special support services to assist them in obtaining a diploma.
                        Specific State Programs
    For each state, the initiatives listed under the heading 
``Teen Pregnancy Prevention'' or ``Teen Pregnancy Prevention/
Out-of-Wedlock Birth Reduction'' describe the use of TANF 
funds, while the initiatives listed under ``Abstinence 
Education'' describe the use of Title V funds. Where TANF funds 
are used for abstinence education or TANF and Title V funds are 
combined, the initiatives are listed under the heading ``Teen 
Pregnancy Prevention/Abstinence Education.'' If a state is not 
currently using TANF or abstinence education funds, no heading 
or initiatives are listed. This does not indicate that 
prevention efforts are not taking place but that the state is 
using other departments or funds (such as public health) to 
pursue prevention strategies.
Alabama
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
Alabama's TANF program provides family planning information and 
referrals to applicants and recipients of its Family Assistance 
and JOBS programs. Eligibility is not dependent on acceptance 
or use of family planning.
    Abstinence Education. Abstinence funds are being used for a 
media campaign and to support local projects selected and 
evaluated by a state advisory committee.
Alaska
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
The Unintended Pregnancy Prevention Initiative is a strategy to 
reduce unintended births to low-income, unmarried women through 
an extensive outreach and education campaign. Family planning 
clinical services target areas with high birthrates, high 
numbers of teen births and births to unmarried women, high 
numbers of unintended births to all ages, and births to teens 
and women on Medicaid. The family planning services include 
development of a capitated fee system that enables women whose 
incomes are at or below 200 percent of poverty, and who are not 
receiving Medicaid and have no other insurance available for 
family planning services, to receive these service at no cost. 
In addition, the Statutory Rape Education Program is being 
designed to work with employers and government entities to 
provide education on the problem of statutory rape. A media 
campaign of statewide television and radio broadcasts will 
begin in July 1999, focusing on parent-child communication 
about sex, males and statutory rape, males and child support 
enforcement, contraception, teens and HIV, and the importance 
of teen pregnancy prevention and general awareness.
    Abstinence Education. All abstinence education funds are 
given to local communities as grants for various abstinence 
programs and initiatives.
Arizona
    Teen Pregnancy Prevention/Abstinence Education. Arizona is 
using $2 million in TANF funds combined with Title V abstinence 
funds for a single program. These funds are used to support a 
media campaign and to support and evaluate community-based 
service programs targeting youths, their parents, and adults 
who work with youths. The message in the education and media 
components is ``abstinence until marriage.'' Grantees are using 
a variety of abstinence curricula and the media campaign 
consists of three television spots, two radio spots, two 
brochures, and a web site.
Arkansas
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
Arkansas established a 25-member legislatively appointed 
committee to develop teen pregnancy prevention programs and 
hire a program coordinator. Arkansas has formed a 15-county 
coalition to identify and implement strategies to reduce out-
of-wedlock births. TANF funds were used to hire a technical 
assistance/evaluation provider to assist the counties with 
their projects. The state also held a statewide youth 
conference on Unwed Teen Pregnancy Prevention in December 1998, 
and began a new media campaign in February 1999. The campaign 
featured locally developed spots with 10 television and 40 
radio stations. Three grantee training sessions were also 
sponsored to assist in developing strategies for youth 
conferences, coalition building, and other activities.
    Abstinence Education. The governor of Arkansas has 
appointed a 10-member steering committee and hired an 
abstinence education coordinator. Arkansas used federal funds 
to hold statewide conferences on abstinence education in 
November 1997 and May 1999, and awarded 16 education grants 
from March through December 1998. The state expects to award 19 
grants in 1999. A statewide media campaign on abstinence 
education was initiated in February 1999.
California
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
California has used TANF funds for a Family Planning 
Information Project for welfare recipients. The goal of the 
project is to educate all audiences about the availability of 
free and low-cost family planning services. Information is 
distributed at county welfare offices and through general 
population advertising campaigns.
Colorado
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
Colorado is a county-administered state; therefore it has no 
single statewide teen pregnancy prevention program. However, 
most of its 63 counties are investing TANF or state and county 
MOE funds in a variety of services designed to improve 
parenting skills, promote father involvement, promote child 
development, and prevent teen pregnancies.
    Teen Pregnancy Prevention/Abstinence Education. Colorado 
counties are also using TANF funds for a variety of abstinence 
education efforts. For example, Larimer County has budgeted 
$29,000 to help address the problem of unwed pregnancies by 
providing financial assistance for family planning supplies and 
increasing outreach to women in low-paying jobs to improve 
awareness of family planning options.
Connecticut
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
The Connecticut Department of Social Services is using a 
combination of both state and TANF funds to support eight teen 
pregnancy prevention programs throughout the state. These 
programs follow a model designed by Dr. Michael Carrera, who 
serves as a consultant and technical advisor on teen pregnancy 
prevention. These programs are dedicated solely to primary 
prevention of teen births (first-time births). The Carrera 
model involves comprehensive, long-term, intensive programming 
for adolescent and pre-adolescent girls and boys. It emphasizes 
education, providing academic support to help youths succeed 
and stay in school; career preparation, including work 
experience and community service; family life and sexuality 
education; and recreation.
Delaware
    Teen Pregnancy Prevention/Abstinence Education. Delaware 
has continued its media campaign, using billboards, print, 
radio, and bus tags advocating abstinence and increased 
parental communication with their children regarding sexuality. 
A recent study reported that more than 68 percent of all 
Delaware residents have seen the messages. Funding has also 
gone to community groups in targeted communities and for mini-
grants to promote abstinence through a variety of after-school 
and parent-child retreat activities. Efforts to reduce out-of-
wedlock births have included statewide conferences with 
recognized speakers, bringing together leaders of community-
based organizations to address this issue. Planning is underway 
to develop a comprehensive youth development program in the 
state's urban areas with high rates of teen pregnancy. This 
project plans to pool resources from all major funding streams, 
including TANF, Title V, Title X, state funds, etc.
The District of Columbia
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
The District of Columbia is using TANF funds to provide 
assessment and ongoing case management for teen parents and 
their children. Pilot projects will engage youths in after-
school programs, promoting academic and personal development, 
and encourage parental involvement in the lives of their 
adolescent children.
    Abstinence Education. The DC Department of Public Health's 
Abstinence Education Project has developed an ongoing 
collaborative partnership with other youth service agencies. 
The Department of Recreation's Youth Intervention Division, 
Planned Parenthood, DHS, the Mayor's Committee to Reduce Teen 
Pregnancy and Out of Wedlock Births, and the Metropolitan 
Police Boys and Girls Club participate in training to teach the 
``I'm Worth the Wait'' abstinence education curriculum to the 
youths in their programs. The District plans to link an 
additional 10 agencies and organizations to this program. Over 
a four-month period, the Abstinence Education Project has also 
provided 360 DC public school students with abstinence 
education and information through classroom education sessions.
Florida
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
Florida is evaluating five pilot projects on teen pregnancy 
prevention. These projects are holistic models that provide a 
comprehensive range of services designed to give youths a 
``vision of a future.'' Program components include family life 
and sexuality education, medical and mental health services, 
tutoring, job and career activities, mentoring, and community 
service activities. Each program includes instruction and 
emphasis on the value of abstinence. Parents of at-risk teens 
are encouraged to participate with their children. The programs 
serve about 1,600 at-risk middle school teens.
    Abstinence Education. The Department of Health has awarded 
17 state-wide abstinence education grants to community-based 
organizations, religious institutions, and public health 
agencies for classroom instruction, after-school activities, 
enhancing self-esteem, goal setting, decision making, 
negotiation/refusal skills, counseling, life skills training, 
peer education/mentoring, and parent education. Florida has 
also funded a statewide media campaign targeting 9- to 14-year-
olds, their parents, and the community, to encourage abstinence 
and reduce the out-of-wedlock birthrate.
Georgia
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
Georgia's Adolescent Health and Youth Development program has 
28 statewide comprehensive programs funded from TANF funds 
totaling $3.9 million. Programs are aimed at reducing risk 
behavior and poor health outcomes. Male involvement programs 
are aimed at promoting responsible behavior, fatherhood, and 
abstinence; community involvement as the mechanism for the 
direct involvement of parents, youths, and others in promoting 
positive youth development; and outreach activities designed to 
create awareness and access among hard-to-reach youths and 
their families. TANF recipients are also required to sign a 
Personal Responsibility Plan for themselves and members of 
their households. Policy requires that all children in the 
household age 13 and older attend family planning counseling 
that includes a wide pregnancy prevention messages.
    Abstinence Education. Georgia receives $1.5 million in 
federal funds for abstinence education activities and uses a 
variety of strategies, including a media campaign designed to 
motivate youths to abstain from sexual activity until marriage 
and encourage parent-child discussion on appropriate and 
expected sexual behavior and distribution of competitive grant 
awards to youth-serving community organizations. More than 50 
community-based organizations have been funded to initiate or 
expand abstinence education efforts, including mentoring, 
academic tutoring, recreational activities, character and 
values clarification, relationship building, decision making, 
and refusal skills.
Guam
    Abstinence Education. The Department of Public Health and 
Social Services administers the Abstinence Only Education (AOE) 
program, funded by abstinence education funds. In FY 1999, 
funds were used to conduct a ``Train the Trainers'' seminar on 
the AOE project to educate program providers about strategies 
for teaching adolescents and young adults, developing 
curriculum, and conducting pre-and post-evaluations. The AOE 
program coordinator is working with program trainers to begin 
the Partnership for Abstinence Only to address the reduction of 
out-of-wedlock birth rates. The AOE program coordinator also 
collaborates with the health educator to distribute brochures, 
pamphlets, and posters at mini-health fairs and conduct 
educational sessions at various public schools.
Idaho
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
Idaho is using TANF funds to support the Governor's Council on 
Adolescent Pregnancy Prevention. The council is composed of 15 
members from public health, education, and welfare agencies, 
private business, adolescents, health care providers, local 
officials, media, clergy, and parents. The council includes 
three committees focusing on community infrastructure, 
educational resources, and mass media campaigns. The council 
intends to support local coalitions through guidance and 
resource materials, training workshops, and assistance in 
organizing community awareness efforts. A statewide media 
campaign is focusing on various messages, from encouraging 
parent-adolescent discussions to creating positive peer 
pressure, to relating the legal obligations associated with 
parenthood, as well as lifestyle changes. The slogan for the 
campaign is: ``Sex lasts a moment, being a parent lasts your 
whole life.''
    Abstinence Education. Abstinence funds support the 
development of community coalitions that work with the 
Governor's Council on Adolescent Pregnancy Prevention to raise 
awareness of the impact of adolescent pregnancy.
Illinois
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
Illinois is using $4.4 million and $5 million in TANF funds in 
state FYs 1999 and 2000, respectively, to support the Teen 
REACH (Responsibility, Education, Achievement, Caring, and 
Hope) program. The program seeks to provide structured 
activities during out-of-school time to expand the range of 
choices and opportunities that enable, empower, and encourage 
youths age 10 to 17 to achieve positive growth and development, 
improve expectations and capacities for future success, and 
avoid and/or reduce risk-taking behaviors such as substance 
use, criminal involvement, violence, and sexual activity. The 
program tries to improve participants' academic achievement; 
provide opportunities for demonstrating positive social skills, 
instructions, and relationships through supervised sports, 
recreation, and other program activities; provide opportunities 
for demonstrating positive social behavior through adult and 
peer mentoring; and encourage positive decision-making skills 
that discourage negative risk-taking behaviors. An underlying 
goal is strengthening parental involvement in the lives of 
participating youths. Out-of-school programs are provided by 
contracted agencies in selected communities across the state.
    Abstinence Education. For state FY 1999 the department 
contracted with 31 agencies in selected areas across the state 
to address the instances of births to unmarried women, 
especially teens. The goals of the Illinois Abstinence Only 
Education program are to reduce the proportion of adolescents 
who have engaged in sexual intercourse, incidence of sexually 
transmitted diseases among teens 15 to 19 years old; fertility 
rate among teens 15 to 17 years old; pregnancy rate among teens 
15 to 17 years old; and the number of teen parents receiving 
TANF in the state.
Indiana
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
TANF funds and MOE expenditures provide part of Indiana's 
family planning funding and Restoring Fatherhood initiative 
funding. Both programs grant funds to local community programs 
to strengthen families and reduce the incidence of unplanned 
pregnancies.
    Abstinence Education. Indiana's abstinence education funds 
are used for the Project RESPECT program which is run by its 
state Department of Health. Project RESPECT is mainly a mass 
media and education program to discourage teen pregnancy. 
Because Indiana has two sources of funding for programs dealing 
with teen pregnancy--federal abstinence education funds and 
state funds from a line item in its health department budget--
local communities can select which funds they prefer to use. 
Federal funds support organizations that stress abstinence 
until marriage, while state funds support organizations that 
stress abstinence throughout the teen years (and teach family 
planning, contraception, etc.). Currently, 52 local youth-
serving organizations rely on federal funds, and 29 local 
organizations rely on state funds.
Iowa
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
Iowa has a nine-year-old Adolescent Pregnancy Prevention 
Program that uses $760,000 of TANF funds and in state FY 2000 
will support nine community groups that applied to work on 
adolescent pregnancy prevention. The state also uses the money 
for a statewide media campaign, a statewide coalition grant, 
and a statewide evaluation grant for the community groups. Iowa 
also uses TANF funds ($1.99 million) for family planning 
services, available to teens based on income.
    Abstinence Education. The Department of Health uses this 
money for four school-based curriculum development grants, as 
well as for funding an evaluation of those programs. A portion 
of that money was also given to maternal child health clinics 
that competed for grants.
Kansas
    Teen Pregnancy Prevention/Abstinence Education. Kansas 
requires the provision of intensive case management services to 
teen parents who receive cash assistance. In state FY 2000, 
$200,000 in TANF funding has been reserved to evaluate one teen 
pregnancy case management project and one primary prevention 
abstinence program. Both programs are currently operating in 
the state. The remaining funds are earmarked for 
transportation, child care, or other intervention strategies 
that may lead to enhance program participation.
    Abstinence Education. Kansas has developed an abstinence 
education program with performance measures for the rate of 
teen pregnancy, the percentage of out-of-wedlock births to 
teens, and the rate of teen births fathered by men age 20 and 
older. The abstinence education grant is administered by the 
Department of Health and Environment.
Kentucky
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
Kentucky transferred TANF funds to the Social Services Block 
Grant for a variety of activities, including family planning 
counseling in local health departments ($.5 million in state FY 
1999 and a projected $1 million in state FY 2000), and 
providing family planning information and pamphlets to local 
welfare offices.
    Teen Pregnancy Prevention/Abstinence Education. Abstinence 
education funds were used to help support a statewide 
television, radio, and poster campaign in 1998. Tagged ``Get a 
Life First--Wait to Have Sex,'' the campaign promoted sexual 
abstinence among teens. TANF funds are being used in 1999 to 
support a new campaign titled ``If You Think You're Ready for 
Sex, Are You Ready for This?'' The campaign focuses on the 
consequences of sexual risk behaviors, and is also supported in 
part by TANF funds.
Louisiana
    Teen Pregnancy Prevention/Abstinence Education. The DSS has 
initiated a pilot project to reduce teen pregnancy in the areas 
of New Orleans with the highest teen birthrate. Ten contracts 
were awarded to create school-and community-based programs. 
Components of the project are youth development, comprehensive 
health/family life education, parental involvement, mental 
health/counseling, and male involvement. Target groups are 11- 
to 19-year-old students, teen parents, and the adult parents/
caretakers of the teens. The agency has awarded a grant to the 
Louisiana Initiative for Teen Pregnancy Prevention for a 
statewide billboard campaign to promote communication between 
parents and children regarding abstinence. The billboards will 
be placed twice this year to coincide with the state and 
national teen pregnancy prevention months. The agency is also 
in the process of requesting proposals for a statewide media 
campaign to provide education regarding teen pregnancy 
prevention and to develop an awareness of the effects of teen 
pregnancy on the family and society.
Maine
    Abstinence Education. Maine's Abstinence Education Media 
Campaign has focused on the need for parent-teen communication 
about sexuality. Through TV spots emphasizing the importance of 
such communication, and information packets for parents giving 
tips on how they can talk with their teens about sexuality 
issues, the media campaign has sought to reduce teen 
pregnancies (most of which are to unmarried women). Maine also 
has an ``Abstinence Works'' presentation for middle school 
students, ``Positive Choices, Positive Futures'' for parents of 
adolescents, and three community grants to community action 
teams. The targeted age group is 9- to 14-year-olds (and their 
parents), and an emphasis is placed on the cultural 
appropriateness of the messages.
Maryland
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
The Maryland Department of Human Resources (DHR) will invest 
approximately $1 million over three years to serve 150 families 
through the Responsible Choice Home-Visiting/Father-Involvement 
Program. This program serves young adults who are expecting 
their first child and are receiving and/or grew up in a family 
receiving cash assistance. The program aims to reduce 
subsequent non-marital births, increase the employment rate, 
and improve the long-term involvement of both parents in 
rearing their child. The program follows the Healthy Families 
America model for home-visiting services for prenatal and early 
infancy home visits. On-site services are also offered 
including GED and employment training, job search assistance, 
and parenting classes. Biological fathers receive mediation 
counseling, paternity establishment assistance, and peer 
support groups in addition to the other services. Each program 
site has a male involvement coordinator who oversees these 
services.
    Abstinence Education. The Department of Health and Mental 
Hygiene uses abstinence education funds to help community 
organizations collaborate on state media abstinence campaigns 
and offer after-school youth development programs with 
alternative activities. DHR sponsors the Best Friends program, 
a sub-initiative of the Responsible Choices Demonstration 
Project, which aims to prevent non-marital births by promoting 
self-esteem, fitness, and community awareness to pre-teen 
girls. The program will likely expand in the near future to 
make eligible all fourth-and fifth-grade girls at DHR-funded 
sites.
Massachusetts
    Teen Pregnancy Prevention. Massachusetts has a continuum of 
programs and services in place for women and adolescents to 
assure good pre-conceptual health for women and to prevent teen 
pregnancies. Programs include a variety of health services and 
health promotion programs, including community-based prevention 
activities to decrease teen pregnancy and other at-risk 
adolescent behaviors. The Challenge Fund: Teen Pregnancy 
Prevention Program provides funding to communities with high 
teen pregnancy rates to develop a continuum of primary 
prevention services intended to increase abstinence, delay the 
onset of early sexual activity, and reduce the rate of teen 
pregnancy and other related high-risk health behaviors among 
adolescents.
    Abstinence Education. Massachusetts funds abstinence-based 
pregnancy prevention through in-school programs that target 
middle-school youths. The goal is to delay the onset of sexual 
activity in pre-adolescents and to increase the number of 
youths who choose to remain abstinent through programs 
specifically designed to increase resiliency and academic 
skills. The Abstinence Education Media Campaign was developed 
for abstinence-only programs through a federal grant under 
welfare reform. The goal of the campaign is to increase the 
number of youths who choose to remain abstinent. A series of 
television and radio ads was developed and aired for pre-
adolescent males and females ages 9 to 14, with clear messages 
that support abstinence outside of marriage and the benefits of 
waiting. Messages encouraging parents to communicate openly 
with their children about the importance of abstinence were 
also developed and aired. During 1999, a parent education film, 
facilitator's guide, and youth and parent brochures and posters 
will be completed. In addition to a number of planned community 
events, messages that educate youths about relationship of 
alcohol and other substances to sexual assault and the ability 
to remain abstinent will be produced and aired. All messages 
are developed with the input of youths, parents, and other 
local community members, and will be available in both English 
and Spanish. A statewide advisory committee comprised of 
parents, community members, and educational representatives 
oversees the entire campaign.
Michigan
    Abstinence Education. Michigan is using abstinence 
education funds to support 18 community coalitions that have 
developed and implemented community-specific education, 
outreach, and awareness activities targeting 9- to 14-year-olds 
as well as older teens. The activities aim to address the risks 
of sexual activity and associated behavioral risks and 
influence decisions to delay sexual activity among teens. Funds 
are also being used to develop media messages targeting teens 
and parents, and support a broad-based state-level partnership 
of consumer, advocate, professional, and laypersons to 
establish principles and practices guiding the use of 
resources.
Minnesota
    Teen Pregnancy Prevention/Abstinence Education. The 
Minnesota TANF program, Minnesota Family Investment Program, 
encourages personal responsibility and self-sufficiency. The 
Minnesota DHS works in partnership with the Department of 
Health and its efforts in abstinence education.
    Abstinence Education. Minnesota's Education Now and Babies 
Later (MNENBL) promotes abstinence education of adolescents 
ages 11 to 14 with the goal of preventing future unplanned 
pregnancies and dependence on assistance. The program supports 
14 grantees.
Mississippi
    Teen Pregnancy Prevention/Abstinence Education. Mississippi 
DHS joined forces with a local marketing research advertising 
firm that worked pro bono to develop a multimedia ``Just Wait'' 
abstinence campaign. The campaign included a 16-minute 
unscripted documentary, ``Heat of the Moment,'' in which teens 
offer abstinence to fellow teens as a real choice and solution 
to the problems of teen pregnancy and sexually transmitted 
diseases. The documentary and a set of posters extracted from 
it have been distributed statewide to schools, libraries, 
churches, and other youth-serving organizations. Organizations 
from 22 states have used copies of the documentary. The 
campaign also incorporated two public awareness campaigns (one 
targeting parents and one targeting teens) that used radio and 
television public service announcements plus purchased spots, 
print ads, and billboards. The ``Just Wait'' abstinence unit 
provides further abstinence-only materials and presentations 
upon request. The state legislature passed a bill at the 
recommendation of the Mississippi Task Force on Reducing Out-
of-Wedlock Pregnancies which states that abstinence education 
shall be the state standard for any sex-related education 
course in the state's public schools. The task force also 
sponsored the first statewide Abstinence Works! Let's Talk 
About It! Conference on May 4, 1999, which was cosponsored by 
DHS, the Department of Education, Department of Health, 
Mississippi State University Extension Service, and Mississippi 
Family Council.
    Abstinence Education. Abstinence education funds, 
administered through the state Department of Health, have been 
used to support community organizations that teach children 
ages 10 to 19 the rewards of remaining abstinent until 
marriage. The programs teach children the concepts of self-
esteem, self-discipline, and self-respect. Several programs 
have held award ceremonies to reward those children who have 
pledged to remain abstinent until marriage.
Missouri
    Teen Pregnancy Prevention. Missouri uses TANF funds to 
support the Teen Education Attainment Model (TEAM) program. 
TEAM is a case management program based in local school 
districts to assist at-risk teens in obtaining their high 
school diploma. The TEAM program provides supportive services 
to teens in the form of transportation reimbursement, child 
care, training-related expense reimbursements, and case 
management services. TEAM focuses its priorities on parenting 
or pregnant teens as well as those at risk of dropping out of 
school, and encourages teens to stay in school through 
providing the program services.
Montana
    Teen Pregnancy Prevention. A partnership project titled 
``Communicating with Participants: An Introduction to Planning 
A Family'' was initiated by the Women's Health Service (WHS) to 
join efforts with the Public Assistance Bureau (PAB) of the 
Department of Public Health and Human Services to reduce 
unintended pregnancy in Montana. A trainer with extensive 
experience with the Montana Family Planning network and state 
teen pregnancy prevention was hired to develop the curriculum 
and be the lead trainer. The WHS was able to leverage a $24,000 
special initiative Title X partnership grant to obtain an 
additional $50,000 from TANF funds for this project. This 
partnership created a training system for organizations to 
foster low-income families' abilities to make informed 
decisions about planning a family. In addition, the established 
curriculum will be used to develop other statewide partnerships 
to promote family planning referrals from agencies that deal 
with low-income clients at risk for an unintended pregnancy and 
in need of public assistance. Subsequently, family planning 
trainers could train other personnel, such as public health 
home-visiting nurses.
    Abstinence Education. The Title V abstinence education 
funds have not specifically been used to reduce out-of-wedlock 
birthrates. Rather, $60,000 was granted to five communities 
around the state to address the need for parenting education 
programs. These parent-based programs will focus on 
``abstinence until marriage'' for the targeted youth 
population.
Nebraska
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
Nebraska has two specific initiatives in its Aid to Dependent 
Children (ADC) program that are designed to reduce out-of-
wedlock pregnancies. The first is a family cap that does not 
permit the normal increase in an ADC grant when a child is born 
10 months after the applicant or client is informed of this 
policy. In addition, the state only permits a 90-day exemption 
from the employment requirements of the Employment First 
program for those who expand their family.
    Abstinence Education. Abstinence education funds have been 
used for a public education campaign with the theme ``Friends 
First, Friends Forever'' (based on input from a state Youth 
Forum). The state also awarded funds, curricula, training, and 
technical assistance to six communities with the highest levels 
of teen births in 1997 to develop community-specific strategies 
promoting abstinence until marriage. Each community was offered 
a choice of curricula as well as technical assistance. The 
state has developed an evaluation component to measure the 
effectiveness of these programs.
Nevada
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
The Nevada Welfare Division has contracted with the University 
of Nevada to develop a two-hour training curriculum, manual, 
and compressed video designed to reach state and local law 
enforcement officials, the education system, and relevant 
counseling systems that provide education and training on the 
problems of statutory rape. Teenage pregnancy prevention 
programs may be expanded to include men. The Welfare Division 
has reviewed the final TANF regulations and will be holding a 
Request for Information to obtain community interest in Teen 
Pregnancy Prevention Programs.
New Hampshire
    Teen Pregnancy Prevention. TANF funds have been used to 
fund three home visiting projects serving pregnant women under 
25 and their children (up to 2 years old). Many teen mothers 
are served and one goal is to reduce subsequent pregnancies 
among that population.
    Abstinence Education. New Hampshire will use abstinence 
funds to conduct a media campaign geared toward young 
adolescents, stressing abstinence and pregnancy prevention.
New Jersey
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
New Jersey has established a Work First New Jersey (WFNJ) 
Inter-Departmental Adolescent Pregnancy Prevention Work Group 
that promotes collaboration across various state departments 
and oversees a statewide hotline and two mentoring programs 
funded by TANF, collectively known as the Adolescent Pregnancy 
Prevention Initiative (APPI). WFNJ hosted the inaugural 
Adolescent Pregnancy Prevention Month statewide planning 
meeting involving more than 200 stakeholders from across the 
state. The session provided ``how to'' information for planning 
local adolescent pregnancy prevention month events. WFNJ also 
hosted a Statewide Adolescent Pregnancy Prevention Month Pep 
Rally to raise awareness of the adolescent pregnancy prevention 
efforts in New Jersey. In total, $1.1 million in TANF funds is 
devoted to adolescent pregnancy prevention efforts. The School-
Based Youth Services Program (SBYSP) operates in 30 urban, 
rural, and suburban school districts, to provide teens with a 
comprehensive set of services in health care, mental health and 
family counseling, job and employment training, and substance 
abuse counseling. Many SBYSPs also offer on-site child care, 
enabling teen parents to remain in school, attend parenting 
classes, and prevent subsequent pregnancies. The Pinelands 
SBYSP has been successful in reducing pregnancies from an 
average of 20 per year (prior to program implementation) to an 
average of 1-3 pregnancies per year, for the last eight years. 
TANF teen pregnancy prevention funds are also allocated to a 
hotline which takes calls 24 hours per day and focuses on teen 
issues (specifically teen pregnancy prevention). This hotline 
is promoted through posters, wallet-size cards for youths, and 
a public service announcement (PSA) that has been distributed 
to radio and television stations. The PSA is also being 
distributed to local movie theaters.
    Abstinence Education. The New Jersey Department of Health 
and Senior Services (DHSS) oversees the abstinence education 
projects, which are designed to teach pre-teens and teens the 
benefits of abstinence. During July 1998, DHSS awarded grant 
funds for projects to develop or expand youth groups and train 
peer educators; develop or expand community-based education 
efforts on the benefits of abstinence, refusal skills, 
communication, and decision-making skills targeting at-risk 
youths; local or regional mentoring programs; and parenting 
skills training including communications skill building and 
education on sexuality and the benefits of delaying sexual 
activity for youths.
New Mexico
    Abstinence Education. New Mexico has focused its efforts on 
young children (elementary and middle school age) in an effort 
to build social assets according to Peter Benson's positive 
choices curriculum. This is a form of primary prevention which 
combats not only out-of-wedlock births but also other high-risk 
behaviors like drug use and gang membership. New Mexico has 
also designed after-school programs, and has trained health 
educators in local health offices to teach abstinence in school 
and parent settings. The state also has a marketing program, 
the cost of which is split between Medicaid and Title V. It 
publishes a free teen magazine, ``Not Yet: Wait to Have Sex, 
Wait to Have a Baby,'' which is designed to be fun for 
adolescents. The marketing program also makes t-shirts, 
baseball caps, and pins and has developed multiple videos 
linking teen pregnancy and other high-risk behaviors. A recent 
New Mexico responsible sexuality segment won an Emmy Award.
New York
    Teen Pregnancy Prevention/Abstinence Education. In state 
FYs 1997-1998, New York transferred $7 million in TANF funds to 
the Department of Health to target programs of community health 
education and outreach and community-based adolescent pregnancy 
prevention to prevent unintended pregnancy in adults and 
adolescents eligible for TANF assistance. The funds were used 
to significantly expand the Department's Community-Based 
Adolescent Pregnancy Prevention Program (CBAPP) and the 
Comprehensive Family Planning and Reproductive Health Program. 
CBAPP works with communities, providing information and 
education, promoting abstinence, expanding educational and 
recreational opportunities for teens, and providing access to 
comprehensive reproductive health care services to sexually 
active teens. Funding was also provided to 65 family planning 
agencies with more than 230 service sites.
    Abstinence Education. The Department of Health has 
purchased the Not Me, Not Now media campaign developed in 
Monroe County. The campaign runs from fall 1998 to fall 1999 
and features television, radio, billboard, and bus ads. The 
department also began a community-based component with 
approximately $5.6 million in federal and state matching funds. 
This program will provide community information, abstinence 
education, outreach to high-risk youths, and services to young 
males.
North Carolina
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
North Carolina is conducting a statewide media campaign and 
training initiative with the message: ``Parents, talk to your 
children about sex.'' The state is funding training events and 
programs for professionals who work with children, as well as 
supporting the development of an evaluation system for teen 
provider programs. Other efforts include supporting adolescent 
parenting and prevention programs and local coalition programs. 
For state FY 1999, $2 million of the TANF block grant was 
targeted to these programs.
North Dakota
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
North Dakota requires parenting skills training for adult 
recipients of its cash assistance program when deemed 
appropriate, and provides education programs for dependent 
children. The state aims to address the immediate problem with 
teens and to work on the long-term effort to break the welfare 
cycle.
    Abstinence Education. Funds are granted to local government 
and public entities for a wide range of abstinence education 
including media campaigns and health education programs in 
local schools.
Ohio
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
The Ohio Wellness Block Grant is a statewide initiative, with 
each of the state's 88 counties receiving funding to reduce 
teen pregnancy. The target population is youths between the 
ages of 10 and 19. Each local Family and Children First (FCF) 
council has identified specific subpopulations within this age 
range for services. The Department of Youth Services receives 
an allocation as Ohio's 89th county due to the high rate of 
teen pregnancy in its incarcerated population. Local FCF 
councils have responsibility for planning, priority setting, 
selecting prevention strategies, allocating resources, 
monitoring programs, and tracking results. Program activities 
include mentoring programs, asset building, peer support 
programs, resource libraries, teen help hotlines, teen 
parenting programs, media campaigns, and home visitation 
services. Local councils report that awareness about teen 
pregnancy among public agencies and local service providers has 
substantially increased, that many nonprofit agencies are 
working more collaboratively, and that schools are becoming 
more connected to social service organizations. The Ohio 
Learning, Earning and Parenting (LEAP) program is a statewide 
initiative, designed to help teen parents complete high school 
and reduce the incidence of second pregnancies. The LEAP 
program combines support services with case management, and 
incentives for school attendance, grade completion, and 
graduation, with penalties for non-attendance. The LEAP program 
affects about 8,000 teen parents each year. In the last three 
years, Ohio has combined efforts with Early Start (a home 
visiting program) to provide additional services to teen 
parents to assist with pregnancy prevention and care of young 
children. In the fiscal year beginning July 1999, the Ohio 
General Assembly created the Ohio TANF Family Planning Program. 
It will provide $250,000 of TANF funds for pre-pregnancy family 
planning services designed to prevent out-of-wedlock births. 
This is a joint effort between the Ohio Department of Health 
and the Ohio Department of Human Services.
    Abstinence Education. The Ohio Department of Health 
administers the abstinence education program and provides 
funding to 34 (in state FY 1999) agencies to conduct 
programming in school settings. Funded agencies include 
community-based and youth-serving organizations that have not 
traditionally received funds from the department; local health 
departments; local school districts; hospitals; an FCF council; 
a county department of human services; and a prosecuting 
attorney''s office. Program activities include age-appropriate 
curricula and presentations to teach abstinence from sexual 
activity and other associated risk behaviors for unmarried 
teens. Social skill instructions, character-based education, 
asset building to promote self-esteem, as well as parent 
education, are other program approaches that agencies use in 
reaching youths.
Oklahoma
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
The Family Support Services collaborated with the Health 
Department to expand and develop already existing teen 
pregnancy outreach programs. The new program hires TANF 
recipients as outreach workers who target high-risk teens and 
families. This is currently a pilot program in a few counties. 
TANF dollars also help to fund programs that specifically 
target first-time mothers, hoping to reduce the chance of a 
second birth.
    Abstinence Education. Oklahoma installed an abstinence 
curriculum in high schools in six counties. Each county can 
choose its own curriculum, but the most popular is called 
Facing Reality. Four of the projects have finished their first 
year, and about 1,000 teens have participated in the 
curriculum. Approximately 850 of those were evaluated by the 
University of Oklahoma's Institute for Public Affairs.
Oregon
    Teen Pregnancy Prevention/Abstinence Education. The Oregon 
Adult and Family Services (AFS) Division of the Department of 
Human Resources has worked with and provided funds to local 
organizations to help offer pregnancy counseling to teens and 
raise awareness of the risks and dangers of unwed parenthood. 
TANF funds have been used for the Students Today Aren't Ready 
for Sex (STARS) program. STARS is an abstinence-based teen 
pregnancy prevention curriculum in which teen leaders from high 
schools teach sixth-and seventh-graders how to identify and 
resist pressures that lead young people into premature sexual 
involvement. The program reached about 29,000 students during 
the 1998-1999 school year. The Reduce Adolescent Pregnancy 
Partnership (RAPP) is a network of local coalitions dedicated 
to preventing teen pregnancy. The goal of RAPP coalitions is to 
solidify comprehensive teen pregnancy efforts by both local and 
state partners by providing leadership, support, and assistance 
throughout the state to meet the Oregon benchmark with regards 
to reducing teen pregnancy. In addition to these community 
services, AFS contracts with local partners (such as community 
colleges, etc.) to provide parenting classes and counseling to 
teen parents. The partners provide information regarding 
sexuality and subsequent pregnancy prevention as part of the 
classes and counseling. AFS case managers enter into 
discussions with teen parents as often as the situation permits 
and encourage them to take steps to ensure against subsequent 
pregnancies.
Pennsylvania
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
Pennsylvania is focusing on the issue of teen pregnancies that 
result from relationships with older men through a Statutory 
Rape Task Force and a contract with the Pennsylvania Coalition 
Against Rape (PCAR). The state launched an ad campaign and 
educational program to increase awareness of the statutory rape 
laws among middle school, junior high, and high school students 
and staff. The campaign features posters, a teen magazine, a CD 
of songs about teens in various relationship situations, and 
free concerts at underage dance clubs.
    Abstinence Education. The Pennsylvania Department of 
Health, through the Abstinence Education and Related Services 
(AERS) Initiative, and as part of the Governor's Project for 
Community Building, is implementing a five-year comprehensive 
statewide plan to promote abstinence as a positive lifestyle 
decision for young adolescents. Currently 28 AERS community-
based projects serve 35 counties. The projects will deliver 
abstinence-only education and related services to children and 
adolescents throughout communities and schools. Services 
include mentoring, adult supervision, counseling, and training 
programs for parents, peers, and health professions on how to 
conduct abstinence education. A statewide media campaign is 
also planned to raise public awareness of the benefits of 
abstinence, the negative consequences of teen pregnancies 
outside marriage, and the central role of parents and 
significant others as the prime educators of their youths.
Puerto Rico
    Abstinence Education. Puerto Rico has developed the Puerto 
Rice Abstinence Education Program (PRAEP) to reduce teen 
pregnancy. Its philosophy is abstinence as the only alternative 
that is 100 percent effective in reducing teen pregnancy and 
sexually transmitted diseases. The program includes a ``Sex Can 
Wait'' curriculum developed by the University of Arkansas which 
was implemented in public schools from grades 5 to 12. The 
program will also include peer groups to promote sexual 
abstinence using character development strategies. In total, 
PRAEP has reached 58,182 Puerto Rican adolescents. A mass 
communications media campaign was being developed by students 
during a summer camp in June 1999, and coalitions around the 
island including students, parents, teachers, health 
professionals, local entrepreneurs, and others will develop 
customized socio-recreational activities for their communities.
Rhode Island
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
The Rhode Island Departments of Children, Youth and Families, 
Health, Education, and Human Services are collaborating on a 
comprehensive statewide plan to reduce the incidence of teen 
pregnancy. The efforts focus on ``Positive Asset Development'' 
of youths, and incorporate a holistic approach to youth 
development conveyed through strong, appropriate relationships 
with caring adults. The statewide plan supports statewide and 
local efforts and includes media campaigns for teen pregnancy 
prevention, family planning, and sex education. The Department 
of Health is funding a monitoring program. Rhode Island has 
also initiated the Male Responsibility Project through the 
Department of Human Services. Services are provided by male 
counselors from five community-based organizations that also 
serve pregnant and parenting adolescent girls. The program aims 
to prevent ``too-early'' fatherhood, and the individual 
projects will be evaluated on their capacity to achieve 
specific outcomes such as an increase in abstinence, increase 
in use of condoms, increase in school attendance and grades, 
improved access to medical care, decrease in negative risk-
taking behaviors, and other measures. The five projects will 
operate in 10 cities and towns including the five core cities 
with the highest rates of teen pregnancies. Others are rural, 
suburban, and small town areas.
    Abstinence Education. The Department of Health is using 
federal abstinence education funds for a program that provides 
training and support for male role models. The project is being 
implemented in four areas with the highest teen pregnancy rates 
in Rhode Island. The state also runs an after-school program 
for middle-school adolescents, but is funding it with resources 
other than the federal abstinence education funds.
South Carolina
    Teen Pregnancy Prevention. During the 1998 legislative 
session, the South Carolina General Assembly passed legislation 
that created the County Grants Fund for Adolescent Pregnancy 
Prevention Initiatives. This was funded with $10.5 million of 
TANF funds, intended to be distributed to each of South 
Carolina's 46 counties over a period of three years. The 
purpose of the fund is to support local efforts to prevent 
early sexual activity and to measurably reduce the rate of 
adolescent pregnancy in each county. Programs developed will 
reflect local and community values. Additionally, all 
initiatives funded will emphasize premarital sexual abstinence 
and male responsibility.
South Dakota
    Abstinence Education. The South Dakota Department of Health 
gives subgrants to communities to design their own abstinence 
projects. The department itself approves the projects and 
provides oversight.
Tennessee
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
Tennessee gave $300,000 in grants to 30 counties with the 
highest number of out-of-wedlock births. All four large urban 
counties have teen pregnancy parenting/prevention programs as 
do several rural counties as well. Strategies for these 
programs include mass media campaigns, focus groups, and 
others. Teen programs use individual and group case management 
in and out of school with teen parents. The message of these 
programs is stay in school, be a good parent, plan a career, 
and prevent additional unplanned pregnancies.
    Abstinence Education. The Tennessee Department of Health 
awarded grants to local schools, nonprofit organizations, and 
community groups for abstinence education efforts.
Texas
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
Texas has funded four pilot projects that provide residential 
and non-residential services targeted to teen parents that 
include counseling and parenting skills classes. Additionally, 
Texas funds programs that provide prenatal intervention or at 
birth with high-risk families. Teens identified at this point 
of intervention receive parent education, training, and 
counseling services that encourage families to think about 
their ability and desire to provide adequately for additional 
children, and actively link them to family planning services. 
Some of these programs specifically target teen parents for 
their service delivery to help reduce the number of additional 
teen pregnancies. The Texas Workforce Commission, in 
collaboration with the Texas Department of Human Services and 
the Texas Department of Protective and Regulatory Services, is 
involved in a Second Chance pilot program to reduce and prevent 
the problems teen parents and their children face and to break 
the cycle of welfare dependence. The program will provide 
independent living services and licensed adult-supervised 
living arrangements to teen parents and their children who 
receive TANF assistance. Under this program, a teen parent not 
living with a parent, legal guardian, adult relative, or in a 
licensed adult-supervised living setting, and applying for 
TANF, will be referred to the program provider. The provider 
will assess the needs of the teen parent and either work with 
other agencies to ensure those needs are met, or provide the 
needed services themselves.
    Abstinence Education. Texas held an Abstinence Education 
Conference in July 1998 that was open to abstinence education 
contractors and to the general public. It has funded 32 
entities to provide abstinence education, with activities that 
include classroom instruction and/or assemblies; counseling; 
mentoring; after-school activities like field trips, dances, 
resource library, computer dolls, retreats, community 
involvement, web sites, home liaisons, and a hotline; peers as 
teachers; and media campaigns.
Utah
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
Utah has used TANF funds for six pregnancy prevention contracts 
across the state. It also uses the money for statewide training 
for all staff engaged in case management, teaching them how to 
bring up family planning with customers, and resource and 
referral techniques.
    Abstinence Education. Utah has given abstinence education 
funds to 11 community-based projects in various parts of the 
state, targeting 9- to 14-year-old youths (both boys and 
girls). The state views abstinence only as one part of a 
continuum of pregnancy prevention education, particularly 
appropriate for that age group. The projects take place in 
school, after school, and in private settings. Some curricula 
are standard, such as ``Sex Can Wait'' and ``Postponing Sexual 
Involvement.'' Other curricula are more unique to the locality.
Vermont
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
Vermont provides TANF recipients with individualized case 
management that focuses on helping families reach goals they 
have set for themselves. Information about the financial and 
emotional impacts of teen pregnancy and parenting with a 
partner is included. In addition, TANF funds support a network 
of parent/child centers that include a focus on preventing 
initial teen pregnancies and promoting stable families.
    Abstinence Education. Funds were used to hold focus forums 
with families, design and pilot test an abstinence promotion 
media campaign, and provide fulfillment materials in response 
to the PSA. The campaign targets families of middle-school and 
young high-school students, stresses the connection of 
substance use and unintended sexual activity, and promotes the 
importance of parent-child communication.
The Virgin Islands
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
The Virgin Islands is funding television and radio 
advertisements designed to prevent teen pregnancy and enhance 
responsibility and accountability among teens. It provides 
social work services to TANF recipients and young mothers in an 
effort to prevent and reduce teen pregnancy.
Virginia
    Teen Pregnancy Prevention. In 1997, Virginia offered TANF 
funds to coalitions across the state who joined its ``The 
Commonwealth and You: Partners in Prevention'' initiative. Each 
coalition was required to conduct a local community meeting on 
out-of-wedlock births and submit a resolution from its local 
elected body agreeing to attempt to reduce out-of-wedlock 
birthrates in their communities. To highlight the initiative, 
four regional forums on out-of-wedlock births were conducted by 
the secretary of Health and Human Services and the 
commissioners of Health and Social Services. More than $1 
million in TANF funds were then distributed to 50 coalitions in 
the more than 100 communities who positively responded. 
(Virginia has 134 recognized city and county communities.) 
These coalitions were promised that if Virginia was awarded one 
of the $20 million prizes that Congress offered to five states 
with the best results, the funds would flow through to those 
communities who similarly showed the greatest decrease in out-
of-wedlock births without a concomitant increase in local 
abortion rates. A majority of the coalitions chose to focus on 
teen pregnancy prevention, and were given broad leeway to 
design their own local, grass-roots initiative to help to solve 
this difficult social problem. The Partners in Prevention (PIP) 
initiative did not operate in FY 1999, but will operate again 
in FY 2000, with potential awards reduced to a maximum of 
$15,000 per coalition. The new PIP guidelines will also require 
a focus on 20-30 year olds with an abstinence-only emphasis in 
the approved interventions. Those funds are scheduled to be 
awarded in August. Despite the 13-month lull in support for the 
PIP coalitions, Virginia ranked 12th in its last review of 
comparative state out-of-wedlock rates. Virginia is now working 
with local and state social service leaders to assess the 
potential use of excess TANF funds for preventive approaches to 
youth development and teen pregnancy prevention and is hopeful 
of assisting communities to replicate successful and 
effectively evaluated models of youth development programs in 
several areas of Virginia with these funds.
    Abstinence Education. When Virginia received the initial 
federal funds for abstinence education, the first year's 
initiative involved a statewide media campaign to reduce sexual 
activity before marriage. The ``Not Me Not Now'' media campaign 
from Monroe County, New York, was secured through a contract 
with its founders. Posters and television and radio spots were 
targeted during prime time when adolescents were expected to be 
tuned in. In the second year, six local community programs were 
funded through a competitive proposal process. An evaluation 
system was established to measure the effects of the programs, 
since this type of intervention has not previously been tested 
with adequate sample sizes, control groups, or satisfactory 
evaluative methodologies. The programs are primarily serving 
youths between the ages of 13 and 17. The programs begin their 
second year of development in September.
Washington
    Teen Pregnancy Prevention. The Workfirst program has 
designed flyers and posters focusing on birth control and 
family planning messages. Each community service office 
provides family planning information and services. In most 
offices a family planning worker and/or a public health nurse 
is stationed on site to provide pregnancy prevention services 
and information.
    Abstinence Education. The Department of Health is currently 
receiving funds for abstinence education. These funds have been 
used for seven community-based projects around the state. These 
projects focus on abstinence and public education. The 
Department of Health and the Office of Superintendent of Public 
Instruction have an interagency agreement to provide the ``Teen 
Aware'' program that focuses on abstinence and waiting until 
marriage.
West Virginia
    Teen Pregnancy Prevention/Out-of-Wedlock Birth Reduction. 
West Virginia, using Title V funds, supports a community-based 
initiative to educate, promote, and support communities in 
developing programs focusing on parent-child communication/
interaction; adolescent risk reduction behaviors such as 
alcohol and drug use, and abstaining or postponing sexual 
intercourse. In addition, the state, in collaboration with the 
Domestic Violence Coalition, developed and distributed a 
booklet that addresses statutory rape, and includes strategies 
for helping youths resist coercive sexual advances. Targeted 
efforts to reduce teen pregnancies include the availability of 
contraceptive care at 133 community-based sites throughout the 
state; hiring an adolescent pregnancy prevention specialist to 
work alongside medical, social, educational, and community 
partners designing activities and programs that foster youth 
resiliency; and discouraging early onset of sexual activity.
    Abstinence Education. West Virginia has contracted with 
community organizations for the teaching of abstinence-only 
curricula that adhere to federal statutory requirements. 
Activities and oversight for the Abstinence-Only Initiative are 
directed with input from a statewide advisory body comprised of 
educators, parents, faith-based organizations, and the health 
care community.
Wisconsin
    Abstinence Education. Wisconsin has established the 
Wisconsin Abstinence Education Project (WAEP) which has funded 
13 local abstinence-only education grants, given to programs 
that meet certain criteria for promoting abstinence. WAEP is an 
important part of Wisconsin's new adolescent pregnancy 
prevention plan, Brighter Futures, which proposes a 
comprehensive, community-based approach to pregnancy prevention 
and provides recommendations and strategies for a variety of 
groups, including parents, educators, local officials, youths, 
faith-based organizations, and the health care community.
Wyoming
    Teen Pregnancy/Abstinence Education. TANF and abstinence 
education funds are combined into an abstinence-only media 
campaign called Sex Can Wait Wyoming. This TV and radio 
campaign is aimed primarily at 9 to 14 year olds and 
secondarily at their parents, siblings, and community. It 
features a hotline that people can contact for more 
information. This media program is based on Michigan's similar 
program. Wyoming is also operating an ongoing task force 
composed of state agencies, abstinence-based nonprofits, family 
planning clinics, and family planning nonprofits. Funding is 
primarily received from the TANF grant. The task force sponsors 
an annual pregnancy prevention conference that explores issues 
of unintended pregnancy. The task force has also granted money 
to agencies wishing to expand pregnancy prevention services to 
teens. Future plans are for initiatives to address male 
involvement in the out-of-wedlock pregnancy issue.

                                                 State Contacts
----------------------------------------------------------------------------------------------------------------
                 State                           Department                    Name                  Phone
----------------------------------------------------------------------------------------------------------------
Alabama................................  Human Resources..........  Jean Blackman............     (334) 242-1978
Alaska.................................  Health and Social          Cheryl Adamson...........     (907) 465-3382
                                          Services.
Arizona................................  Economic Security........  Ben Levine...............     (602) 542-0212
Arkansas...............................  Bureau of Public Health..  Donnie Smith.............     (501) 661-2243
California.............................  Social Services..........  Chris Minnich............     (916) 654-1074
Colorado...............................  Human Services...........  Maynard Chapman..........     (303) 866-2054
Connecticut............................  Social Services..........  Zena Kovack..............     (860) 424-5334
Delaware...............................  Public Health............  Prue Kobasa..............     (302) 739-4785
Washington, DC.........................  Public Health............  Ellen M. Wells...........     (202) 727-5930
Florida................................  Health...................  Bridgett Rahim-Williams..     (850) 922-1218
Georgia................................  Adolescent Health........  Ronnie S. Jenkins........     (404) 657-2868
Guam...................................  Public Health............  Lucy S. Cruz.............     (671) 735-7104
Hawaii.................................  Human Services...........  Patricia Murakami........     (808) 586-5230
Idaho..................................  Health and Welfare.......  Galen Louis..............     (208) 334-5957
Illinois...............................  Family Health............  Sue Haury................     (217) 782-2736
Indiana................................  Health...................  Judith Ganser............     (317) 233-1240
Iowa...................................  Human Services...........  Jo Lerberg...............     (515) 281-4207
Kansas.................................  Social and Rehabilitation  Connie Ulmer.............     (785) 296-2465
                                          Services.
Kentucky...............................  Public Health............  James S. Davis...........     (520) 564-4830
Louisiana..............................  Social Services..........  Elaine Fontenot..........     (225) 342-0485
Maine..................................  Human Services...........  Nancy Birkhimer..........     (207) 287-5361
Maryland...............................  Human Resources..........  Stacy L. Rodgers.........     (410) 767-7393
Massachusetts..........................  Health and Human Services  Mary Osterman............     (617) 727-7600
Michigan...............................  Community Health.........  Virginia Harmon..........     (517) 335-9371
Minnesota..............................  Human Services...........  Pam Reinstatler..........     (651) 296-9407
Mississippi............................  Human Services...........  Rebecca Doyle............     (601) 359-4437
Missouri...............................  Health...................  Becky Houf...............     (573) 751-9488
Montana................................  Public Health and Human    Suzanne Nybo.............     (406) 444-3775
                                          Services.
Nebraska...............................  Economic Assistance......  Dan Cillessen............     (404) 471-9270
Nevada.................................  Human Resources..........  Vicki Kemp...............     (775) 687-4715
New Hampshire..........................  Community and Public       Joan Ascheim.............     (603) 271-4516
                                          Health.
New Jersey.............................  Human Services...........  Edward Tetelman..........     (609) 292-1617
New Mexico.............................  Human Services...........  Barbara Otto.............     (505) 841-2973
New York...............................  Health...................  Barbara McTague..........     (518) 474-3368
North Carolina.........................  Public Health and Human    Sydney Atkinson..........     (919) 733-7791
                                          Services.
North Dakota...........................  Human Services...........  Kevin Iverson............     (701) 328-2332
Ohio...................................  Human Services...........  Joel Raab................     (614) 466-1822
Oklahoma...............................  Health...................  Marilyn Lanphier.........     (405) 271-4471
Oregon.................................  Human Resources..........  Jeff Stell...............     (503) 945-6737
Pennsylvania...........................  Public Welfare...........  Gail Bean................     (717) 772-7829
Rhode Island...........................  Children, Youth and        Pamela Goodwin...........     (401) 462-2423
                                          Families.
South Carolina.........................  Social Services..........  Carol Singletary.........     (803) 898-9376
South Dakota...........................  Social Services..........  Donna Keeler.............     (605) 773-4678
Tennessee..............................  Human Services...........  Wanda Moore..............     (615) 313-4866
Texas..................................  Health...................  Jack Baum................     (512) 458-7700
Utah...................................  Workforce Services.......  Shannon Bond.............     (801) 468-0129
Vermont................................  Human Services...........  Cheryl Mitchell..........     (802) 241-2244
Virginia...............................  Social Services..........  Forrest Mercer...........     (804) 692-1297
Virgin Islands.........................  Human Services...........  Lennox Zamore............     (340) 774-4673
Washington.............................  Social and Health          Rachael Langen...........     (360) 413-3209
                                          Services.
West Virginia..........................  Health and Human Services  Pat Moss.................     (304) 558-5388
Wisconsin..............................  Health and Family          Joe Leean................     (608) 266-7882
                                          Services.
Wyoming................................  Health...................  Phyllis Sherard..........     (307) 777-7942
----------------------------------------------------------------------------------------------------------------


                                <F-dash>


    Chairman Johnson of Connecticut. Thank you for your 
testimony, all of you. It is very, very impressive to me that 
the flexibility under TANF and the generosity of the funding is 
allowing us to begin to look at some of the causes of our 
problems rather than just the effects. I hope you will all be 
part of, without exception, standing up for a continued level 
funding of TANF because I think we are just now getting to the 
payoff of flexibility in funding, and if we don't stick with 
it, we will never get to solve some of the problems like 
nonmarital births but also the difficult problems of substance 
dependence and mental--untreated mental health problems and 
things like that.
    In fact, I think some of these programs that are aimed at 
discouraging teenagers from getting into inappropriate 
relationships will also get them into appropriate mental health 
relationships that are very important. When I hear these kids 
talk about their lives, honestly, the challenge to many of them 
is far greater than most of us have ever faced.
    So I think we do need to really fight for the TANF dollars 
to be maintained because they--and it was very impressive, the 
number and variety of State approaches that we see out there. 
It also is interesting that, Ms. Miller--let me see now, Ms. 
Maynard, the variety of things that you are evaluating and the 
different approaches. So it will be useful to us to see both of 
your reports as they get completed.
    In doing that oversight work, Ms. Maynard, is it difficult 
to determine whether or not programs are complying with the 
letter of the abstinence law? You ran into this problem that we 
have talked about in preceding panels of sort of gray area of 
being serious about abstinence but also providing some 
information about contraceptives.
    Ms. Maynard. We have gone about our work in a fairly 
strategic way. We have done a lot of homework before we have 
gone to the field, before we actually select our final set of 
sites for the evaluation. We are spending time in each site. We 
are actually observing programs, reviewing materials, spending 
a lot of time with the program staff. So we will be evaluating 
programs that are totally consistent with the legislation. We 
have not found it very difficult to determine what the messages 
in the programs are.
    Chairman Johnson of Connecticut. Would you say--what 
percentage of these programs would you say do include some 
information ultimately about safe sex?
    Ms. Maynard. Well, we have not surveyed all of the programs 
so, we have, as I said, gone about our work in a strategic way. 
I can say that most of the abstinence education programs that 
we have observed do address at some level issues of 
contraception, but they do not address them in a promotional 
way. They address them in a factual, informational way. It is 
not a major piece of the intervention.
    Chairman Johnson of Connecticut. Interesting. Would any of 
the rest of you have any comment on that? Mr. Tetelman, from 
sort of the practical point of your experience in New Jersey?
    Mr. Tetelman. Our programs always have balance in them. We 
don't have--the Department of Human Services isn't running the 
abstinence only grant in New Jersey. That is being done through 
the Department of Health and Senior Services, but what we have 
learned is that if you offer young people a balance and a 
connection with an adult to say, first, ``Look, the only safe 
way is not to have sex at all but if you are going to have sex 
then you need to protect yourself, you have to have knowledge 
about it, and come talk to me''. You know, most of the time 
when young people come talk to an adult they learn how to make 
decisions because that is really what they are looking for in 
many cases, how do I make a decision, I am getting pressure, 
how do I actually come down to saying yes or no or is this 
really what I want to do, and having that touch by that adult, 
somebody they trust, we wish it were the parents more than it 
is, but unfortunately, it is mostly staff in many of our sites, 
makes a difference in young people obviously making the right 
decision. Those statistics from the Pineline High School are 
unbelievable.
    Chairman Johnson of Connecticut. That was very impressive.
    Mr. Tetelman. And it has been consistent for over 8 years. 
It really was a drop and we have received a Dodge grant to try 
to replicate it in some of our other sites, including our urban 
sites.
    Chairman Johnson of Connecticut. In that instance, do you 
know much about whether the level of sexual activity dropped? 
Did it drop among the early groups but later on actually, in 
other words, it might not have dropped among the early groups, 
the early groups might have just used contraceptives, but the 
upcoming groups might actually have changed their behavior? Do 
you have any----
    Mr. Tetelman. It is all anecdotal, but I have actually 
asked the same question of staff, and they say it is a real 
mix, that some young people just make a decision, they get 
their act together and say I have other things I want to do 
with my life and I am not going to engage in sex. And other 
ones say, ``Well, if I am going to engage, I am going to be 
responsible about those activities.'' It is really mixed. We 
don't have clean lines on it, but I think it is important to 
offer--you know, we can't stick our heads in the sand and think 
kids aren't going to have sex. They have sex, and if they are 
going to have sex, we need to have a balance here to make sure 
that they get the right information and protect themselves so 
we don't have unwanted pregnancies.
    Chairman Johnson of Connecticut. But certainly in those 
programs, too, what is happening is that kids are getting a lot 
of support to not have sex.
    Mr. Tetelman. Absolutely, and the important thing is having 
that connection with adults and having activities for young 
people. I mean, we can talk about lots of different things, but 
unless you have programs that kids can be involved in, whether 
it is after school or jobs or things that keep them from free 
time where they can get in trouble, that makes the biggest 
difference.
    Chairman Johnson of Connecticut. Anyone else have any 
comment you want to make before we close? Yes, Ms. Miller.
    Ms. Miller. I just want to say that one of the things we 
have learned at the campaign is that the programs, as you say, 
are very important, and they don't have to be focused 
necessarily on pregnancy prevention or on sex ed or on 
abstinence or on contraception. They have to include a 
consistent, caring adult, skill building or opportunities to 
excel, and they have to go on long enough to make a difference 
in the lives of the young people.
    Chairman Johnson of Connecticut. That certainly is what 
Pathways/Senderos has found in our area, that the whole issue 
really is trust and consistency and being there and that the 
longer they are, the more the issue of contraceptive knowledge 
is far from central. It is just an aside, but it does--the 
questions do come up partly because they need that information 
to counter their peers.
    Thank you very much, all of you who have testified today. 
We do appreciate your input, and I also think one of the wise 
things about the Welfare Reform bill was that it did take some 
different approaches that has enabled us to get this 
conversation out in the open where our kids can benefit more 
from it, and hopefully, we can benefit more from it, and as Ms. 
Ware said, stop sending quite such contradictory messages to 
our own children. Thank you very much.
    [Whereupon, at 12:15 p.m., the hearing was adjourned.]

                                   - 

</pre></body></html>
